<html>
<title> - IMPROVING EMPLOYMENT OPPORTUNITIES FOR PEOPLE WITH INTELLECTUAL DISABILITIES</title>
<body><pre>[Senate Hearing 112-771]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-771
 
                  IMPROVING EMPLOYMENT OPPORTUNITIES 

               FOR PEOPLE WITH INTELLECTUAL DISABILITIES
=======================================================================


                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,

                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

             EXAMINING IMPROVING EMPLOYMENT OPPORTUNITIES 

               FOR PEOPLE WITH INTELLECTUAL DISABILITIES

                               __________

                             MARCH 2, 2011

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


      Available via the World Wide Web: http://www.gpo.gov/fdsys/





                  U.S. GOVERNMENT PRINTING OFFICE
80-955                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland
JEFF BINGAMAN, New Mexico
PATTY MURRAY, Washington
BERNARD SANDERS (I), Vermont
ROBERT P. CASEY, JR., Pennsylvania
KAY R. HAGAN, North Carolina
JEFF MERKLEY, Oregon
AL FRANKEN, Minnesota
MICHAEL F. BENNET, Colorado
SHELDON WHITEHOUSE, Rhode Island
RICHARD BLUMENTHAL, Connecticut

                                     MICHAEL B. ENZI, Wyoming
                                     LAMAR ALEXANDER, Tennessee
                                     RICHARD BURR, North Carolina
                                     JOHNNY ISAKSON, Georgia
                                     RAND PAUL, Kentucky
                                     ORRIN G. HATCH, Utah
                                     JOHN McCAIN, Arizona
                                     PAT ROBERTS, Kansas
                                     LISA MURKOWSKI, Alaska
                                     MARK KIRK, Illinois
                                       
                                       

                    Daniel E. Smith, Staff Director

                  Pamela Smith, Deputy Staff Director

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)



                            C O N T E N T S

                               __________

                               STATEMENTS

                        WEDNESDAY, MARCH 2, 2011

                                                                   Page

                           Committee Members

Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia, 
  statement......................................................     3
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  prepared statement.............................................     3
Blumenthal, Hon. Richard from the State of Connecticut, statement    85

                           Witnesses--Panel I

Ruttledge, Hon. Lynnae, Commissioner, Rehabilitation Services 
  Administration, Washington, DC.................................     5
    Prepared statement...........................................     7
Lewis, Sharon, Commissioner, Administration for Children and 
  Families, Department of Health and Human Services, Washington, 
  DC.............................................................    13
    Prepared statement...........................................    15

                          Witnesses--Panel II

Evans, Joan K., Director, Wyoming Department of Workforce 
  Services , Cheyenne, WY........................................    27
    Prepared statement...........................................    29
Lewis, J. Randolph, Senior Vice President of Supply Chain and 
  Logistics, Walgreen Co., Deerfield, IL.........................    36
    Prepared statement...........................................    37
Egan, David, Booz Allen Hamilton Employee, Special Olympics 
  Athlete and Global Messenger, Former Board Member of Special 
  Olympics Virginia (Sova), Board Member of the Down Syndrome 
  Association of Northern Virginia (DSANV), Board Member of the 
  Down Syndrome Affiliates in Action (DSAIA), McLean, VA.........    41
    Prepared statement...........................................    44
Kiernan, William E., Ph.D., Director and Research Professor, 
  Institute for Community Inclusion, University Center on 
  Developmental Disabilities, University of Massachusetts Boston 
  and Children's Hospital, Boston, MA............................    64
    Prepared statement...........................................    66

                                 (iii)



                   IMPROVING EMPLOYMENT OPPORTUNITIES

               FOR PEOPLE WITH INTELLECTUAL DISABILITIES

                              ----------                              


                        WEDNESDAY, MARCH 2, 2011

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:06 a.m., in 
room SD-430, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin, Franken, Blumenthal, Enzi, and 
Isakson.

                  Opening Statement of Senator Harkin

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will please come to order.
    First, I just want to apologize. I should have anticipated 
a bigger crowd, but I'm sorry for the small size of the hearing 
room. We've tried to open up the ante room to get as many 
people as possible in here.
    Do we have to shut the doors? There may be some people 
there that can hear outside. We have a great group. If we can 
keep those doors open, and then we'll try to get in as many 
people as possible. Maybe we'll just have to do some rotations 
or something here, because I know there's a lot of people in 
the hallway who would like to be in on this hearing.
    I am instructing my staff to set up as many chairs in here 
as possible for people that need to sit. If you can stand--I 
apologize--you can stand. But I'm more than willing to get some 
extra chairs in here to get as many people as possible in this 
room and maybe even in the center aisle. I don't know if the 
fire marshal will let us do that or not, but let's just see 
what we can do, Michael.
    Well, the title of this hearing is Improving Employment 
Opportunities for People with Intellectual Disabilities. We're 
here today to examine the barriers, and, most importantly, 
identify solutions to increase the employment participation 
rate of individuals with disabilities.
    For this hearing, we focus first on persons with 
intellectual disabilities, because, in many ways, they have 
faced the most significant barriers and the lowest employment 
participation rates of any group of individuals with 
disabilities.
    According to some sources, the employment participation 
rate for persons with intellectual disabilities is as low as 
23.9 percent. What that means is 76 percent are not working.
    Persons with intellectual disabilities also may face the 
most significant barriers to employment, that of poor attitudes 
about their abilities and low expectations for their 
possibilities. We're here today to identify strategies for 
increasing employment participation for this important group of 
our citizens.
    Participation in the workforce has many benefits for all of 
us beyond the obvious benefit of providing an income. 
Employment allows for the creation of social networks. It 
creates a community of colleagues and friends, and integrated 
competitive employment helps to create social networks that 
reach far into the community.
    When people with disabilities work, they become part of 
their communities and have the opportunity to contribute to 
those communities. Having a job has been tied to better health, 
longer life, and greater satisfaction with life, for people 
with disabilities. And, of course, it reduces the likelihood 
that they will live in poverty.
    Employment for persons with disabilities benefits all of 
society. Individuals with disabilities who are working even 
with services, such as supported employment, show a net fiscal 
gain for society. In other words, it doesn't really cost us. It 
adds to our society in a fiscal sense.
    Employers report that this group is a dedicated, loyal 
group of employees, that they have a lower rate of turnover, a 
lower absentee rate, and greater productivity. There are great 
benefits to employing persons with disabilities for the 
individual, for the business and for society at large.
    Recognizing the scope and urgency of this challenge, 15 of 
the most significant organizations working with individuals 
with developmental disabilities have joined together to form 
the Alliance for Full Participation. The Alliance will hold a 
conference in November focusing on competitive, integrative 
employment and will set a goal of doubling the employment 
participation rate of persons with intellectual and 
developmental disabilities by 2015.
    So this hearing is one of the first steps to address this 
problem of under participation in our workforce by persons with 
disabilities.
    I'm asking my colleagues to join with me in working toward 
the great goals of significantly increasing the employment 
rate, decreasing the poverty rate and increasing the quality of 
life of persons with disabilities.
    The important work we have done since the landmark passage 
35 years ago of the Individuals With Disabilities Education Act 
and 20 years ago of the Americans With Disabilities Act, which 
dramatically improved the lives of persons with disabilities. 
So we've addressed education. We've addressed access. Now, we 
must address employment and economic well-being.
    Before we move into our first panel, I wanted to 
acknowledge two individuals in the audience who have devoted 
their lives to improving opportunities for people with 
intellectual and developmental disabilities, Tim Shriver and 
Anthony Shriver. Where are you? Are you out here someplace?
    [Applause.]
    Thank you both. Thank you for your fabulous work with both 
Special Olympics International and the Best Buddies programs. 
You're carrying forward the proud legacy of your uncles and 
your mother in this regard.
    As you know, I worked for many years with Senator Kennedy 
and with your mother, Eunice Kennedy Shriver, on issues related 
to disabilities. I know they would both be enthusiastically 
supportive of the efforts that we're making here today. In 
fact, your mother once said of people with intellectual 
disabilities that they had earned--and here's her quote--the 
right to play on any playing field, to study in any school, the 
right to hold a job.
    Well, she was right, and I hope, through this hearing 
today, that we honor her words and continue to work toward the 
great goal of increasing the employment participation rate for 
persons with intellectual disabilities. By doing so, we will 
improve the quality of their lives and the quality of life for 
all citizens. Thank you.
    Now, I will ask my--Well, hold the record open for a 
statement by Senator Enzi who couldn't be here at the 
beginning.
    Oh, you're going to read it? OK. Then I'll yield to Senator 
Isakson.

                      Statement of Senator Isakson

    Senator Isakson. Well, thank you, Chairman Harkin, for 
holding the hearing on this important topic, and I am pleased 
to sit in for Senator Enzi who will be here shortly, but could 
not be here at the beginning.
    I'm pleased also to submit and read his statement for the 
record.
    [The prepared statement of Senator Enzi follows:]

                   Prepared Statement of Senator Enzi

    Senator Isakson. Since the passage of the Americans With 
Disabilities Act over 20 years ago, Democrats and Republicans 
have regularly come together to support policies that encourage 
the participation of individuals with disabilities in all 
aspects of life, including participation in the workforce.
    Americans are in agreement that individuals with 
intellectual disabilities can and should participate in the 
workforce. Beyond providing tangible contributions to their 
employers, evidence is clear that the overall workplace morale 
is boosted with an inclusive environment for individuals with 
intellectual disabilities.
    Regrettably, the employment opportunities for Americans 
overall continues to be strained due to the extended economic 
downturn resulting in sustained unemployment levels in excess 
of 9 percent.
    People with disabilities have been particularly hit hard by 
current economic challenges that limit their opportunities to 
participate in the workforce resulting in lower workforce 
participation rates over the past few years. These continued 
low rates raise a number of questions about how we can promote 
competitive, integrated employment, particularly for those who 
are the focus of today's hearing.
    I am pleased, on behalf of Senator Enzi, the Ranking 
Member, to acknowledge Joan Evans, the director of Workforce 
Services in the State of Wyoming. She's agreed to be with us 
today and share, on the second panel, her perspectives on the 
firsthand experiences in increasing the competitive, integrated 
employment opportunities of individuals with intellectual 
disabilities.
    I'm particularly interested in hearing how Wyoming is 
leveraging partnerships with private companies, such as Lowe's, 
to create good jobs. As Ms. Evans' testimony will show, States 
and the private sector should be in the forefront of developing 
innovative partnerships that lead to competitive, integrated 
employment opportunities.
    One of the barriers I believe employers and individuals 
with intellectual disabilities face is the array of disjointed 
services that programs are available to facilitate and support 
competitive, integrated employment.
    As the Government Accounting Office has repeatedly noted 
for the better part of the past decade, efforts from the 
Federal level are far too disparate, lacking coordination and 
coherence, ultimately leading to a confusing mess of 
inefficient programs. This stark reality is highlighted yet 
again in GAO's list of programs identified as high risk and in 
need of reform as a categorization that has been placed in the 
Federal disabilities program since the year 2003.
    GAO claims these programs are high risk because, as stated 
in the report, they are grounded in outmoded concepts that have 
not been updated to reflect the current State of science, 
medicine, technology and the labor market conditions.
    GAO has also recently noted that for the Federal Government 
existing hiring procedures are not well understood and 
effective outreach strategies are lacking for individuals with 
disabilities.
    Equally concerning is the fact that we have little 
information on why people with disabilities leave their 
positions within Federal agencies, leaving many unanswered 
questions about the effectiveness of our own outreach and 
accommodations. I believe the Federal Government must and 
should lead by example, and we have a lot to learn if we choose 
to take on this leadership role.
    Mr. Chairman, I look forward to hearing the testimony today 
and working with you in the future to the improvement of access 
for employment for all with intellectual disabilities.
    The Chairman. Thank you very much, Senator Isakson.
    Before I introduce our first panel, I just want to note 
that I think we have a vote at 11 o'clock on the continuing 
resolution. So we'll have a brief break around 11 o'clock.
    First, we have the Honorable Lynnae Ruttledge, who is a 
presidential appointee serving as commissioner of the 
Rehabilitative Services Administration in the Department of 
Education.
    Ms. Ruttledge previously worked for the Washington 
Department of Social and Health Services, and also worked for 
the Oregon Department of Human Services in the Office of 
Vocational Rehabilitation Services. She has over 20 years of 
leadership experience in public vocational rehabilitation 
programs as well as over 20 years of experience in 
international diplomacy.
    After Ms. Ruttledge, we'll hear from the Honorable Sharon 
Lewis, appointed commissioner of the Administration on 
Developmental Disabilities in the U.S. Department of Health and 
Human Services.
    Ms. Lewis has worked in disability policy for more than 10 
years at the local, State and national levels, and originally 
came here as a Kennedy Foundation Public Policy Fellow working 
for the HELP Committee here on our Subcommittee on Children and 
Families. In 2007, however, she left this side and went over to 
the other side----
    [Laughter.]
    The Chairman [continuing]. The House of Representatives, 
and worked for the Education and Labor Committee there as a 
senior disability policy advisor. Before coming to Washington, 
Ms. Lewis worked on public policy for the Oregon Developmental 
Disabilities Coalition and for The Arc.
    Ms. Lewis is also a parent of three daughters, including 
one with a disability.
    Your statements will be made a part of the record in their 
entirety. We'll start with you, Ms. Ruttledge. Welcome, again, 
to the committee, and if you could sum up your statement in 5 
or 7 minutes or so, I would be most appreciative. Thank you.

  STATEMENT OF LYNNAE RUTTLEDGE, COMMISSIONER, REHABILITATION 
            SERVICES ADMINISTRATION, WASHINGTON, DC

    Ms. Ruttledge. Well, I have this counter in front of me, so 
I think I'm going to know when I'm at my limit.
    First of all, Mr. Chairman, Senator Isakson and members of 
the staff and all of the other committee members, thank you. 
Thank you for the work that you do. Thank you for the 
commitment that you have to really helping us figure out how 
are we going to improve employment for people with 
disabilities, and especially youth with disabilities, and 
especially youth with intellectual disabilities.
    We have a whole room of people that are interested in this 
topic, and I have to tell you that across the country there 
couldn't be anything that's more important than addressing 
issues related to employment.
    As you mentioned, I am the commissioner of the 
Rehabilitation Services Administration, and it's really my 
honor and pleasure to serve for the President and to serve the 
country in providing leadership to both vocational 
rehabilitation and independent-living programs nationwide.
    I think that we're here today to help understand the 
barriers and the challenges, but also the opportunities that 
exist so that we can increase employment for people with 
disabilities and so that we can really impact the transition 
outcomes for youth with intellectual disabilities.
    In order to be able to achieve competitive, integrated 
employment, we need to look at some very specific barriers and 
then opportunities to overcome those barriers. You mentioned 
this in your opening remarks, Mr. Chairman, that we have to 
establish high expectations, and I think that's where it really 
needs to start. We continue to know that attitudes are really 
the most significant barrier that exists. We need to work 
together to be able to design and provide the support services 
that people need, so that when they do go to work they are able 
to be successful and they're able to achieve their potential.
    We need to be able to address the barriers that limit an 
individual's decision to be able to go to work and sometimes 
discourage them from seeking better-paying jobs, and some of 
those relate to asset limits, some of those relate to really a 
low expectation about what someone's earning wage could be.
    We have to assess where we are now and where we need to get 
to in terms of really judging the performance of our programs. 
I'm the first to always acknowledge that we need to do better, 
and we have, I think, an opportunity through these hearings, to 
be able to look at what could that look like.
    And we'll be able to learn from some of the States that 
have already shown that they do know how to increase employment 
outcomes for individuals with intellectual disabilities. States 
like Wyoming and Washington and Vermont and Connecticut and 
Arizona within their vocational rehabilitation programs are 
placing youth with intellectual disabilities at more than $4 an 
hour. It's a start. So we know that it's possible.
    We need to look at the promising practices that exist and 
build on those. We need to share them. We need to learn from 
those State partnerships that have really helped us to be able 
to figure out strategies, so that youth with intellectual 
disabilities are able to do jobs not just in housekeeping, not 
just in administrative support, but in health care and in 
production and in starting to learn how to own their own 
business. Those are the possibilities that exist for us, and we 
know that that's happening throughout the country. We need to 
build on it.
    We need to be able to target our research and our 
demonstration activities to really identify those additional 
effective models. We know that supported employment works. We 
need to build on that.
    We need to look at ways to develop more models that 
integrate workplace supports, so that individuals with 
significant disabilities can be employed in the public sector, 
the private sector and the nonprofit sector.
    We know that there's going to be an increasing demand in 
our economy for skilled workers, and we know that having access 
to postsecondary education is one of those key factors that 
allows someone to be able to earn a better wage and demonstrate 
greater skills.
    We know there are programs, hundreds of them throughout the 
country, that are including individuals with intellectual 
disabilities in the mainstream of their programs, and we're 
demonstrating the success that can result from that, and it 
really does allow people to take those next steps toward 
independent living and their careers.
    We know that leadership in both business and governmental 
agencies is what's necessary to be able to move that bar 
forward, and I know that that's one of the things that you talk 
about, Senator Harkin, is that we've got to raise the bar and 
we just need to figure out what it's going to take to support 
those leaders to help us be more successful.
    I have lots and lots of examples, but I want to stop here 
and say we share your commitment and we know that this is the 
beginning of the dialogue. We also know that people with 
intellectual disabilities, especially youth with intellectual 
disabilities, deserve nothing less from us.
    So thank you very much for this opportunity.
    [The prepared statement of Ms. Ruttledge follows:]
                 Prepared Statement of Lynnae Ruttledge
    Mr. Chairman and members of the committee, thank you for this 
opportunity to appear before the committee today. Mr. Chairman, your 
decades of leadership in and commitment to inclusion of individuals 
with disabilities as full partners in every facet of our society has 
resulted in significant gains. I applaud you for continuing to seek 
greater understanding of the barriers that prevent individuals with 
disabilities from being full partners in our society and for your 
tenacity in seeking solutions. Senator Enzi, I want to also thank you 
for your leadership in this area and for your continued commitment to 
skills training and employment of people with disabilities.
    I am pleased to discuss the Vocational Rehabilitation (VR) State 
Grants program administered by the Rehabilitation Services 
Administration (RSA) in the Office of Special Education and 
Rehabilitative Services under the U.S. Department of Education. It is 
an honor to serve as the Commissioner of RSA and to provide national 
leadership for the public VR and independent living programs. Before 
accepting my presidential appointment 14 months ago, I served as the 
director of the Washington State Division of Vocational Rehabilitation 
from 2005-9 and bring more than 30 years of experience to the work that 
I do. My national and State level experiences give me a unique 
perspective on the challenges and barriers that young people with 
intellectual disabilities face and on the possibilities available for 
more successful transition outcomes.
    Today, I will discuss some of the Department's programs and efforts 
related to youth with disabilities. However, my attention is primarily 
given to youth with intellectual disabilities and how State VR agencies 
serve in a leadership role to support youth with intellectual 
disabilities to develop and maintain careers. Work is an important 
marker of full inclusion and participation in the American economy and 
society.
    The VR State Grants program, authorized under Title I of the 
Rehabilitation Act, is a Federal/State program that assists individuals 
with disabilities to obtain, regain and maintain employment. 
Nationally, there are about 1 million individuals with disabilities in 
various phases of the vocational rehabilitation process within the VR 
system, about 93 percent of whom are individuals with significant 
disabilities. State VR agencies may provide a variety of individualized 
services, including community-based assessments and functional 
evaluations, vocational training, career guidance, job placement, on-
the job supports, and other services that are necessary to achieve an 
employment outcome. Services are provided under an Individualized Plan 
for Employment (IPE) based on the individual's strengths, resources, 
priorities, concerns, abilities, capabilities, interests, and informed 
choice.
    The VR program has yielded measurable results for decades. In 
fiscal year 2009, State VR agencies assisted approximately 180,000 
individuals to achieve employment, 93 percent of whom were individuals 
with significant disabilities. Of the individuals who achieved 
employment, 95 percent obtained competitive employment. In the VR 
program, competitive employment means that the employment is in an 
integrated setting with earnings at or above the minimum wage.
    My vision for youth with intellectual disabilities begins with 
establishing high expectations. It is incumbent upon all of us--
educators, service providers, parents, students, and employers--to 
expect more from and for our country's youth with intellectual 
disabilities. We need to expect that youth with intellectual 
disabilities can engage in a broad range of work occupations, not just 
a few ``traditional'' occupations, such as janitorial, food service and 
office occupations. We should expect that youth with intellectual 
disabilities can earn wages that can lead to self-sufficiency. Some 
youth with intellectual disabilities are currently finding employment 
outside the ``traditional'' occupations in healthcare, banking, and the 
Federal Government, and are earning good wages. But we need to do more 
and we can do more.
    To help more youth with intellectual disabilities reach higher 
goals, we are:

    <bullet> assessing where we are now to establish performance goals 
for our programs that reflect high expectations;
    <bullet> identifying current promising practices in order to 
evaluate results and identify successful models for replication;
    <bullet> targeting research and demonstration activities to develop 
additional effective models; and
    <bullet> making investments to support the implementation of 
current and new practices.

                           where are we now?
Individuals with Disabilities Education Act (IDEA) Data
    We know that both schools and VR agencies play major roles in 
preparing and placing youth with intellectual disabilities into 
employment. Current IDEA trend data from the Office of Special 
Education Programs (OSEP) show that graduation rates for students with 
disabilities are improving, but less dramatically for students with 
intellectual disabilities. The percentage of students with disabilities 
who left school by graduating with a regular high school diploma 
increased from 46 percent in school year 1998-99 to 60.0 percent in 
school year 2008-9. For students with intellectual disabilities, the 
percentage who left school by graduating with a regular high school 
diploma increased from 36.8 percent to 38.7 percent in the same period. 
Dropout rates show better improvement than graduation rates for 
students with intellectual disabilities. The percentage of all students 
with disabilities who left school by dropping out decreased from 42.6 
percent in school year 1998-99 to 22.4 percent in school year 2008-9. 
For students with intellectual disabilities, the percentage dropping 
out decreased from 36.0 percent to 19.8 percent during that decade. 
These positive trends suggest that OSEP and RSA's focus on improving 
transition services are resulting in greater success and that there are 
pockets of excellence in our special education and VR systems that we 
can build on.
VR Program Data on Youth With Disabilities
    In fiscal year 2009, there were approximately 330,000 individuals 
whose service records were closed after receiving services under an 
IPE. Of these individuals, about 107,400 (33 percent) were youth with 
disabilities aged 14-24 at time of application for VR services. Of 
these transition-age youth with disabilities, 17,198 (16 percent) were 
youth with intellectual disabilities.
    RSA data also show that fewer youth with intellectual disabilities 
who apply for VR services drop out of the VR program after only 
applying for services as compared to the larger group of all youth with 
disabilities. Only 3.8 percent of youth with intellectual disabilities 
exited the VR services program from applicant status, while 13.6 
percent of all youth with disabilities exited the VR services program 
from applicant status. We believe that local partnerships and increased 
collaborative efforts to assist youth with intellectual disabilities 
may be having a positive impact on the VR dropout rate for this 
population.
Services
    The VR services most commonly provided to youth with intellectual 
disabilities include job readiness training (26.7 percent), job search 
assistance (31 percent), job placement services (44.8 percent) and on-
the-job supports (39.8 percent). Supportive services such as 
transportation (23.8 percent) and maintenance (11.5 percent) are also 
provided as needed. Of the 17,198 youth with intellectual disabilities 
whose service records were closed after receiving VR services in fiscal 
year 2009, 1,266 (7.4 percent) received postsecondary occupational or 
vocational training, and an additional 528 (3.1 percent) received 
college or university training. New initiatives promoting postsecondary 
programs for youth with intellectual disabilities and recent changes in 
the Higher Education Opportunity Act and regulations making student 
financial aid available for youth with intellectual disabilities should 
improve these numbers.
Employment Outcomes
    Fiscal year 2009 VR data show that transition-age youth with 
intellectual disabilities achieve employment outcomes at about the same 
rate as other transition-age youth with disabilities (52.3 percent vs. 
53.7 percent). In addition, of the approximately 55,650 transition-age 
youth with disabilities who obtained competitive employment outcomes in 
that year, a total of 8,339 (14.4 percent) were youth with intellectual 
disabilities. However, youth with intellectual disabilities were about 
three times more likely to achieve competitive employment with supports 
(supported employment) than other transition-age youth participating in 
the VR program.
Broad Occupational Areas
    There are indications that VR consumers are being employed in a 
broad range of occupational areas. In fiscal year 2009, VR employment 
outcomes for youth with intellectual disabilities occurred in 25 
occupational areas. However, the employment outcomes were still 
concentrated in food preparation and service (24.1 percent of 
employment outcomes for youth with intellectual disabilities), cleaning 
and maintenance occupations (16.4 percent), and office and 
administrative support occupations (11.4 percent). Youth with 
intellectual disabilities also achieved employment outcomes in 
production occupations (8.9 percent); personal care and service 
occupations (7.7 percent); sales and related occupations (7 percent); 
installation, maintenance and repair occupations (4.1 percent); 
healthcare support occupations (2.2 percent); and constructive and 
extraction occupations (1.4 percent).
Earnings and Hours Worked
    To help individuals with intellectual disabilities reach earnings 
that lead to self-sufficiency, State VR agencies and their partners are 
looking at ways to maximize their participation in the workforce, 
increasing both hours worked per week and hourly wages, consistent with 
the informed choice of the individual. RSA 2009 data show that youth 
with intellectual disabilities who achieved competitive employment 
worked on average 24.4 hours per week and earned on average $7.70 per 
hour. By comparison, all youth with disabilities achieving competitive 
employment worked on average 30.4 hours per week and earned $9.51 per 
hour on average. Transition-age youth with intellectual disabilities 
achieve full-time employment (defined as 35 or more hours per week) 
only about half as often as all transition-age youth.
    Some VR agencies are doing better in assisting youth with 
intellectual disabilities to achieve full-time employment outcomes with 
good wages. For example, RSA data shows that West Virginia, South 
Carolina, Georgia, Delaware, and Nebraska have found full-time jobs for 
more than 40 percent of transition-age youth with intellectual 
disabilities participating in their VR services programs. Other States, 
including Connecticut, Vermont, Washington, Wyoming and Arizona, have 
demonstrated success in placing eligible VR youth with intellectual 
disabilities in jobs with wages higher than $9.00 per hour.
    Youth with intellectual disabilities may work less than full-time 
as a result of individual circumstances, but there also are other 
factors such as system barriers, the lack of available supports, as 
well as the effect of low expectations that affect their level of 
participation and earnings in the workforce. For example, lower hourly 
wages may also be a result of low expectations and/or employment in 
traditional occupations. Approaches that will lead to employment in a 
broader range of occupations may also result in commensurately higher 
hourly wages.
   current pockets of excellence, promising practices and initiatives
    Now, I will highlight some promising and innovative practices that 
are showing positive results. In many of these practices, a key factor 
is creative collaboration among providers and stakeholders. RSA is 
working closely with the Department's Office of Special Education 
Programs and the Office for Postsecondary Education to coordinate 
transition efforts for youth with intellectual disabilities. In 
addition, RSA is working with the Department of Labor and other Federal 
partners to identify solutions to some of the existing system barriers, 
but we can do more.
    Although we have ongoing collaborative activities and data sharing 
agreements with the Social Security Administration (SSA), more work 
with SSA and the Department of Health and Human Services (HHS), and the 
Centers for Medicare and Medicaid Services (CMS) is needed to identify 
system barriers and solutions. For example, the Affordable Care Act 
created new options and additional flexibilities for the provision of 
home and community-based services in Medicaid. The findings and 
information obtained from this interagency information exchange will be 
disseminated through our 2012 Institute on Rehabilitation Issues paper 
on the implications of the Affordable Care Act for improving VR 
outcomes.
    At the State and Federal level, a number of collaborative program 
models are exhibiting encouraging results. In Iowa, the State VR 
agencies have had success working with the Veterans Administration (VA) 
to place students with intellectual disabilities in high paying, full-
time Federal employment with benefits. The VA shared position 
descriptions with the VR agency. For example, the VR agency has 
conducted job analyses for a variety of jobs using position 
descriptions shared by the VA. The VR agency then pre-screened 
candidates to refer job-ready individuals for direct hire through the 
Federal Government's schedule A appointing authority. In addition, the 
VR agency implemented customized training programs to develop a pool of 
job-ready candidates for future workforce needs.
    In Ohio, Project Search, a nationally recognized transition 
program, began in a hospital setting and has been widely replicated in 
private industry and government, including within the Federal 
Government at the Departments of Education, Health and Human Services 
and Labor. Project Search exemplifies interagency collaboration among 
school systems, VR agencies and business communities to provide paid 
work experiences and internships for youth with intellectual 
disabilities prior to exiting school. Project Search offers job 
readiness training and experiential learning for high school seniors 
with intellectual disabilities through total immersion at the employer 
work site. This program is a model for exposing youth with intellectual 
disabilities to a variety of nontraditional work settings while 
changing employers' attitudes about the capabilities of individuals 
with intellectual disabilities.
    In Utah, a coalition of the State VR agency (DVR), the State 
Department of Services to Persons with Disabilities (DD), and advocacy 
groups planned and proposed a braided funding program of supports 
designed for youth with intellectual and developmental disabilities. 
The coalition presented a proposal to its State legislature indicating 
the compelling need for additional funds to support training and 
employment opportunities for individuals with intellectual and 
developmental disabilities. The Utah State legislature funded the Utah 
Partnership Plus initiative to serve eligible individuals waiting for 
DD services. The Utah DVR agency provided the up-front job placement 
services and the initial on-the job supports, and State appropriated 
funds were used to provide interim support until funds from Social 
Security Administration's Ticket to Work program became available for 
continued support.
    During the first 2 years, at an estimated cost of $245,000 per 
year, the Utah program provided services that resulted in employment 
for approximately 200 individuals with intellectual and developmental 
disabilities per year. Even in the current constrained fiscal 
environment, Utah State legislators have provided continued support for 
Utah Partnership Plus. With this continued funding, 44 individuals with 
intellectual and developmental disabilities were placed into employment 
in the first quarter of this fiscal year. This effort shows how 
collaboration among agencies and advocates can leverage funding and 
develop systems of support for youth with intellectual and 
developmental disabilities beyond the availability of VR services.
    The Maryland Division of Rehabilitation Services (DORS), in 
conjunction with public schools and TransCen, Inc., a research, 
training and development non-profit organization, has established 
relationships with employers in the Washington, DC area to place 
individuals with intellectual disabilities in competitive employment. 
Working with the Maryland DORS, TransCen uses an internship approach 
that in many cases results in employment. TransCen also provides a job 
development function in assisting DORS, schools, and employers deliver 
employment experiences for youth with intellectual disabilities. Youth 
with intellectual disabilities have obtained employment in law firms, 
hotels and the Federal Government. These efforts show how the use of 
worksite-based internship approaches can result in employment in a 
broad range of occupations.
    My last example is from the State of Washington. Washington leaders 
who shared a commitment for improving employment outcomes for 
individuals with intellectual disabilities worked in collaboration with 
community colleges to create an employment specialist certificate 
program. These professionals provide employment support to individuals 
with intellectual disabilities and play an integral role in assisting 
people to become contributing members of their community. The program 
offers high quality training taught by skilled professionals, builds on 
the skills of the participants, provides opportunities for networking, 
and builds future leaders in supported employment.
    These models are examples of just some of the promising 
partnerships and practices we can cultivate, disseminate, and replicate 
to improve outcomes, not just in isolated areas, but all across the 
country.
      research and demonstration activities to develop additional 
                          models or practices
    The Department has invested in many research projects over the last 
few years to continue to identify and tackle the challenges faced by 
youth with intellectual disabilities, many of them housed at the 
Institute for Community Inclusion. You will hear from Bill Kiernan, the 
Institute director, today.
    Examples of projects funded by the National Institute on Disability 
and Rehabilitation Research (NIDRR) include the following:

    <bullet> The Rehabilitation and Research Training Center for 
Vocational Rehabilitation Research (VR RRTC) conducts a project that 
identifies and evaluates best practices in VR employment services for 
individuals with developmental disabilities. The VR RRTC disseminates 
products and new knowledge throughout the VR and workforce systems, and 
to a number of disability and advocacy organizations.
    <bullet> The University of Minnesota is developing a multi-state 
database on predictors of individual outcomes for persons with 
intellectual and developmental disabilities. The purpose of the study 
is to merge and analyze the records of more than 10,000 randomly 
sampled adults from 15 purposely selected, nationally distributed 
States to examine the interactions among individual characteristics, 
service delivery models and settings, and individual outcomes and 
experiences. The project will evaluate the methods that support 
individuals with intellectual and developmental disabilities at work 
and in their communities.
    <bullet> Syracuse University (SU) is building and evaluating the 
Peer-to-Peer Project, a peer support network for students with 
significant intellectual and developmental disabilities in higher 
education. This project operates a network of undergraduates to provide 
peer supports to students with significant disabilities who are taking 
classes at SU. SU has a dual enrollment program for students up to age 
21 in high school, and an access program for students over age 21 who 
have finished high school. Students with intellectual and developmental 
disabilities audit courses to meet personal, academic, and vocational 
goals. The Peer-to-Peer Project operates from an innovative, 
universally designed, and person-centered framework that uses peer 
support in flexible, individualized ways, as needed by students with 
intellectual disabilities to fulfill goals and maximize inclusion.
    <bullet> The Center on Postsecondary Education for Students with 
Intellectual Disabilities conducts research and disseminates 
information on promising practices that facilitate and support 
individuals with intellectual disabilities access to inclusive 
postsecondary education resulting in improved long-term independent 
living and employment outcomes. This Center conducts research to 
address the gaps in knowledge about participation of individuals with 
intellectual disabilities aged 13-26 participating in postsecondary 
education programs.

    In addition to NIDRR's research projects, the Department awarded 
$10.9 million in 2010 to support grants under the Model Transition 
Programs for Students with Intellectual Disabilities into Higher 
Education (TPSID) program. The TPSID program, authorized in 2008 by the 
Higher Education Opportunity Act of 2008 (HEOA), supports model 
postsecondary programs and demonstrations that promote the successful 
transition of students with intellectual disabilities into higher 
education. TPSID grants were awarded to 27 postsecondary institutions 
and consortia of institutions to enable them to create or expand high 
quality, inclusive model comprehensive transition and postsecondary 
programs for students with intellectual disabilities to attend college. 
Funds were also awarded to support a coordinating center at the 
Institute for Community Inclusion to establish performance measures and 
to compile data on program participants and their outcomes.
                      new investment opportunities
    The President's fiscal year 2012 budget proposes strategic 
investments that will fuel the continued innovation and collaboration 
necessary to achieve outcomes that will lead to individual self-
sufficiency and justify keeping expectations high for young people with 
intellectual disabilities.
    Future success must start with a strong and inclusive education 
foundation. The President and Secretary believe that students with 
disabilities are general education students first, so the President's 
2012 budget prioritizes investment in programs that will encourage 
innovation, support State- and district-led reform, and help improve 
outcomes for students with disabilities in the context of the regular 
education environment.
    In addition, proposed increased investments in IDEA programs signal 
the President's steadfast commitment to the need for individualized 
services and supports for young people with disabilities. With a 
proposed increase of $200 million for IDEA Part B Grants to States, the 
Department hopes to improve the quality of the education that students 
with disabilities receive so they can participate in the general 
education curriculum to the maximum extent possible and are prepared 
for college and a career.
    The 2012 budget request also includes an increase of $50 million in 
Part C for grants to States for early intervention services for young 
children with disabilities and their families, to encourage States to 
implement a seamless system of services for children with disabilities 
from birth through age 5. To support a holistic approach to the 
transition of young people on Supplemental Security Income (SSI) 
benefits, the President has requested $40 million for PROMISE: 
Promoting Readiness of Minors in SSI, a pilot program which would be 
jointly administered with the Social Security Administration, the 
Department of Health and Human Services, and the Department of Labor to 
improve health, education, and post-school outcomes of children who 
receive SSI.
    The Department has requested funding in fiscal year 2011 and fiscal 
year 2012 for continuation awards to the current 27 TPSID grantees and 
the coordinating Center as part of the request for the Fund for the 
Improvement of Postsecondary Education (FIPSE).
    The President's fiscal year 2012 budget request would provide 
approximately $3.1 billion for the VR State Grants program to assist 
individuals with disabilities to obtain and maintain employment. The 
Administration also believes that additional targeted investments in 
Rehabilitation Act programs are needed to help spur new and innovative 
approaches to improving postsecondary results for students with 
disabilities. To capitalize on the potential of technology to benefit 
individuals with disabilities, including youth with disabilities, $10 
million has been proposed for Access through Cloud Computing, a new 
initiative that would seek to improve Internet and technology access 
for individuals with disabilities through research and development 
activities to provide on-demand accommodations that are stored 
remotely. This new initiative would be administered by NIDRR in 
consultation with the National Science Foundation, the Access Board, 
the Office of Science and Technology Policy, and other White House 
offices. Access through Cloud Computing will benefit students and 
employees with disabilities who, as a result of this innovative 
research, will be able to bring their accessibility accommodations with 
them to any platform at schools, libraries and work locations.
    Finally, the President's 2012 budget request includes almost $380 
million for the Workforce Innovation Fund (Fund) to encourage 
innovation and support projects to identify and validate effective 
strategies for improving the delivery of services and outcomes for 
beneficiaries under the Rehabilitation Act and other programs 
authorized by the Workforce Investment Act. Jointly administered by the 
Department of Education and Department of Labor, the Fund would support 
competitive grants for projects that strengthen collaboration across 
program and agency lines, and identify the most promising approaches 
for improving services and achieving better outcomes. Some approaches 
we might explore include innovative models that provide youth with 
significant disabilities, including those with intellectual 
disabilities, opportunities for career exploration and work experience; 
leverage strategic partnerships among State VR agencies, community 
colleges, employers, and other nontraditional partners; and engage 
employers in creating full-time career opportunities with benefits for 
individuals with significant disabilities.
Planned 2011 Activities
    These 2012 investments will build upon the Department's strategies 
already underway. The VR program is an integral partner in achieving 
the goals set forth in the President's Executive Order 13548 that 
directs the Federal Government to be a model employer for hiring people 
with disabilities. State VR agencies that have proven success with 
Federal partnerships around the country will step up their technical 
assistance to assist in recruiting and hiring practices so that all 
Federal agencies and hiring officials will benefit.
    RSA has begun work on developing performance measures that reward 
States for reaching milestones that lead to better employment outcomes 
and self-sufficiency for youth with disabilities, especially those of 
transition-age youth who may require longer services and more supports.
    We will use what we have learned from RSA monitoring activities and 
knowledge translation research to accelerate the dissemination of 
information obtained from projects that support successful outcomes, 
provide technical assistance, as necessary include important partners, 
and to evaluate results of these projects. To that end, RSA, along with 
the other components of the Office of Special Education and 
Rehabilitative Services, will host a national conference that will 
inform participants about research findings and practices that have 
demonstrated improved educational and employment outcomes for youth 
with disabilities.
                               conclusion
    Our President's leadership is translated through our programs and 
passion. We share your commitment to and interest in seeing America's 
youth with intellectual disabilities have lives and careers that meet 
high expectations and enable them to live as independently as they 
desire. Our young people with intellectual disabilities deserve our 
best effort. We are excited about the potential demonstrated by our 
current projects, partnerships, and proposed investments. We look 
forward to working with you to accomplish what we know we can achieve 
together.
    Thank you and I am happy to take your questions.

    The Chairman. Thank you, Ms. Ruttledge, and now we'll turn 
to Ms. Lewis to proceed.

  STATEMENT OF SHARON LEWIS, COMMISSIONER, ADMINISTRATION FOR 
CHILDREN AND FAMILIES, DEPARTMENT OF HEALTH AND HUMAN SERVICES, 
                         WASHINGTON, DC

    Ms. Lewis. Good morning, Chairman Harkin, Senator Isakson 
and staff.
    I echo Ms. Ruttledge's comments in terms of thanking you 
for bringing this hearing to light and focusing on this 
important issue. I'm honored to be here representing 
Administration on Developmental Disabilities (ADD).
    I'd also like to thank all of the individuals with 
intellectual disabilities who are here with us today, as well 
as Special Olympics and Best Buddies, for all the great work 
that you have done over the years to support individuals with 
intellectual disabilities.
    Employment is a critical component of community living. As 
you mentioned in your remarks, chairman, work is not only the 
means to economic self sufficiency, it is also important, 
particularly for individuals with intellectual and 
developmental disabilities, for many other reasons--to 
contribute to community, to build a network of social 
relationships and to create opportunities for lifelong 
learning.
    To illustrate, I'd like to start with a story about a young 
man named Patrick who's involved with the Wisconsin 
Developmental Disabilities Council. Patrick started working 
when he was 16 as a high school sophomore. He found his job the 
same way that many of us find our first jobs, through community 
involvement and a network of relationships.
    At a retreat, Patrick's future boss saw him demonstrate a 
strong work ethic, attention to detail and a generous spirit. 
At the end of the retreat, he asked Patrick to apply for a job 
which Patrick ultimately got at $8.50 an hour as a starting 
wage in 2005.
    Now, 5 years later, Patrick is considered the star of his 
unit, having increased the overall productivity of the 
business. He gets regular raises and shares in all the company 
perks.
    Now, why is this otherwise typical story significant? 
Patrick is a young adult with Down syndrome who is working in 
integrated employment earning a competitive wage. His success 
can be attributed to several factors, including high 
expectations, a supportive family, hard work using social 
capital and personal networks, a welcoming employer and 
Patrick's own self-determination.
    Unfortunately, Patrick is part of a small minority. One 
study of recent high school graduates with ID/DD indicated that 
only 14 or so percent were earning at least minimum wage, and 1 
to 4 years after high school, youth with intellectual 
disabilities demonstrate the lowest rate of paid employment 
among students with disabilities.
    As is true for the general population, education is a key 
determinant in the employment success for students with ID/DD.
    As States look at college- and career-ready standards, 
questions have arisen about the applicability of such standards 
for students with intellectual disabilities. Low expectations 
continue to be one of the biggest barriers for success for 
these students. Yet, again, research has shown that the 
participation in standards-based assessments has made a 
tremendous positive difference in achievement for students with 
significant cognitive disabilities. And, now, students with ID/
DD are going to college.
    In order to provide more opportunities for students with 
intellectual disabilities to attend quality comprehensive 
integrated programs, ADD is investing $4 million over 5 years 
in the Consortium to Enhance Postsecondary Education for 
Individuals with Developmental Disabilities.
    During the past 8 years, the number of college programs 
available for students with intellectual disabilities has grown 
from 4 to over 250 spread over 36 States serving approximately 
6,000 students. The consortium has been a vital resource to 
this expansion providing training and technical assistance, 
research and dissemination on promising practices and 
supporting the establishment of many new programs.
    Recently, ADD held a series of listening sessions across 
the country asking for community input. Among the major issues, 
access to integrated employment at competitive wages for people 
with intellectual and developmental disabilities was repeatedly 
cited as a high priority.
    Much of the ADD network is already working hard to improve 
employment opportunities, including the development of 
employment first strategies that focus upon integrated 
community-based employment.
    For example, in Iowa, the University Center of Excellence 
in Developmental Disabilities, the UCEDD, and the DD Council 
are working in collaboration with the National State Employment 
Leadership Network and State agency partners to develop and 
implement a statewide competitive employment plan that makes 
employment in the general workforce the first priority and the 
expected and preferred outcome in the provision of publicly 
funded services.
    Support for access to integrated employment services varies 
tremendously across States. State ID/DD agencies report that 
currently only 22 percent of their clients participate in 
integrated employment.
    Medicaid is the largest Federal source for funding for 
home- and community-based services, and the State ID/DD 
agencies are the primary funding source for employment services 
through Medicaid waivers.
    Among the most important factors influencing employment 
outcomes is the approach taken by these State ID/DD agencies 
which plays a critical role in determining the direction of 
State and Federal Medicaid investment. Successful strategies 
include flexibility in funding, data collection focused on 
integrated employment, rewards and incentives and innovative 
practices and training.
    Multiple studies also show that self determination status 
is a predictor of the quality of life and is positively 
correlated with improved employment, independent living and 
community-inclusion outcomes.
    Beyond the opportunity to earn wages, other benefits of 
integrated employment include expanded social relationships, 
higher job satisfaction, improved self worth, transferable work 
skills and increased self determination.
    ADD currently plans to invest over $2 million in 
demonstrations later this year to improve access to 
competitive, integrated employment in collaboration with our 
partners at the Office of Disability Employment, at the 
Department of Labor, the Centers for Medicare and Medicaid 
Services, Social Security and the Rehabilitation Services 
Administration. These competitive grants will challenge 
applicants to develop and implement innovative partnerships to 
improve access to integrated employment at competitive wages 
for individuals with significant intellectual and developmental 
disabilities.
    In closing, I leave you with a quote from a woman with a 
developmental disability, because I think that she says it 
better than I ever could. Miss Susan Willis came to us during 
one of our listening sessions and said, and I quote, ``When 
meeting someone new, we almost always ask, What do you do?'' A 
person's work seems to define who he or she is. It certainly 
gives people, especially those with disabilities, a sense of 
self-worth and confidence. With employment comes some level of 
self-sufficiency, and with that--independent living. Without a 
full- or part-time job at reasonable wages, none of this can be 
realized.?
    ADD and our network are striving to improve opportunities 
for people with intellectual and developmental disabilities to 
access competitive, integrated employment, so that when an 
individual is asked that question--What do you do?--they can 
answer with confidence, with a smile and with a paycheck in 
their hands.
    Thank you. I'm happy to take questions.
    [The prepared statement of Ms. Lewis follows:]
                   Prepared Statement of Sharon Lewis
    Chairman Harkin, Ranking Member Enzi and distinguished members of 
the committee, thank you for the opportunity to testify today. I am 
honored to be here representing the Administration on Developmental 
Disabilities (ADD) within the Administration for Children and Families 
(ACF) at the U.S. Department of Health and Human Services (HHS), to 
share some successful strategies to achieve integrated employment of 
people with intellectual and developmental disabilities.
    The purpose of the Developmental Disabilities Assistance and Bill 
of Rights Act of 2000 (DD Act) is ``to assure that individuals with 
developmental disabilities and their families participate in the design 
of and have access to needed community services, individualized 
supports, and other forms of assistance that promote self-
determination, independence, productivity, and integration and 
inclusion in all facets of community life, through culturally competent 
programs . . . '' (42 U.S.C. 15001). The Administration on 
Developmental Disabilities works with our partners in every State to 
achieve the goals embodied in the act. The ADD network consists of 
three programs that operate in each State and territory--State 
Developmental Disabilities Councils (DD Councils), University Centers 
for Excellence in Developmental Disabilities (UCEDD), and Protection 
and Advocacy Systems (P&As). ADD also implements the Projects of 
National Significance (PNS) which are designed to support the ADD 
network through data and research projects as well as fund innovative 
approaches to improving outcomes for those with developmental 
disabilities. Approximately two-thirds of the ADD network entities 
report active engagement related to improving employment outcomes for 
people with developmental disabilities, through a broad range of 
activities including direct support for individuals with disabilities 
seeking employment, development of State and local policies and 
practices, protection of employment rights, data collection and 
analysis, and training initiatives.
    At the Department of Health and Human Services, Secretary Sebelius 
is fully committed to finding solutions that address barriers to 
community living for individuals with disabilities that give people 
more control over their lives and the supports they need. Employment is 
a critical component of community living for most adults, including 
people with intellectual and developmental disabilities. Work is not 
only the means to economic self-sufficiency, it also is an important 
way for individuals to contribute to their communities, build a network 
of social relationships, and create opportunities for lifelong 
learning.
    To illustrate, I would like to tell you about a remarkable young 
man, Patrick, from Wisconsin. Like many young people, Patrick got his 
first job at 16. Patrick's first job came the same way most of us get a 
job: a great work ethic, dedication, a terrific attitude, and a social 
network derived from community involvement.
    Patrick met his boss, Todd, at a retreat where Todd had the 
opportunity to see first-hand Patrick's work ethic, attention to 
detail, and generous spirit. At the end of the retreat, Todd told 
Patrick's dad, Brian, that he would like Patrick to apply for a job at 
his packaging business in Menomonee Falls, WI.
    As a high school sophomore, Patrick started working 3-hour shifts, 
three days a week after school. His starting pay was $8.50 in 2005. 
Five years later, Patrick is considered the star of his unit. He 
assembles boxes, and can work about twice as fast as the average box 
assembler--he holds the assembly record. This has increased the overall 
productivity of Todd's organization. Patrick is able to work in 
different parts of the organization, filling in when another area is 
short-staffed--doing marketing and label packaging, for example. He 
gets regular raises and shares in all the company perks.
    This is a success story of a typical young man, starting his career 
and through his hard work and dedication achieving great success. Why 
is this story significant? Patrick is a young adult with Down syndrome 
who is working in integrated employment, earning a competitive wage and 
benefits. Only a small minority of young adults with intellectual and 
developmental disabilities are employed in such settings. In one 
current study of 338 recent high school graduates with intellectual and 
developmental disabilities, only 14.2 percent were employed in 
individual positions paying at least minimum wage.\1\
---------------------------------------------------------------------------
    \1\ Simonsen, M. (2010). Predictors of supported employment for 
transitioning youth with developmental disabilities (Unpublished 
doctoral dissertation). University of Maryland: College Park, MD.
---------------------------------------------------------------------------
    Patrick's success can be attributed to several factors, as 
described by the Wisconsin Medicaid Infrastructure Grant project at the 
University of Wisconsin's Waisman Center:\2\
---------------------------------------------------------------------------
    \2\ Swedeen, Beth, et al. (2009). On the Job: Stories from Youth 
With Disabilities. Natural Supports Project, University Center for 
Excellence in Developmental Disabilities, Waisman Center, University of 
Wisconsin, Madison.

    <bullet> High expectations and supportive family. Patrick always 
has been treated the same as his siblings and his peers, with high 
expectations at home, in school and at work. Additionally, Patrick's 
family received support to participate in leadership development 
through Wisconsin's Waisman Center (a UCEDD) and the Wisconsin DD 
Council, which helped his family understand the importance of self-
determination.
    <bullet> Hard work and preparation. Patrick knows he has to work to 
achieve. He has been active in sports, volunteers on a regular basis, 
and has a second degree Black Belt in Tae Kwan Do. He has taken on 
additional responsibilities at work over time, and has been rewarded.
    <bullet> Person-centered thinking and self-determination. 
Throughout Patrick's school-to-work transition process, Patrick and his 
team made decisions based upon his desires, strengths, and choices. 
Patrick and his family used person-centered planning to ensure the 
availability of natural and paid supports necessary for a quality life 
for Patrick.
    <bullet> Community involvement. Patrick has been involved in 
sports, the community, and his church, which helped him develop the 
social capital that led to the job and provided ongoing natural 
supports.
    <bullet> Welcoming employer. The company worked with Patrick to get 
his Occupational Safety and Health required training, accommodating 
Patrick with experiential learning rather than handing him a manual. 
Patrick has co-workers he can turn to for questions and support.
    <bullet> Flexible supports. The school system and vocational 
rehabilitation (VR) system offered flexibility in supporting Patrick to 
pursue his goals, and Patrick depends upon Medicaid for healthcare and 
occasional personal support. For example, the school partnered with the 
State VR agency to provide a job coach for the first few weeks of 
Patrick's job, and the school offered a flexible schedule to allow 
Patrick to balance work and continued learning.
    <bullet> Starting early. Patrick started working during his 
sophomore year. When he finished the high school curriculum at the end 
of his senior year, he left the high school environment, increasing his 
time at work while continuing reading and math instruction through a 
tutor. Patrick focused on living and working in the community starting 
at age 18; he did not wait until he aged out of school-based services. 
This is consistent with data that indicates that individuals with 
intellectual and developmental disabilities (ID/DD) who participate in 
work-based experiences during high school are more likely to find 
success in competitive, integrated employment.

    While Patrick has found great success in his job, unfortunately 
many Americans with disabilities, especially people with ID/DD, are 
struggling to access employment opportunities. According to the January 
2011 Current Population Survey (CPS), the proportion of the population 
of people with disabilities who are employed is estimated to be 17 
percent, compared to 63 percent for people without disabilities.\3\ 
And, for individuals with intellectual and developmental disabilities, 
the likelihood of participating in integrated employment is even lower, 
with State ID/DD agencies reporting that only 22 percent of the number 
of individuals served by these agencies participate in integrated 
employment.\4\
---------------------------------------------------------------------------
    \3\ U.S. Bureau of Labor Statistics Economic News Release February 
4, 2011 Table A-6. Employment status of the civilian population by sex, 
age, and disability status, not seasonally adjusted. Accessed February 
24, 2011: http://www.bls.gov/news.release/empsit.t06.htm.
    \4\ Butterworth et al. (2010). State Data: The National Report on 
Employment Services and Outcomes, 2009. Boston, MA: Institute for 
Community Inclusion ID/DD Agency National Survey of Day and Employment 
Programs for People with Developmental Disabilities, p. 49.
---------------------------------------------------------------------------
    Among the strongest predictors of post-school employment success 
for young adults with disabilities is whether or not they held one or 
more paid jobs during high school.\5\ The importance of community-based 
vocational evaluation, job training, and paid employment opportunities 
while still in high school have been well-documented in achieving 
positive post-school outcomes.\6\ Getting that first job can make a 
significant difference for students with intellectual and developmental 
disabilities, just as it did for Patrick.
---------------------------------------------------------------------------
    \5\ Test, D.W., Mazzotti, V.L., Mustian, A.L., Fowler, C.H., 
Kortering, L, & Kohler, P. (2009). Evidence-Based Secondary Transition 
Predictors for Improving Postschool Outcomes for Students with 
Disabilities. Career Development for Exceptional Individuals, 32, 160-
81.
    \6\ Flexer, R., Simmons, T., Luft. P., & Baer, R. (2008). 
Transition Planning for Secondary Students with Disabilities (3rd ed.). 
Upper Saddle River, NJ: Merrill/Prentice Hall.
---------------------------------------------------------------------------
                         the role of education
    As is true for the general population, education is a key 
determinant in employment success for students with intellectual and 
developmental disabilities. Currently there are approximately 1 million 
American students with disabilities age 3-21 eligible for services 
under the Individuals with Disabilities Education Act (IDEA) categories 
of intellectual disability, multiple disabilities, autism, traumatic 
brain injury, and developmental delay.\7\ Only 34 percent of students 
with intellectual disabilities, 40 percent of students with multiple 
disabilities, and 56 percent of students with autism graduated from 
high school with a regular diploma during the 2007-8 school year.\8\ 
Among all students, those with the most significant cognitive 
disabilities are the least likely to graduate with a regular high 
school diploma.\9\ And, even with a diploma, youth with intellectual 
disabilities demonstrate the lowest rate of paid employment among 
students with disabilities (29.8 percent), 1 to 4 years after exiting 
high school.\10\
---------------------------------------------------------------------------
    \7\ U.S. Department of Education, (2010). Individuals with 
Disabilities Education Act Data--Data Accountability Center. Number of 
children and students served under IDEA, Part B, in the United States 
and outlying areas by age group, year, and disability category, 2008. 
Table 1-11.
    \8\ U.S. Department of Education, (2010). Individuals with 
Disabilities Education Act Data--Data Accountability Center, Exiting 
Children and students served under IDEA, Part B, in the United States 
and outlying areas by age group, year and disability category, 2008. 
Table 4-2.
    \9\ Wagner, M., Newman, L., Cameto, R., Levine, P, and Garza, N. 
(2006). An overview of findings from Wave 2 of the National 
Longitudinal Transition Study-2 (NLTS2). Menlo Park, CA: SRI 
International.
    \10\ Newman, L., Wagner, M., Cameto, R., Knokey, A.M., & Shaver, D. 
(2010). Comparisons Across Time of the Outcomes of Youth With 
Disabilities up to 4 Years After High School. A Report of Findings from 
the National Longitudinal Transition Study-2 (NLTS2). Page 37. Menlo 
Park, CA: SRI International. Available at www.nlts2.org/reports/
2010_09/nlts2_report
_2010_09_complete.pdf.
---------------------------------------------------------------------------
    As States define, and re-define college and career-ready standards 
and develop supporting initiatives to help students achieve these 
standards, questions have arisen about the applicability of such 
standards for students with intellectual disabilities,\11\ especially 
students with significant cognitive disabilities. Current data from 
States indicate that many of these students are leaving high school 
unable to read beyond sight words or do math beyond basic functions 
using a calculator.\12\ Low expectations continue to be one of the 
biggest barriers to success for these students.\13\ Yet maintaining 
high expectations for these students is critical to their success in 
life and in work; research has also shown that participation in 
standards-based assessments has made a tremendous positive difference 
in achievement for students with significant cognitive 
disabilities.\14\
---------------------------------------------------------------------------
    \11\ Samuels, Christina, (2010) Standards' Impact for Special Ed. 
is Weighed, Edweek, Quenemoen, R., Kearns, J., Quenemoen, M., Flowers, 
C., & Kleinert, H. (2010). Common Misperceptions and Research-Based 
Recommendations for Alternate Assessment Based on Alternate Achievement 
Standards (Synthesis Report 73). Minneapolis, MN: University of 
Minnesota, National Center on Educational Outcomes.
    \12\ Kearns, J., Towles-Reeves, E., Kleinert, H., Kleinert, J., & 
Thomas, M. (in press). Characteristics of and implications for students 
participating in alternate assessments based on alternate academic 
achievement standards. Journal of Special Education.
    \13\ McGrew, K.S., & Evans, J. (2004). Expectations for Students 
with Cognitive Disabilities: Is the Cup Half Empty or Half Full? Can 
the Cup Flow Over? (Synthesis Report 55). Minneapolis, MN: University 
of Minnesota, National Center on Educational Outcomes.
    \14\ Ysseldyke, J., Dennison, A., & Nelson, R. (2004). Large-scale 
Assessment and Accountability Systems: Positive Consequences for 
Students with Disabilities (Synthesis Report 51). Minneapolis: 
University of Minnesota, National Center on Educational Outcomes.
---------------------------------------------------------------------------
    Despite these performance statistics and the cultural challenges of 
low expectations, students with intellectual disabilities can--and do--
go on to succeed in postsecondary education and in employment. There 
are approximately 6,000 students with intellectual disabilities 
currently attending college, an experience which can make a tremendous 
difference in gaining employment. One recent study of vocational 
rehabilitation outcomes showed that youth with intellectual 
disabilities who participated in postsecondary education were 26 
percent more likely than students with no postsecondary education 
experience to leave vocational rehabilitation services with a paid job 
and earn a 73 percent higher weekly income.\15\
---------------------------------------------------------------------------
    \15\  Migliore, A., Butterworth, J., and Hart, D. (2009) 
Postsecondary Education and Employment Outcomes for Youth with 
Intellectual Disabilities.
---------------------------------------------------------------------------
    In order to provide more students the opportunity to attend quality 
college programs that support students with intellectual disabilities 
to participate in comprehensive, inclusive educational experiences 
integrated into institutions of higher education across the country, 
the Administration on Developmental Disabilities is investing $4 
million over 5 years in the Consortium to Enhance Postsecondary 
Education for Individuals with Developmental Disabilities project. The 
Consortium is providing training and technical assistance to 
institutions of higher education, conducting research, and 
disseminating information on promising practices that support 
individuals with intellectual disabilities to access postsecondary 
education, resulting in improved long-term independent living and 
employment outcomes. The primary activities of the project include:

    <bullet> Research and planning to develop and validate promising 
practices in postsecondary programs for students with intellectual 
disabilities including development of standards, quality indicators, 
and performance benchmarks.
    <bullet> Development and testing of a national training program for 
colleges and universities that supports replication of promising 
practices and addresses gaps in information for institutions of higher 
education that are developing or expanding programs for students with 
intellectual disabilities. This includes the ``Think College'' Web site 
and online, self-paced coursework for higher education professionals on 
effective practices for this population.
    <bullet> Assisting institutions of higher education to implement 
quality programs and establish partnerships that will help them 
transition to sustainable models beyond start-up funding periods, as 
well as partnering with national organizations for large-scale 
dissemination of training programs.

    During the past 8 years, the number of college programs available 
for students with intellectual disabilities has grown from 4 to over 
250, spread over 36 States and 2 Canadian provinces.\16\ The Consortium 
has been a vital resource to these institutions of higher education, 
providing training and technical assistance to programs at all stages, 
researching and disseminating information on promising practices, and 
supporting the establishment of many of these new programs.
---------------------------------------------------------------------------
    \16\ Grigal, M., Hart, D., & Migliore, A. (2010, October). Think 
College: An Overview of National Research. Plenary Session, State of 
the Art Conference, George Mason University, Fairfax, VA.
---------------------------------------------------------------------------
              integrated employment supports and services
    Recently ADD held a series of listening sessions and stakeholder 
meetings across the country, asking the community to provide input 
about priorities and concerns. Approximately 650 individuals 
participated in-person in these meetings, including people with 
disabilities, family members, professionals and support staff as well 
as representatives from multiple Federal agencies. Among the major 
issues identified by the community, access to integrated employment for 
people with intellectual and developmental disabilities was repeatedly 
cited as a top concern and was recommended as a critical priority for 
ADD and the ADD network to address. In particular, stakeholders 
identified the establishment of ``Employment First'' policy and 
strategies across various programs as one of five top goals that should 
be pursued.
    Much of the ADD network already is working hard to improve 
integrated community-based employment opportunities at competitive 
wages for people with intellectual and developmental disabilities, with 
39 P&As, 39 DD Councils and 36 UCEDDs reporting active engagement in 
employment activities, such as:

    <bullet> In 11 States, DD Councils and/or UCEDDs (CA, HI, IA, IN, 
MD, NM, NC, NV, OR, PA, VT) are actively collaborating with the ID/DD 
State agency to develop and improve job access and retention. For 
example, in Iowa, the UCEDD assisted the Department of Human Services 
to update its Olmstead Plan that includes competitive employment as a 
``Strategic Priority.'' The action steps include working in 
collaboration with the national State Employment Leadership Network 
(SELN) and State agency partners (including the Iowa DD Council, 
Department of Education, Iowa Division of Vocational Rehabilitation 
Services (DVR), Workforce Development, Department for the Blind, 
Department of Human Rights) to develop and implement a statewide 
competitive employment plan that makes employment in the general 
workforce the first priority and expected and preferred outcome in the 
provision of publicly funded services. In Oregon, the DD Council 
convened a workgroup that developed the Employment First Policy which 
was then adopted by the State DD agency and is being implemented 
collaboratively with VR.
    <bullet> Through a Medicaid Infrastructure grant provided by the 
Centers for Medicare and Medicaid Services, the Wyoming Employment 
Systems Development Project at the UCEDD brought together the various 
State agencies, disability groups and business organizations to 
determine the most effective means of permitting people with 
disabilities to retain their health care benefits after obtaining 
employment, working to expand personal assistance services outside the 
home for Medicaid recipients seeking employment, and integrating the 
various service systems into a single, one-stop source of delivery with 
a community focus.
    <bullet> Project SEARCH is a nationally recognized education, 
training and internship program leading to integrated competitive 
employment for students with significant disabilities. Currently seven 
DD Councils (AZ, CO, FL, GA, NY, OH, OK) and three UCEDDs (AZ, IN, NY) 
are supporting Project SEARCH. In addition, ADD and ACF are hosting DC-
area Project SEARCH interns in our offices this school year.
    <bullet> The Alaska DD Council implemented the StartUp Alaska 
Initiative to increase the self-employment of Alaskans with 
disabilities. As a result, 71 individuals were served and 33 launched 
their own businesses. Even more importantly, several entities, 
including the Division of Vocational Rehabilitation, the Employment 
Security Division, the Alaska Mental Health Trust Authority, the Center 
for Human Development and the Center for Economic Development at the 
University of Alaska Anchorage, and the University Small Business 
Development Centers are implementing policy to sustain best practices 
identified through the grant.
    <bullet> Vanderbilt University's ``Project Opportunity'' provides 
educational, developmental and employment opportunities within 
Vanderbilt University to students with disabilities. Twenty-one of 
twenty-eight students have achieved competitive employment at the 
University upon completion. The Project also collaborated with The Arc 
of Davidson County, the Walmart Foundation and Metro Nashville Public 
Schools to use the Project Opportunity model to develop a classroom 
housed within the municipal government which then became a model for 
the city of Nashville being implemented by Mayor Karl Dean.
    <bullet> UCEDDs and/or DD Councils in 12 States (AL, CA, GA, IA, 
KS, MD, MO, NE, NV, OR, SC, UT) are working with State ID/DD agencies 
to establish ``employment first'' as a guiding principle in policy and 
systems change. Employment first is an approach that is underway in 
many States that focuses upon integrated, community-based employment as 
the first option and priority goal for individuals with intellectual 
and other developmental disabilities. States that have adopted this 
approach ensure that vocational rehabilitation, home and community-
based service providers and educational service systems work together 
in developing strategies across programs so that individuals with 
intellectual and developmental disabilities are supported to access 
integrated, community-based employment opportunities.

    Approaches to supporting access to integrated employment for people 
with intellectual and developmental disabilities vary tremendously 
across States. According to The National Report on Employment Services 
and Outcomes 2009 published by the Institute for Community Inclusion at 
University of Massachusetts Boston, the most important factors that 
influence integrated employment include \17\:
---------------------------------------------------------------------------
    \17\ Butterworth, et al. (2010). StateData: The National Report on 
Employment Services and Outcomes, 2009. Boston, MA: Institute for 
Community Inclusion p. 12.

    <bullet> Approach of the State agencies directing Medicaid services 
for people with ID/DD: Medicaid is both a primary source for health 
care for individuals with ID/DD and the largest Federal source of 
funding for home and community-based services.\18\ State ID/DD agencies 
are playing a critical role in determining the direction of the State 
and Federal Medicaid investment. In States that have started to address 
the need for competitive, integrated employment opportunities for 
people with intellectual and developmental disabilities, successful 
strategies include flexibility in funding, data collection focused upon 
integrated employment, rewards and incentives, and innovative practices 
and training. For example, in Oklahoma, an innovative outcome-based 
funding approach pays for services based upon the number of hours an 
individual works, not the number of service hours provided. In several 
localities in Michigan and other States, agencies have established rate 
structures that incent integrated employment outcomes.
---------------------------------------------------------------------------
    \18\ Ibid, p. 11.
---------------------------------------------------------------------------
    <bullet> Approach of the Community Rehabilitation Providers (CRPs): 
As the primary source of day and employment services for people with 
intellectual and developmental disabilities, CRPs play a critical role 
in providing work opportunities. Currently, only 26 percent of 
individuals served by CRPs are working in integrated employment.
    <bullet> Collaboration with State Vocational Rehabilitation (VR) 
agencies: Collaborative initiatives between VR and ID/DD agencies are 
an important element in supporting stronger employment outcomes.
    <bullet> Community-based non-work (CBNW) activities: Participation 
in community-based non-work activities supported by home and community-
based waivers and State funds--defined as activities that take place in 
the community and do not involve paid employment--has rapidly grown 
over the past 15 years, as reported by State ID/DD agencies.\19\ 
Thirty-eight State ID/DD agencies that reported CBNW services indicated 
that that 36.2 percent of those served participated in CBNW activities 
in fiscal year 2008, up from 18.7 percent in fiscal year 1999.
---------------------------------------------------------------------------
    \19\ Butterworth, et al. (2010). StateData: The National Report on 
Employment Services and Outcomes, 2009. Boston, MA: Institute for 
Community Inclusion p. 21.
---------------------------------------------------------------------------
    <bullet> Direct Support Personnel (DSPs): Competent support staff 
often play a key role in the success of people with intellectual and 
developmental disabilities on the job.
    <bullet> Individual and family factors: Research has shown that 
many individuals with disabilities and their families want to consider 
community options, but have concerns about long-term placement and 
stability, safety, and the social environment.\20\
---------------------------------------------------------------------------
    \20\ Migliore, A., Grossi, T., Mank, D., Rogan, P. (2008) Why do 
Adults with Intellectual Disabilities Work in ShelteredWorkshops? 
Journal of Vocational Rehabilitation, 28(1), 29-40.
    Migliore, A., Mank, D., Grossi, T., & Rogan, P. (2007). Integrated 
Employment or Sheltered Workshops: Preferences of Adults with 
Intellectual Disabilities, Their Families, and Staff. Journal of 
Vocational Rehabilitation, 26(1), 5-19.
---------------------------------------------------------------------------
    For people with intellectual and developmental disabilities, self-
determination is another important factor in employment outcomes. 
Individuals with ID/DD who have the degree of control they desire over 
their lives consistent with their capacities, strengths and needs are 
more likely to express satisfaction with their individual employment 
outcomes. Research suggests that beyond the opportunity to earn wages, 
other benefits of integrated employment include expanded social 
relationships, higher job satisfaction, improved self-worth, 
transferable work skills, and increased self-determination.\21\ 
Multiple studies indicate that self-determination status is a predictor 
of quality of life,\22\ and is positively correlated with improved 
employment, independent living, and community inclusion outcomes.\23\
---------------------------------------------------------------------------
    \21\ Mank, D. (2003). Supported Employment Outcomes Across a 
Decade: Is There Evidence of Improvement in the Quality of 
Implementation? Mental Retardation, 41(3), 188-97.
    Murphy, S.T., Rogan, P.M., Handley, M., Kincaid, C., & Royce-Davis, 
J. (2002). People's Situations and Perspectives Eight Years After 
Workshop Conversion. Mental Retardation, 40(1), 30-40.
    \22\ Lachappelle, Y., Wehmeyer, M.L., Haelewyck, M.C., Courbois, 
Y., Keith, K.D., Schalock, R., Verdugo, M.A., & Walsh, P.N. (2005) The 
Relationship Between Quality of life and Self-Determination: An 
International Study. Wehmeyer, M.L. & Schwartz, M. (1998). The 
Relationship between Self-Determination and Quality of Life for Adults 
with Mental Retardation. Education and Training in Mental Retardation 
and Developmental Disabilities, 33, 3-12.
    \23\ Ibid.
---------------------------------------------------------------------------
    ADD has committed $4 million over 5 years to a consortium of five 
University Centers for Excellence on Developmental Disabilities to lead 
a self-determination national training initiative, the ``National 
Gateway to Self-Determination.'' The purpose of this project is to 
enable self-advocates, family members, professionals, agencies, and 
University Centers to ``scale-up'' efforts that promote self-
determination throughout the lifespan and thereby positively affect 
individual outcomes. One component is a focus on the relationship 
between self-determination and employment, as self-determination is an 
essential element for enhancing individual control and involvement in 
employment, and ultimately job satisfaction and success.\24\ The Self 
Determination project is providing training related to self-
determination, developing evidence-based practices, and supporting the 
translation of research into practice.
---------------------------------------------------------------------------
    \24\ Association on University Centers on Disabilities (AUCD) 
(2010). National Gateway to Self Determination Training. Silver Spring, 
MD.
---------------------------------------------------------------------------
                    other administration activities
    Demonstration projects: Later this year, ADD will be investing over 
$2 million in demonstrations related to improving opportunities for 
people with intellectual and developmental disabilities to access 
competitive, integrated employment. These competitive grants will 
challenge applicants to develop and implement innovative public/private 
partnerships to improve employment outcomes for individuals with 
significant developmental and intellectual disabilities, and ensure 
improved access to integrated employment at competitive wages and 
benefits for such individuals, with a particular emphasis on assisting 
two groups: (1) youth and young adults transitioning from secondary or 
postsecondary school into competitive, integrated work, and (2) adults 
currently working in non-integrated facility-based supported employment 
settings to move to competitive, integrated employment settings. More 
details will be available about these funding opportunities later this 
year.
    Longitudinal Data Collection: Data collection and analysis not only 
provides clarity, but as the old adage states, ``What gets measured 
gets done, what gets measured and fed back gets done well, and what 
gets rewarded gets repeated.'' For over 20 years, ADD has supported the 
Institute for Community Inclusion at University of Massachusetts Boston 
to collect and analyze data on the nature of day and employment 
services for individuals with intellectual/developmental disabilities; 
the Institute's director, Bill Kiernan, will also testify today. This 
project has contributed greatly to our Nation's comprehensive 
understanding of the factors that influence employment outcomes at 
every level--individual, service provider, State and Federal policy 
level.
    Research shows a correlation between States that are collecting 
data from multiple sources, including employment outcome data collected 
at the individual level, and higher percentages of individuals in 
integrated employment.\25\ Frequent data collection at the individual 
level creates regular interaction between the State ID/DD agency and 
providers, helps providers take an active role in working towards a 
shared goal of increased employment by giving the entities who are 
implementing activities a sense of ownership in the goals, provides 
information about training and technical assistance needs on a timely 
basis, and can be used for better accountability with providers. The 
very process of the data collection efforts at the State level helps to 
improve employment outcomes in States.\26\
---------------------------------------------------------------------------
    \25\ Hall, A.C., Butterworth, J., Winsor, J., Gilmore, D., & 
Metzel, D. (2007). Pushing the Employment Agenda: CaseStudyResearch of 
High Performing States in Integrated Employment. Intellectual and 
Developmental Disabilities, 45(3), 182-98.
    \26\ Butterworth, et al. (2010). StateData: The National Report on 
Employment Services and Outcomes, 2009. Boston, MA: Institute for 
Community Inclusion.
---------------------------------------------------------------------------
    Community Living Initiative: ADD is an important partner, along 
with the Social Security Administration's Office of Employment Support 
and Ticket to Work Programs and the CMS Disabled and Elderly Health 
Programs Group, in the Community Living Initiative Employment 
Workgroup, led by the HHS Office on Disability. The workgroup goals 
include the development of options for workers with disabilities and/or 
chronic conditions to gain wraparound home and community-based services 
and supports to maintain employment, as well as to provide further 
clarification to stakeholders on how Federal policy and programs can 
help people with disabilities find and maintain competitive employment.
    In closing, I leave you with a quote from a woman with a 
developmental disability, Ms. Susan Willis, who shared this insight 
with ADD as part of our recent listening sessions,

          ``When meeting someone new, we almost always ask, `What do 
        you do?' A person's work seems to define who he or she is. It 
        certainly gives people, especially those with disabilities, a 
        sense of self-worth and confidence. With employment comes some 
        level of self-sufficiency, and with that--independent living. 
        Without a full- or part-time job at reasonable wages, none of 
        this can be realized.''

    The Administration on Developmental Disabilities and the ADD 
network are striving to improve opportunities for individuals with 
intellectual and developmental disabilities to access competitive 
employment in integrated community settings.
    Thank you. I am happy to take any questions you may have.

    The Chairman. Thank you both very much for your testimony 
and for all the good work that you do.
    We'll start our rounds of 5-minute questions. I guess to 
both of you, I'll start with Ms. Ruttledge. Ms. Lewis said 
employment is the expectation. It's what we expect of kids and 
expect of people, and it's first priorities.
    If our first priority or goal is to make sure that kids 
with intellectual disabilities are put into some kind of a 
subminimum wage, sheltered workshop, that type of thing, where 
they just get there and they never get advanced, they never get 
challenged to move on, if that's our first priority, then that 
shortchanges a lot of kids, a lot of people. Shouldn't our 
first priority and our first goal be to say you need to be in 
competitive employment? That's where you need to go. But we 
need to start early.
    Ms. Ruttledge. Absolutely.
    The Chairman. That's why No Child Left Behind, for all of 
its faults, had one good thing in it and that was to bring kids 
with disabilities along, and we're not going to lose that in 
the reauthorization, I can assure you.
    Ms. Ruttledge. Thank you.
    The Chairman. But, Ms. Ruttledge, how can we get--in high 
school, especially--middle school, high school--get our schools 
working with VR to get these kids either college-ready or 
secondary or career-ready so that they're thinking not about a 
low expectation, but the highest expectation? Are the VRs ready 
to do this? Can they be implemented to do this? Can they work 
into this system? Do they have enough wherewithal to do that?
    Ms. Ruttledge. Thank you for that question. Having been the 
State director of a voc rehab program for the last 4 years, I 
think they are ready, and I think they're demonstrating their 
readiness. They're working together with their education 
partners at, as you were saying, the middle school level to 
identify curriculum, to identify role models in the community 
to come in and talk with kids. They're connecting with centers 
for independent living to create leadership programs. They're 
sharing strategies on how to be able to create work-based 
learning.
    They're really our partners in programs like Project SEARCH 
where you have an internship opportunity for an entire academic 
year for students with intellectual disabilities who get the 
support of a school district, get the support of voc rehab and 
get the support of the employer, and we're demonstrating that 
that can happen early.
    I also think that the bottom line is this needs to come 
from the youth themselves, and I think what you're seeing and 
what you're hearing across the country are folks saying that's 
what I want, that's where I'm going to be. And they're being 
able to be successful, because they're seeing themselves in 
those roles. They're not seeing themselves in what we would 
have expected 10 years ago, 15 years ago. They're seeing 
themselves in local stores, in community colleges and in the 
communities being successful. And I think that's where it 
starts.
    The Chairman. Very good. Ms. Lewis, do you have any 
thoughts on getting VR working with our middle and high schools 
to encourage kids with intellectual disabilities--all 
disabilities, but we're kind of focusing on intellectual 
disabilities here--to have high expectations and high goals and 
to work with them to help them achieve that in terms of being 
career-ready or college-ready?
    That's what we're saying. That's what we're going to put in 
ESEA. I want to make sure it applies to all kids, and kids with 
disabilities, too.
    Ms. Lewis. Right. As Commissioner Ruttledge indicated, I 
think VR is a critical partner. When we have seen the States 
where the employment numbers have ticked up for youth with 
intellectual disabilities, it is really manifested in a set of 
partnerships that involve the school system, VR, and the State 
ID/DD agency, because over the long haul, we know that that's 
where many of the ongoing supports are going to come from.
    I think the other important factor in all of this are the 
families themselves. I think that families and the youth and 
young adults with intellectual and developmental disabilities 
need to see those success stories. They need to believe that 
this is possible, and one of the issues that we face is we 
don't have enough success stories in the community for 
individuals to see themselves in those roles and understand 
what's possible, and I think that that's something that needs 
to happen.
    As Commissioner Ruttledge indicated, I think what we hear 
from youth are higher expectations, what IDEA and ADA--we call 
that the IDEA/ADA generation--thanks to all of your great 
work--have higher expectations and it's incumbent upon us to 
make sure that the capacity is in the system to meet those 
demands.
    The Chairman. I think on our next panel we're going to see 
some role models.
    Ms. Ruttledge. I think so.
    Ms. Lewis. I think you do. I think you have some great role 
models.
    The Chairman. Both from the employer's standpoint and also 
from a young person's standpoint.
    Ms. Lewis. Absolutely.
    The Chairman. Senator Isakson.
    Senator Isakson. Thank you, Chairman Harkin. You know I 
delivered the opening remarks, but I did not write them. So I 
don't take responsibility for the content, but I do have to 
repeat one part that I read because it was a troubling 
statement and then really ask a question of Ms. Lewis, if I 
can.
    In this prepared remark, it said,

          ``As the GAO has repeatedly noted for the better part 
        of the past decade, efforts from the Federal level are 
        far too disparate lacking coordination and coherence, 
        ultimately leading to a confusing mess of inefficient 
        programs. This stark reality is highlighted yet again 
        in GAO's list of programs identified as high risk, in 
        need of reform, a categorization that has been placed 
        on Federal disability programs since 2003.
          ``GAO claims these programs are high risk because, as 
        stated in the report, they are grounded in outmoded 
        concepts that have not been updated to reflect the 
        current State of science, medicine, technology and 
        labor market conditions.''

    Whoever wrote that was having a difficult day. But, anyway, 
let me ask you this question: What are some of the best 
practice models championed by State councils on developmental 
disabilities to strengthen and coordinate services to more 
individuals to obtain competitive integrative employment?
    Ms. Lewis. Well, I appreciate that question because I think 
that what we're seeing is this concept of employment first, 
literally, the employment-first policy. This is a strategy in 
which DD councils and university centers have been very engaged 
with State ID/DD agencies, the agencies that are responsible 
for Medicaid waivers for individuals with intellectual and 
developmental disabilities, as well as vocational 
rehabilitation in the school systems, to really prioritize 
employment as the first outcome that is expected in the 
performance measurement standards that are established, in the 
rate restructuring that individual States are going through, 
how are we going to prioritize involvement in competitive, 
integrated employment as the first priority.
    Not to say that we are going to eliminate other options, 
but, first and foremost, if someone is receiving publicly 
funded services, we are going to say the expectation and the 
outcome should, first and foremost, be employment, and that 
should be the first consideration in the design of the systems.
    For example, in the State of Oregon, the DD council 
convened a work group that then developed--the employment first 
policy for the State was adopted by the State DD agency as well 
as the vocational rehabilitation agency that set a performance 
metric of an expectation of an increase in competitive, 
integrated employment for individuals with intellectual 
disabilities of 5 percent a year. And so it is those very 
specific goals and expectations in employment first policy that 
will make a difference.
    Senator Isakson. Thank you very much. The real Ranking 
Member has shown up, but I'm going to keep taking the time 
anyway.
    [Laughter.]
    Ms. Ruttledge, in following up on the conversation you were 
having with Senator Harkin about real employment and 
aspirations for those with developmental disabilities and 
intellectual disabilities, to shoot higher than some systems 
may--the way I took it is some people's expectations are 
actually lowered by the system.
    Ms. Ruttledge. Correct.
    Senator Isakson. And then I heard a great statement about 
examples of people with disabilities who have exceeded. No 
criticism directly of either one of you, but I don't think--and 
I've done a lot with sheltered workshops, and my wife's a 
special education teacher. I chaired the State board of 
education, worked on IDEA and helped Senator Harkin on No Child 
Left Behind to make sure nobody was left behind.
    But I don't think the institutions and the programs of 
government do a good enough job of looking for those role 
models to give those kids the vision of what they can do.
    And I'll just give you one example of what I mean. There's 
a special that was done on PBS 3 years ago about a young man 
named Brad Cohen, who's the son of a good friend of mine, who 
has severe Tourette syndrome, yet he became the teacher of the 
year in public education in Georgia teaching reading with 
Tourette syndrome, and he now goes all over the country giving 
these can-do lectures on what you really can do, many times 
interrupted by the effects of Tourette syndrome while he's 
delivering the remark.
    I think the department should look for ways to find those 
examples of people who have beat the odds and have done it, 
because, in the end, it's in the heart of the individual and 
the will of the parents as to how far they can go. It's not the 
institutions of government that will just automatically take 
them there.
    So my statement is I think those role-model examples do far 
more to move kids forward with disabilities than any government 
mandate they should.
    That wasn't a question. It was a statement, but I got his 
time, so I took advantage of it. I yield back.
    The Chairman. Thank you. And we are joined by Ranking 
Member, Senator Enzi.
    Your opening statement's already been given, by the way, 
Senator Enzi.
    Senator Enzi. I realize that, and I appreciate Senator 
Isakson doing that so I could be at another hearing at the 
first part, too, and I won't have any questions for these two 
witnesses.
    The Chairman. OK. Well, thank you very much, Senator Enzi.
    Sometimes it bears repeating, What are the key factors that 
increase the likelihood that young people with disabilities 
will be able to become competitively employed? What are those 
key factors that we ought to be thinking about?
    I'm thinking about it in terms of reauthorization of the 
Elementary and Secondary Education Act, but also in terms of 
the Rehab Act and all the other things that we've done.
    Tell us again what do you think those key factors are, when 
you get to young people, encouraging them? Role models. I think 
what Senator Isakson is talking about is vitally important.
    Ms. Ruttledge. Thank you for that question. From my 
experience, from what I've seen, the key factors are--indeed, 
it starts with high expectations. It's also developing 
opportunities, when the youth is still in school, for 
internships, for work experiences, to be able to see and 
connect with role models in the community, like the example 
that you gave.
    I think that another key strategy, and one of the key 
factors, is that our personnel who are in schools, in 
vocational rehabilitation, in other support agencies need to 
know what the state-of-the-art is. They need access to those 
practices. They need an expectation that they're going to 
translate those practices into what really works in their 
classrooms and in their communities.
    The Chairman. Yes.
    Ms. Ruttledge. They need to have an opportunity to share 
those stories that you were saying. I think we have terrific 
stories that go on every day and we don't recognize it. And so 
I think that those are pieces.
    I think that we need to really focus on student 
development. We need to provide opportunities for youth with 
intellectual disabilities to participate in things like service 
learning and to be able to really use their time in school to 
develop the skills necessary to be successful in employment.
    I think we need to more actively engage with the business 
community earlier on. I think that's a key factor. When I was 
in Washington, businesses were the biggest supporter of summer 
youth work experience, because what they saw was an opportunity 
to bring youth with disabilities into their workplace and then 
they targeted them the same way Commissioner Lewis was sharing 
about how you find those next generation of talent. You find 
them when they're still in high school and you develop them, 
and you provide opportunities.
    I think the last key factor is that we need to be able to 
set higher expectations of our system to perform better, and we 
need to accept nothing less than an increase in wages, an 
increase in hours, an increase in vocational goals that lead to 
a career, an increase in those opportunities that create that 
work experience while they're still in school that translates 
to that competitive, integrated employment. I think those are 
some of the key factors.
    The Chairman. Very good. Thank you, Ms. Ruttledge. Anything 
to add to that, Ms. Lewis?
    Ms. Lewis. I think that there are very specific approaches 
for individuals that also are critically important. We know 
things like job shadowing, peer mentoring, internship 
experiences in the high school, person-centered planning for 
individuals with intellectual disabilities and really providing 
the opportunity for the individual themselves to express what 
their interests, passions, dreams and desires are critical, 
critical components.
    And then the success stories we've seen, that has been a 
common theme, that families and team members across the school 
system, the VR system and the DD support systems have engaged 
in person-centered planning.
    I also think access to postsecondary education as an option 
is a critical component of this. When we look at and talk to--
again, anecdotally--families, what we hear is that we're still 
getting middle schools and high schools caught up on the 
expectations that individuals with intellectual and 
developmental disabilities can go to college, and the Higher 
Education Opportunity Act has enshrined that in Federal statute 
at this point in terms of that opportunity and that 
expectation, that individuals with intellectual disabilities 
can go to college. And, as I mentioned, that is an area of 
great growth, and we know that college experience makes a 
tremendous difference in terms of wages.
    The Chairman. Thank you both very much. I think those are 
both great closing comments, and we appreciate the work you do 
and thank you for your testimony today. We'll now move to our 
second panel. Thank you both.
    On Panel II, we have Joan Evans, Randy Lewis, David Egan 
and Dr. William Kiernan. We'll introduce our panelists, but I 
will yield first to Senator Enzi for the purpose of introducing 
our first panelist. Then I will introduce the rest and then 
we'll go through the testimony.
    Senator Enzi. Thank you, Mr. Chairman. I'm always pleased 
when we have someone from Wyoming on the panel, and we have an 
outstanding person from Wyoming who is the director of Wyoming 
Workforce Services, and she also serves as the director of the 
Carbon County Higher Education Center and has served as the 
interim director for the Wyoming Department of Employment. 
Thanks for being here.
    The Chairman. Next is Randy Lewis, senior vice president of 
supply chain and logistics for Walgreens. Mr. Lewis' 19-year-
old son, Austin, is on the autism spectrum.
    As a result of his experiences, Mr. Lewis became an 
advocate for the employment of other individuals with 
disabilities. He began an outreach program through Walgreens 
which integrates individuals with disabilities into the 
workforce and has an ultimate goal of staffing 10 percent of 
Walgreens' distribution center production jobs with people with 
disabilities.
    Then we have David Egan, a distribution clerk at Booz Allen 
Hamilton, responsible for mail and package distribution and 
communications at the McLean site.
    He has been described as a trail blazer in the competitive 
employment of people with intellectual disabilities. He was 
selected as the first ever board member of the Down Syndrome 
Association of Northern Virginia. He also serves as a board 
member of Special Olympics Virginia.
    One of Mr. Egan's goals is to achieve an environment where 
he and others with intellectual disabilities are empowered to 
contribute and become ``one of us and not one among us.''
    Last, we welcome Dr. William Kiernan, director of the 
Institute for Community Inclusion, research professor in the 
Graduate College of Education and the McCormick School of 
Policy Studies at the University of Massachusetts Boston.
    Dr. Kiernan has broad experience developing and 
implementing training and model demonstration projects in 
integrated employment, inclusive education, recreation 
transition and systems change.
    Dr. Kiernan holds several national offices in professional 
advocacy groups and is past president of the Association of 
University Centers on Disabilities and previously served as the 
president of the American Association on Intellectual and 
Developmental Disabilities.
    Thank you all very much for joining us. Your statements 
will be made a part of the record in their entirety, and we'll 
start over here with Ms. Evans.
    I ask you all to sum up--I know you've got a 5-minute 
timer, but if it goes over, I'm not going to bang a gavel or 
anything like that. So 5, 6, 7. Once it starts getting 8, 9, 
10, 11, I get a little nervous. OK? So please proceed.

  STATEMENT OF JOAN K. EVANS, DIRECTOR, WYOMING DEPARTMENT OF 
                WORKFORCE SERVICES, CHEYENNE, WY

    Ms. Evans. Good morning, Chairman Harkin and Ranking Member 
Enzi and members of the committee. Thank you for the 
opportunity to testify today before you on this very important 
topic.
    My name is Joan Evans. I'm the director of the Wyoming 
Department of Workforce Services, and I'm especially grateful 
to have this chance to provide and share our experiences from 
Wyoming.
    I have provided written testimony to the committee where 
much more detail about our efforts of the agency and our 
partners is discussed.
    While the overall employment rate hovers near 10 percent, 
it is much higher for people with disabilities. In fact, the 
unemployment rate for this segment of the population has 
remained virtually unchanged, close to 65 percent for virtually 
two decades.
    In Wyoming, our rate is slightly better. We have pulled 
together our limited resources to give us a 46-percent 
unemployment rate for people with disabilities. However, we 
recognize that there is still so much work to be done.
    In Wyoming, the Division of Vocational Rehabilitation falls 
under my agency. Over 700 of the 5,300 Wyoming citizens with 
disabilities each year successfully complete a training program 
or rehab program and enter the workforce with enhanced skills 
provided. For every dollar that we spend on rehab services, a 
client can earn $11 in taxable income.
    I would like to share a couple of examples of what we feel 
is success for us in Wyoming. The first would be Healthy 
Families Succeed or our job-assist program.
    In 2003, the agency formed a public-private partnership 
that utilizes data to identify individuals who are tied into 
multiple public service programs. The data demonstrated that 42 
percent of State and Federal assistance resources are being 
used by about 3 percent of individuals.
    It was further discovered that 20 percent of these 
individuals were vocational rehabilitation clients and could 
also benefit from services which include collaboration of State 
and Federal services. For example, job training, education, 
health care and affordable health insurance.
    A second example would be our Wyoming Business Leadership 
Network and our recent partnership with Lowe's. A number of our 
clients are now entering employment through our two-time 
national award-winning Wyoming State affiliate of the U.S. 
Business Leadership Network.
    Our Wyoming BLN is an employer-led coalition supporting 
best practices and promoting employment of people with 
disabilities. This past year, another innovative practice of 
our Wyoming BLN has been a joint project between the Lowe's 
distribution center in Cheyenne and the Wyoming Department of 
Workforce Services.
    This pre-hire economic employment grant is part of a State-
funded training program and was used for the first time to 
train individuals with disabilities. This training project 
takes people with the motivation to work in the warehousing 
industry and provides support necessary for them to accomplish 
the same production standards as their nondisabled counterparts 
as customized to the needs to Lowe's.
    Another unique feature is the train-the-trainer model for 
management that will build capacity at Lowe's to provide a 
long-term diversity program within their company. Lowe's has a 
commitment to this program and hopes the interns will be career 
Lowe's employees.
    And I'd like to share a success story of one of our 
participants, Robbie Magill. Robbie is a 34-year-old individual 
with Down syndrome who receives services through our Wyoming 
Adult Disabilities Waiver program. His mother reports that when 
Robbie graduated from high school, even she was unable to see 
how he would be able to contribute in the workplace, despite 
the fact that she and her daughter had been disability 
advocates in the State for many years.
    In 2001, Robbie embarked on an entrepreneurial business 
venture which ended up closing 5 years later, due to the 
economy. He tried several different positions and ultimately 
applied for a position in the newly-formed Lowe's project 
through the Wyoming BLN.
    He was hired as an intern at $12.50 an hour with benefits, 
and yesterday Robbie finished his probationary period and will 
now be considered for permanent status at Lowe's.
    His production rate has gone from 40 percent to 63 percent 
in just 3 short months. Robbie was quickly adopted into the 
Lowe's family where he is engaging in real work for a real 
wage, and the company is discovering the benefits of including 
people with disabilities in their diversity initiative. Since 
then, Robbie has told his mother that if she doesn't like her 
job, she could always come and join the Lowe's family.
    Progress is possible. It just takes a coordinated effort 
across agencies, the private sector, utilizing people who can 
assist others in navigating the system.
    In conclusion, our future efforts will include the 
formation of a State team with the alliance for full 
participation where the goal is to double the employment rate 
for individuals with disabilities by the year 2015.
    Second, we need to explore disability employment initiative 
funding and benefits analysis, followed by further development 
and expansion of the Wyoming BLN vocational rehabilitation 
partnership, school-to-work transition activities, and, 
finally, public education on the benefits of hiring people with 
disabilities as will be highlighted in our Governor's Summit on 
Workforce Solutions to be held in June.
    Thank you.
    [The prepared statement of Ms. Evans follows:]
                  Prepared Statement of Joan K. Evans
    Good morning. Chairman Harkin, Ranking Member Enzi and members of 
the committee, thank you for the opportunity to testify on this 
important topic.
    My name is Joan Evans, and I'm the director of the Wyoming 
Department of Workforce Services. I am especially grateful to have the 
chance to share our experiences in Wyoming.
    President Franklin Roosevelt said,

          ``No country, however rich, can afford the waste of its human 
        resources. Demoralization caused by vast unemployment is our 
        greatest extravagance. Morally, it is the greatest menace to 
        our social order.''

    We live in a time of high unemployment, and this is especially true 
for people with disabilities. While the overall employment rate hovers 
near 10 percent, it is much higher for people with disabilities. In 
fact, the unemployment rate for this segment of the population has 
remained virtually unchanged at 65 percent for two decades.
    In Wyoming, our rate is slightly better, at 52.4 percent 
unemployment, as ranked by the University of Massachusetts at Boston 
Institute for Community Inclusion. However, we, too, still have a long 
way to go. Our rate of employment for persons with cognitive 
disabilities is also better than average with 37.1 percent employed in 
Wyoming versus 24.4 percent nationally.
    Many people need long-term services or care specifically because of 
intellectual disabilities. The average lifetime cost for one person 
with intellectual disabilities is estimated to be $1,014,000 (in 2003 
dollars). It is estimated that the lifetime costs for all people with 
intellectual disabilities who were born in 2000 will total $51.2 
billion. These costs include both direct and indirect costs. Direct 
medical costs, such as doctor visits, prescription drugs and inpatient 
hospital stays make up 14 percent of these costs. Direct nonmedical 
expenses, such as home modifications and special education, make up 10 
percent. Indirect costs, which include the value of lost wages when a 
person dies early, cannot work or is limited in the amount or type of 
work he or she can do make up 76 percent of the costs.
    These estimates do not include other expenses such as hospital 
outpatient visits, emergency department visits, residential care, and 
family out-of-pocket expenses. The actual economic costs of 
intellectual disabilities are, therefore, even higher than what is 
reported.
    I will not recite the many employment challenges facing people with 
disabilities, for we know that attitudinal barriers and negative 
stereotyping are among them, along with lack of accommodation. Although 
there are many challenges that persons with disabilities face as they 
look for work, there are also many effective programs and support 
services to assist them.
    In Wyoming, the Division of Vocational Rehabilitation falls under 
my agency. I would like to offer some examples of our successes.
             wyoming division of vocational rehabilitation
    The public Vocational Rehabilitation Program continues to be one of 
the most cost-effective programs created by Congress. It enables 
individuals with disabilities to find gainful employment and become 
taxpaying citizens.
    In fiscal year 2010, a total of 5,384 Wyoming citizens with 
disabilities received a broad array of services from the Division of 
Vocational Rehabilitation. More than a third of our clients have a 
psychiatric disorder, while one fourth possess orthopedic impairment, 
and 18 percent--the third-highest category--have an intellectual or 
cognitive disability.
    The number served in 2010 represents a 30 percent increase from 2 
years earlier. Of those, 1,372, or 26 percent, were referred to and 
received education and training from both in-state and out-of-state 
institutions.
    On average, about 700 of these citizens each year successfully 
complete a training or rehabilitation program and enter the workforce 
with the enhanced skills provided. For every dollar spent on Vocational 
Rehabilitation services, a client earns $11 in taxable income.
    These individuals are able to secure, regain or retain employment 
with estimated annualized earnings in excess of $13 million, and an 
estimated reduction in public assistance of more than a million 
dollars. Those savings might seem small compared to larger States, but 
in a State like Wyoming, with a population of only 563,000, these 
savings--and the number of people served and employed--is significant.
    A variety of programs within this Division assist individuals with 
intellectual disabilities.
    First, all eligible clients, regardless of their disability, have 
full access to a broad array of individualized services. To ensure that 
all disability groups have equal access to services, the Division has 
focused outreach efforts and staff training to provide services to 
individuals with Acquired Brain Injuries (ABI), individuals with 
Serious and Persistent Mental Illness (SPMI), veterans with 
disabilities, and students with disabilities in transition from school 
to the world of work or other post-secondary options.
    The Division utilizes its Supported Employment State Grant to 
maximize the available services to consumers that are most 
significantly disabled. By utilizing these funds, the Division 
increases the level of support that the client receives during the 
process of locating employment and provides individualized support once 
employment is obtained.
    A second success story is our Small Business Development Program. 
Sales from vending machines throughout Wyoming's State offices have 
allowed the Division to create a Small Business Development Fund which 
helps clients meet their small business start-up needs. This revenue is 
in addition to general Vocational Rehabilitation funding used to meet 
basic rehabilitation needs.
    Under this program, the Division employs a full-time small business 
consultant who works with clients to develop viable small businesses by 
completing a business plan and securing funding. The Small Business 
Development program has been able to help launch a number of 
businesses, from those that fill a small niche to full businesses that 
have grown to the point of needing to hire additional staff. The 
program also assists clients in determining if a product is eligible 
for patents.
    A third area to spotlight is helping students with disabilities 
transition from school to work. The Division employs a full-time 
Transition Consultant who works to strengthen partnerships between 
Vocational Rehabilitation staff and counselors in our high schools. As 
a result, we have seen a steady increase in the number of transition 
individuals who have applied for services. We are working toward a more 
seamless transition between each student's Individualized Education 
Plan (IEP) and the Division's Individualized Plan for Employment (IPE) 
to prevent any of our clients from missing out on critical services or 
becoming lost while navigating between the two systems.
    Despite our successes, the increasing costs for medical services 
and evaluations, retaining qualified personnel and maintaining consumer 
training present mounting challenges to our Vocational Rehabilitation 
program. While we have been able to maintain our current level of 
services without having to enter into an Order of Selection, we are 
aware that other States have done this to meet their funding needs.
    Another concern is that we have a limited number of individuals 
available to assist persons with disabilities in navigating the various 
employment and disability programs. Many citizens are reticent to start 
employment or look for employment out of fear that doing so may 
jeopardize their disability benefits or affect their eligibility for 
other programs. The Work Incentives Planning and Assistance (WIPA) 
Project provides valuable assistance in working with Social Security 
beneficiaries with disabilities on job placement, benefits planning, 
and career development. However, Wyoming has only one full-time 
employee and two part-time employees covering the entire State and 
trying to help more than 15,000 clients who may be eligible for 
Vocational Rehabilitation's work programs.
                   disability determination services
    Another area of success in Wyoming is our Disability Determination 
Services office, or DDS.
    The Wyoming DDS adjudicated, or made a determination of benefits 
eligibility, for 4,973 Social Security disability claims during Federal 
Fiscal Year 2010 (FFY). Of these, 3,755 were initial claims. This means 
that these individuals are at the first level of applying for Social 
Security disability benefits. Out of the 3,755 initial claims 
adjudicated, 1,877 were determined eligible for Social Security 
Disability Insurance (Title II) and/or Supplemental Security Income 
(Title XVI). Therefore, these individuals received monetary benefits 
and medical benefits which include Medicare and/or Medicaid. The 
medical benefits allow these individuals to receive medical treatment 
for their impairments.
    Intellectual disabilities--78 individuals with the diagnosis of 
intellectual disability were determined eligible for Social Security 
disability insurance and/or supplemental security income. Four 
individuals with the diagnosis of intellectual disability were denied. 
Thus, Wyoming DDS had an allowance rate of 95.1 percent for this 
diagnosis.
    Autism or pervasive development disorder--34 individuals with the 
diagnosis of autism or pervasive development disorder were determined 
eligible for Social Security disability insurance and/or supplemental 
security income. Ten individuals with this diagnosis were found 
ineligible for social security benefits. DDS had an allowance rate of 
77.3 percent for this diagnosis.
    Borderline intellectual functioning--21 individuals with the 
diagnosis of borderline intellectual functioning were determined 
eligible for Social Security disability insurance and/or supplemental 
security income. Twenty-five individuals with this diagnosis were found 
ineligible for social security benefits. DDS had an allowance rate of 
45.7 percent for this diagnosis.
    Just recently, the Division received a Commissioner's Citation for 
superior customer service to disability applicants and implementing 
innovative approaches to improving the disability claims processing for 
Federal Fiscal Year 2009. The Division implemented the use of 
videoconferencing to conduct mental status examinations throughout the 
State, which was the first DDS in the Nation to use video conferencing 
for this specific purpose. The Commissioner's Citation is the highest 
award that the Social Security Administration can bestow on an 
individual, group of individuals, or an organization.
    Wyoming DDS also managed to maintain the highest productivity per 
work year in the Denver region during FFY 2009.
    wyoming department of health developmental disabilities division
    The mission of this division is to provide funding and guidance 
responsive to the needs of people with disabilities to live, work, 
enjoy, and learn in Wyoming communities with their families, friends, 
and chosen support service and support providers.
    This agency includes several programs:

    <bullet> The Adult DD, Child DD, and ABI Waivers and the State 
Respite program assist individuals and their families in obtaining both 
natural supports and paid providers to aid individuals in their 
communities through either self-directed or traditional service 
delivery methods.
    <bullet> The Early Intervention and Education Program provides 
assistance and oversight to the regional child development centers that 
serve young children from birth through 5 years of age with 
disabilities and their families across Wyoming.
    <bullet> The Wyoming Life Resource Center is a State-owned facility 
that provides state-of-the-art care, learning and job opportunities for 
Wyoming residents with significant intellectual and developmental 
disabilities, brain injuries and long-term medical and therapeutic 
needs.

    In addition to these functions, the Developmental Disabilities 
Division is working with the Alliance for Full Participation to form a 
State team that will seek to improve the number of good-paying jobs for 
people with disabilities. The Alliance for Full Participation is a 
formal partnership of leading organizations serving the developmental 
disabilities field that share a common vision to help create a better 
and more fulfilling quality of life for people with developmental 
disabilities.
    This new State Employment Team is formed specifically in response 
to the Alliance's challenge to double employment for people with 
intellectual and developmental disabilities. Wyoming will join 31 
others State teams at a national employment summit this fall.
Tyler--A Success Story In Navigating The System
    Understanding the variety and complexities of programs that aim to 
help individuals with intellectual disabilities can be a challenge. 
Tyler, who has an intellectual disability, struggled to find steady 
income and a positive work environment.
    ``There were frustrations with paid services early on, and agencies 
were not very helpful,'' his mother, Jeanie Hede, said. ``The services 
and systems were fragmented. They deterred progress. People on 
caseloads seemed to be just a number, a case.''
    After a few unsuccessful job placements, Tyler and his parents 
turned to a family friend for help. The mother of a friend of Tyler's 
worked at the State Department of Health's Wyoming Life Resource 
Center, which is Wyoming's only intermediate care facility for people 
with intellectual disabilities. Through his friend, Tyler landed a 
part-time job at the Resource Center performing janitorial duties and 
helping some residents with aquatic therapy. He proved his skills as a 
hardworking direct-care worker with the residents and he was made a 
permanent part-time employee. He was put through training and was 
eventually offered a full-time position.
    The family was excited for Tyler to become a full-time employee but 
concerned that he would lose his Social Security income, Medicaid 
health insurance and the supported living services through the Adult 
Developmental Disabilities waiver that helped him live independently in 
his own apartment. After learning about the Medicaid Buy-in options, 
known as Employed Individuals with Disabilities, or EID in Wyoming, the 
family decided that Tyler should accept the full-time position, enroll 
in EID and pay the premium to keep Medicaid and waiver services for 
some support in the home.
    Today, Tyler continues to succeed at his job and in his long-term 
life goals. He recently received his 5-year employee service award from 
the Wyoming Department of Health. He loves his job and looks forward to 
work each day because ``it makes me feel good to help other people,'' 
he says.
    According to his mother, Jeanie, ``Success didn't come through an 
agency for Tyler.'' He needed an advocate to be a ``mover and shaker . 
. . to explore connections and make the search personal.''
    ``The personal approach with a possible employer made an enormous 
difference,'' she said. She believes that all people with ID searching 
for employment need an advocate, someone to use a personal approach to 
create ``more buy-in from the potential employer.''
    Tyler got married last summer and moved from his apartment into a 
house with a big back yard. He wants to start a side business making 
leather gun holsters to earn a little extra income for the family.
    With support and guidance from his mother and his wife, Tyler 
decided to quit the Adult DD Waiver and EID program in the summer of 
2010 and accept the health insurance and benefits that come with his 
job at the Resource Center. He is no longer using any Federal or State 
programs to help him with routine life activities and models a strong 
work ethic that the Center wants to instill in other employees. When he 
needs help with day-to-day activities such as budgeting, paying bills 
or arranging his benefits or insurance, he now turns to his wife and 
his mother for some assistance.
    ``But mostly,'' he says cheerfully, ``I am doing everything on my 
own.''
                  wyoming business leadership network
    A number of our clients are now entering employment through a state 
affiliate of a national disability organization known as the US 
Business Leadership Network, which represents more than 5,000 
employers. The USBLN recognizes and supports best practices in the 
employment and advancement of people with disabilities and preparing 
youth and students with disabilities for the workplace.
    The Wyoming Business Leadership Network is affiliated with the 
national BLN. In 2009 and 2010, it won two national awards from the US 
Business Leadership Network for development of its statewide network. 
For the past 15 years, the Wyoming BLN and the State Division of 
Vocational Rehabilitation have partnered to help employers navigate the 
myriad of traditional service provider systems, which often operate in 
silos. Employers often give up because they don't understand the 
bureaucratic maze of systems and various uses of terminology. The BLN 
engages business in a non-threatening way and provides disability 
expertise for them, which is something the business world generally 
perceives as difficult to understand. The BLN is partially funded 
through contracts with the Division of Vocational Rehabilitation and 
private fund-raising.
    The BLN also operates a youth mentoring program aimed at engaging 
businesses in eight school districts in Wyoming. Youths with 
disabilities are a particularly fragile group--among the most at-risk 
of the at-risk groups. A 2004 Harris survey reports that students with 
disabilities are twice as likely to drop out of school compared to 
their non-disabled counterparts. The Wyoming Department of Education 
reports that 50 percent of the incarcerated youth have a disability.
    Years ago a business executive in Wyoming challenged our BLN to 
make sure that we were giving youth with disabilities exposure and 
connections to the real world of work. As a result of this employer 
challenge, the Wyoming BLN developed a program called MentorABILITY. 
This program solely uses employers from our State network to teach soft 
skills and mentor Wyoming's youth with disabilities to prepare them for 
the world of work once they graduate from high school. Since this is a 
hands-on experience, it engages youth and helps them to see the 
benefits of finishing their high school education, thus addressing 
those who might have initially dropped out of school. The MentorABILITY 
program bridges the business-education gap by directly involving 
businesses in the classroom.
Partnership With Lowe's
    This past year another innovative practice of Wyoming's Business 
Leadership Network has been a joint project between the Lowe's 
Distribution Center in Cheyenne and the Wyoming Department of Workforce 
Services, which offered a State grant to launch a paid Corporate 
Training Program for individuals with disabilities. This Pre-hire 
Economic Employment grant is part of a State-funded training program 
and was used for the first time to train people with disabilities.
    This project takes people with the motivation to work in the 
warehousing industry and provides a training program to get them up and 
running at the same production standards as their non-disabled 
counterparts. The training was customized to the specific needs of 
Lowe's. Twelve individuals are currently being trained to work at a 
starting wage of $12.50 per hour with benefits including health 
insurance, which is a major concern for people with disabilities. 
Another unique feature is the train-the-trainer model for management 
that will build capacity at Lowe's to provide a long-term diversity 
program within their company. Lowe's has a commitment to this program 
with the hopes that these interns will land long-term careers within 
their company.
Robbie Magill--A Lowe's Success Story
    Robbie Magill is a 34-year-old man with Down syndrome who receives 
services through the Wyoming Adult Disabilities Waiver program. His 
mother, Diane Magill, reports that when Robbie graduated from high 
school even she was unable to see how he could contribute in the 
workplace. Both Diane and her daughter, Brenda Oswald, have been 
disability advocates in the State of Wyoming for years. Despite their 
knowledge and experience in the field, they were unsatisfied with the 
traditional routes to employment for Robbie. In 2001, they embarked on 
beginning an entrepreneurial business with Robbie through a grant from 
the National Down Syndrome Society to start his own video business.
    Robbie has an amazing ability to work with electronic equipment and 
is forever assisting others with their TVs, computers and the like. 
Brenda and Diane hired a trainer for Robbie to assist him in learning 
the video production business. In a short time he was filming, editing 
and producing videos for various organizations in Wyoming. 
Unfortunately, the economy slowed down and they realized that Robbie's 
business would have to call it quits.
    Five years later, after closing his business and trying a couple of 
different professions, Robbie applied for a position with the newly 
formed Lowe's project through the Business Leadership Network last fall 
and was hired as an intern at $12.50 per hour. Robbie began his work on 
December 1, 2010, and started working in the Appliances Department. He 
then found an opening in a different department at Lowe's, where he 
trained at Induction (Bulk) delivery. On March 1 Robbie will have 
finished his probationary period and will become a permanent Lowe's 
employee.
    In his short time at Lowe's, he has gone from a 40 percent 
production rate to 63 percent in just 3 short months. He has learned 
complex tasks like recording off-standard time. His accuracy is 
excellent as well. One issue has been how slowly he walks to his 
station. The Lowe's Distribution Center is a huge facility, so Robbie 
and his trainer have been working on transportation issues within the 
warehouse.
    Robbie is a charming man and was quickly adopted into the Lowe's 
family. He has plenty of friends on the floor and he has helped to make 
a positive difference in the workplace culture at Lowe's. The company 
is quickly discovering the benefits of including people with 
disabilities in their diversity initiative.
    Robbie can't believe how motivated he is to come to work each day 
and how different his attitude is. The fact that he is engaged in real 
work, for a real wage and in a place where he feels accepted is 
spilling over into other areas of his life. Robbie recently became 
engaged and is looking forward to starting his own family. He and his 
fiance are saving up for a honeymoon in Hawaii. It is interesting that 
he has the same dreams and aspirations that his non-disabled co-workers 
have.
    Since then, Robbie has told his mother that if she doesn't like her 
job she could always come and join the Lowe's family. That's what we 
call success in Wyoming.
    Progress is possible. It just takes a coordinated effort across 
agencies and the private sector, utilizing people who can assist others 
in navigating the system.
                  healthy families succeed/job assist
    Another effort that is showing very promising results is a project 
that uses data to identify and help individuals who face employment 
issues and are using multiple public service programs. Until the 
formation of a public-private partnership in our State in 2003, this 
group of individuals was very difficult to find and hard to serve 
because they were often customers of several different agencies--
agencies that weren't aware that they were dealing with the same 
clients. It was an inefficient use of public dollars and not adequately 
helping these individuals with their needs and moving them off public 
assistance.
    The project, known as Healthy Families Succeed, was led by the 
Governor's Office, seven State agencies and HCMS Group Inc., a health 
information company. Healthy Families Succeed began with the creation 
of an integrated database called the Wyoming Health Information Network 
(WHIN). The directors of the seven agencies (including myself ) 
contribute de-identified data to the database, guide the analytics 
produced, and oversee implementation of the program. Healthy Families 
Succeed was designed in response to the data finding that 3 percent of 
the individuals were using 42 percent of State and Federal assistance 
resources. It was clear that a concentrated effort to help this 
particular group could make a significant difference both in improving 
their quality of life and reducing use of public resources.
    It was further determined there were four critical needs within our 
system that hindered this effort, including the need for:

    <bullet> Better coordination of State and Federal services to fit 
family specific needs;
    <bullet> Access to job training and education;
    <bullet> Better coordination of primary medical/mental health care, 
and
    <bullet> Affordable and accessible health insurance for working 
adults.

    The goal was to help these families create personal plans to move 
toward self-sufficiency, addressing the issues tailored to the family 
needs.
    Healthy Families Succeed was built with a phased approach, as we 
learned the important factors in the lives of Wyoming residents who are 
receiving assistance. The first phase, known as HealthAssist, focused 
on the health of the individuals. The second phase, known as JobAssist, 
focused on developing job skills while coordinating housing, 
transportation, education and other support services. The third phase 
(named Wyoming Healthy Frontiers) began late last year with the 
creation of a State-legislated pilot project providing health insurance 
coverage to the uninsured.
    Once potential participants were identified through WHIN (those who 
were using two or more State services), 298 families in two counties 
were asked if they wanted to volunteer for a pilot program in which 
they would receive free assistance from job coordinators, advanced 
practice nurse and pharmacist clinicians who would provide intensive 
counseling to them and their families. As it turned out, 20 percent 
were also using Vocational Rehabilitation services--so there was a 
strong component involving individuals with disabilities.
    Initial results from Healthy Families Succeed are encouraging. The 
pilot group of families, after 24 months, had improved stability, 
health and self-sufficiency, and the costs to the public decreased by 
$1,943 per person. Additionally, 80 percent of the volunteer families 
re-enrolled in the program. More than 50 clients are now enrolled in 
advanced education and job certificated programs.
    Here are some other findings:

    <bullet> The rate of employment increased from 33 percent at 
enrollment to 55 percent after 1 year.
    <bullet> The rate of education completion increased from 24 percent 
to 44 percent.
    <bullet> The rate of those who were either employed or undertaking 
education went from 43 percent at enrollment to 73 percent 1 year after 
enrollment.
    <bullet> Self-reported self-sufficiency increased by 38.5 percent.
    <bullet> Household earnings increased by 26.6 percent and take-home 
earnings increased by 52.5 percent.

    Healthy Families Succeed won an Innovations in Government award in 
2009 from the Council of State Governments.
    The next steps currently under way are to expand Healthy Families 
Succeed statewide and implement the Wyoming Healthy Frontiers pilot 
project.
                               conclusion
    In conclusion, we can point to some programs, projects and 
initiatives that are working. These include:

    1. Collaboration of Effort--which may be easier in Wyoming because 
of our small population;
    2. Leveraging our Resources--Business Leadership Network, public-
private partnerships, State-funded training programs (Lowe's); and
    3. Benefit Assessment--Social Security Disability.

    Future efforts by our agency will include:

    1. Involvement on the State Employment Team's work with the 
Alliance for Full Participation;
    2. Explore information on the Disability Employment Initiative 
through the U.S. Department of Labor to improve access for individuals 
receiving Social Security at our one-stop centers;
    3. Creating additional partnerships with businesses, the Wyoming 
Business Leadership Network and Vocational Rehabilitation using State 
training dollars;
    4. Continue development of youth School-to-Work transition; and
    5. Continued awareness education, including a focus on people with 
disabilities at our annual Governor's Summit on Workforce Solutions.

    We hope our success stories provide a framework for building on a 
national discussion of ways we can help those Americans who are facing 
more than ordinary challenges in a most extraordinary economy.

    The Chairman. Thank you very much, Ms. Evans, and I'll turn 
to Randy Lewis.
    Mr. Lewis, we've never met, but yesterday, in preparing for 
this hearing, one of my staff handed me a CD, a compact disc, 
from Walgreens. So last night, when I was finished, about 6 
o'clock, I put that in my computer and I watched the NBC 
Nightly News, clicked on that, and I hadn't seen that, and I 
clicked on the ABC News and watched that.
    Then I clicked on something called your speech to WERC. I 
don't know who WERC is, but I have to tell you, that 10- or 12-
minute speech blew me away.
    If any of you have not seen it, you ought to take a look at 
it. As I said, I don't know Mr. Lewis. I've never met him 
before, but I have to tell you, that 10 or 12 minutes was just 
mind boggling. What you have done with Walgreens and your 
approach and what you've shown as possible is nothing short of 
astounding. I just want to thank you for your great leadership.
    I'd say to any of you, if you haven't seen that segment, I 
commend it to you highly. Isn't it about 10 minutes?
    Mr. Lewis. It may be a little longer, but thank you.
    The Chairman. Well, I don't know. Whatever it was, I was so 
engrossed, I didn't watch the time, I was so engrossed by it. 
But welcome and please proceed and tell us about what you've 
done with Walgreens.

STATEMENT OF J. RANDOLPH LEWIS, SENIOR VICE PRESIDENT OF SUPPLY 
        CHAIN AND LOGISTICS, WALGREEN CO., DEERFIELD, IL

    Mr. Lewis. As you said, my name is Randy Lewis. I'm senior 
vice president with Walgreens. My responsibilities include our 
logistics network and 20 distribution centers which service our 
7,500 stores across the country.
    In 2003, we began planning a new type of distribution 
center with two objectives. We wanted it to be world class in 
terms of automation and efficiency and we wanted to have an 
inclusive workforce one-third of which would be composed of 
people with disabilities, and we wanted a sustainable model for 
other employers; that is, people with disabilities and without 
disabilities working side-by-side performing the same jobs, 
earning the same pay, held to the same standards.
    The first of these centers opened 4 years ago in Anderson, 
SC, where almost 40 percent of our team members have a 
disability. The second of these opened in Connecticut 2 years 
ago. Almost 50 percent have a disability. These are our most 
efficient centers in the history of our company, and they're 
being driven by team members who prove every day that an 
inclusive workforce is safe, dependable and high performing.
    And we've rolled this out, extended this nationwide to all 
20 of our distribution centers where we now employ over 850 
people with disabilities, almost 10 percent of our workforce, 
and we recently doubled that goal to 20 percent.
    And we've extended this into our stores. Last year, in 
Dallas-Fort Worth, we started a pilot with our partners to find 
and train people with disabilities to fill 10 percent of our 
new store-opening positions, and we hope to begin to roll this 
out next year.
    Now, no doubt this has changed people's lives, people like 
Thomas, who can have multiple seizures a day, who came to me in 
Connecticut and said he'd been looking for a job for 17 years 
without luck, or Darryl, a 50-something man with mental 
retardation who took his first paycheck home and came back the 
next day and asked a supervisor why his mom had cried when he 
showed her the check, or Angie, our terrific HR manager in 
Anderson who has cerebral palsy, who made straight A's as an 
undergraduate and, in graduate school, had over 30 interviews, 
but not a single job offer, or Don, our customer-service 
representative in Connecticut who is deaf, who we hired not 
because of the paradigms we knew she would break, but because 
she was the best person for the job. And on and on and on, and 
we are fortunate to have them.
    We have been astounded by the impact it's had on the rest 
of us. We've had to learn to treat each person as an 
individual, something we talk about in business, but often fall 
short of in practice. We've come to realize that disability is 
just a matter of degree, that we all share some level of 
brokenness, that we are more alike than we are different and 
that there is no them, just us.
    And in discovering the completeness in others, we've 
discovered it in ourselves. We've learned that the satisfaction 
of our own success does not compare to the job of making others 
successful. This has made us better stewards of our work. More 
importantly, it's made us better parents, better spouses, 
better citizens. It's made us better people.
    And we found this to be a movement of attraction, not 
coercion. When we met with our Dallas-Fort Worth store managers 
and asked them who would volunteer their store to be a training 
store, we hoped for 10 volunteers. Thirty-eight volunteered on 
the spot. And without prompting and not to be outdone, our 
Houston store managers launched their own initiative without 
even being asked.
    But, no doubt, we employers need help. Firstly, we need 
help to overcome the fear that hiring people, hiring and 
employing people with disabilities will make us less 
competitive, that we'll make mistakes and be punished for it or 
that this will take too much effort, and we need help in 
finding and training people with disabilities for positions in 
our companies.
    Now, for our part, we have opened our doors to other 
businesses, including our competitors, so that they may 
experience firsthand what an inclusive workplace can be. We 
conduct tours. We host workshops and boot camps, and we share 
learnings. Many have come and many have launched their own 
initiatives, companies like Lowe's, Best Buy, AT&T, Clark 
Shoes, GlaxoSmithKline, and we hope there are others.
    So I come today to you with handwritten invitations from 
our team members in Hartford, CT, to come visit and see for 
yourselves that what we speak of today is not some distant 
dream. It is reality. Thank you.
    [The prepared statement of Mr. Lewis follows:]
                Prepared Statement of J. Randolph Lewis
    Chairman Harkin, Ranking Member Enzi, thank you for the opportunity 
to testify today on behalf of employment opportunities for people with 
disabilities--including the remarkable women and men who enrich the 
Walgreens workforce and contribute to our service to families and 
communities.
    My name is Randy Lewis, and I am senior vice president of Supply 
Chain and Logistics at Walgreens. In this role, I am responsible for 
the logistics network that serves our 7,600 stores in all 50 States, 
the District of Columbia, and Puerto Rico. This includes 17 
distribution centers, which employ nearly 10,000 full-time employees.
    Walgreens is committed to offering and enhancing employment 
opportunities for people with disabilities. This commitment goes 
further than simply complying with our legal obligations under the 
Americans with Disabilities Act, and I appreciate the chance to 
describe our experience at Walgreens. As I will discuss, we've learned 
that broadening our workforce by employing people with disabilities is 
not only the right thing to do, but it also makes good business sense 
and has benefits that reverberate across our company and culture.
                        the walgreens experience
    Our experience began in 2003, when we were planning for a new-
generation distribution center in Anderson, SC. Our objectives were 
straightforward: First, to build a center that was more productive than 
any we had ever built, with a new foundation of systems, machines and 
processes. Second, we wanted to have an inclusive environment where 
one-third of the workforce was made up of people with disabilities who 
might not otherwise have a job. But we also wanted a sustainable 
business model--an inclusive workplace where people with and without 
disabilities work side-by-side, earning the same pay, doing the same 
jobs and held to the same productivity and other workplace standards.
    In the months preceding the opening of our Anderson distribution 
center in 2007, we worked with local agencies to train and attract 
people with disabilities for employment at the facility. Anderson was 
the first facility of its kind to employ a significant number of people 
with disabilities. Today, nearly 40 percent of the facility's workforce 
has a physical or cognitive disability, exceeding our goal.
    Two years later we opened an identical distribution center in 
Windsor, CT, with the same design and workforce inclusion elements in 
mind. Similar to Anderson, employees with disabilities have been 
trained to work side-by-side with other team members--with the same 
productivity goals, earning the same pay. And like Anderson, nearly 40 
percent of the workforce is composed of people with disabilities.
    Shortly after opening our Anderson distribution center, we quickly 
learned that employing people with disabilities did not require all the 
technology and automation associated with our new design, and that it 
was applicable to all 17 of our distribution centers across the United 
States and Puerto Rico. In late 2007, we set a goal to fill 10 percent 
of the jobs at our distribution centers with people who have 
disabilities--or about 1,000 in all--by 2010. At the end of 2010, we 
had hired 850 employees with disclosed disabilities. We continue to 
move forward aggressively, and this past summer our front-line managers 
set a new goal to continue increasing the hiring of people with 
disabilities at our distribution centers by seeking to double our 
percentage over the coming years.
    I say, without equivocation, that our expectations for hiring 
people with disabilities have been exceeded. We're now broadening our 
job opportunities for people with disabilities beyond our distribution 
centers. Last year we launched a pilot program in the Dallas/Ft. Worth 
area to hire people with disabilities for a significant number of 
service clerk openings at stores in the area. What led to this new 
pilot was a partnership between the Texas State vocational 
rehabilitation agency and our distribution center near Dallas that 
resulted in a successful spin-off training program for our stores in 
the area. Stores volunteer to work with local agencies in training 
candidates for store positions with the objective of employing them in 
one of our community stores. This pilot has proven to be successful and 
we will be rolling this out across the country in 2012.
    Our experience illustrates the benefits of working in partnership 
with local organizations that serve people with disabilities. In fact, 
we have found that the variety of partnerships we have with State, 
county and non-profit agencies are crucial to our efforts to employ 
people with disabilities--they provide the tools and expertise to help 
those individuals succeed. Perhaps the success of our employees with 
disabilities will encourage service agencies and their supporters to 
focus on competitive employment opportunities and success.
    We hope our efforts can open doors for people with disabilities in 
other businesses. So far, we have partnered with other companies such 
as Sears, Best Buy and Lowe's, which have since launched their own 
initiatives. We have thrown our doors open to other businesses that 
have interest in employing people with disabilities--we are happy to 
share what we've learned and our experiences. We have conducted tours 
and hosted ``boot camps'' where company managers can gain actual hands-
on experience in an inclusive work environment. And this includes our 
competitors. The success of our employees with disabilities is too 
important not to share with other companies and interested parties.
                          what we have learned
    To help other businesses benefit from our experience, and perhaps 
help efforts by policymakers to encourage employment of people with 
disabilities, let me walk through the most important lessons Walgreens 
has learned--and assumptions and biases we have shattered--as we 
pursued our commitment.
    First, the biggest challenge was making the decision. We knew there 
would be obstacles and mistakes along the way. Will this work? Will we 
find qualified people? Can we train them to be productive and succeed 
in our work environment? What about the impact on other employees? Will 
it affect costs and productivity overall? Fear of the unknown and the 
risk of failure can be the toughest barriers in business, especially 
when people's lives and livelihoods are involved. Nobody wants to be 
blamed for good intentions with faulty outcomes. We knew that if we had 
to answer every ``what if '' before proceeding, we would never get 
started. So we decided to learn and adjust as we moved forward. In our 
experience, if businesses can garner the courage to cross the line and 
hire people with disabilities, then they will discover the same 
benefits we have.
    Second, good partners are key. We found great partners in the 
community who could help us find and train potential employees. In 
Anderson, we worked with the Anderson County Special Needs and 
Disability Board who opened up and staffed a training center a year 
ahead of our opening to ensure that we had a pool of qualified 
candidates. In Connecticut, we worked with the State vocational 
rehabilitation agency, which coordinated across various providers to 
bring forth candidates and train them in our training center within the 
distribution center. In working across the United States, we learned 
that all potential partners are not the same in terms of resources, 
focus, the access to pool of candidates, energy and approach. The 
availability and our assessment of partners' abilities, resources and 
commitment weighed heavily in our site selection.
    Third, we didn't have to create a lot of special accommodations to 
employ people with disabilities. We have been just as successful in 
employing people with disabilities at distribution centers without the 
most advanced technology like Anderson. It turned out that most of the 
steps we took to make work easier and more productive for people with 
disabilities made work easier and more productive for all employees. We 
have found that most of the special accommodations for people with 
disabilities cost less than $25 and is money spent wisely to result in 
a successful employee. For instance, one team member with obsessive-
compulsive disorder was failing to make the productivity standard 
because he was fixated on how he was opening the box rather than on the 
number of boxes he was completing. Providing a simple card with the 
number of squares representing the number of boxes that he should 
complete each hour helped shift his focus, resulting in his success.
    Fourth, we found that the ``build-it-and-they-will-come'' approach 
is not good enough. In other words, having an inclusive work 
environment, an accommodating workplace, and a welcoming attitude may 
be insufficient to attract people with disabilities to your workforce. 
Businesses may not have access to these potential employees because 
they're unaware of the service agencies or partnership opportunities. 
Or local agencies may not know about your commitment, they may not make 
employment a priority, or they do not have the resources to help their 
clients join the workforce and succeed there. Some people with 
disabilities who self-advocate may give up trying to find a job after 
facing repeated disappointment. We had to work harder than we expected 
to find applicants and work with partners to get them the necessary 
preparation and job training.
    Fifth, we discovered we had our own invisible walls, including how 
we defined jobs, and how we interpreted laws and regulations. For 
example, would we risk violating workplace safety rules if we have a 
forklift driver who is hearing impaired? Would we risk violating equal 
opportunity protections if we advertise openly that we were seeking 
people with disabilities (without equal mention of other groups)? 
Sometimes the rules designed to protect people can seem like barriers 
to helping people.
    Sixth, we underestimated the abilities of people with disabilities. 
We were told, and part of us believed as most people do, that people 
with disabilities could not work overtime . . . that certain people 
could not do certain jobs . . . that ``they'' could not adapt to new 
jobs and situations . . . and ``they'' could not perform time-
sensitive, fast-paced, high-quality work.
    We found these generalizations to be false. Our employees with 
disabilities showed that they can be successful in highly competitive 
environments and triumph over these biases every day. These are 
terrific employees and they meet and exceed the same performance 
requirements for all employees.
    Seventh, for us and for those businesses we have partnered with, 
this is a movement of attraction not coercion. That is, we have had no 
problem in finding employees who want to be part of this effort. During 
our planning phase, as it became known throughout the company I 
received countless calls from employees in other areas offering their 
help. I can think of no better illustration than Monica Hall, who I met 
during my first visit to our Connecticut distribution center. She told 
me that she had been an assistant manager in one of our stores in 
Wisconsin when she heard of our plans to open in Connecticut. She 
uprooted and moved her entire family to Connecticut to be part of it. 
When we asked our Dallas/Ft. Worth store managers for volunteers to 
serve as advocates and training stores, we hoped for 10 but got 38 
volunteers on the spot.
    Finally, it has changed us for the better. In our commitment to 
employing people with disabilities, great performance was something we 
hoped for. We have gotten it. We have been rewarded with a safe, 
dependable and productive workforce.
    Along the way, we discovered another, more intangible but powerful 
benefit. That is the impact our commitment to employing people with 
disabilities has had on our work environment and on each one of us.
    As you walk through these buildings, there is a sense of teamwork, 
common purpose and mutual respect unlike we had ever experienced. We 
set out to change the workplace but instead found that we were the ones 
who were changed.
    We learned that working with people with disabilities requires that 
we view each person as an individual whose gifts may not be readily 
apparent. Treating each person as an individual is something we in 
business talk about, but fall short in actual practice. We have found 
that in making people with disabilities successful, it requires us to 
be so. As a result, we become better managers and leaders and we all 
benefit.
    More importantly, no matter how different we seem, we are more 
alike than we are different. In going through the effort to unleash 
each person's gifts, we have discovered the completeness in all of us. 
There is no ``them'' and ``us.'' For those directly involved, it is as 
if we have been awakened from our slumber of self. The satisfaction of 
our own success does not compare to the satisfaction of making those 
around us successful. This has made us better stewards of our work. And 
more importantly, better parents, better spouses, better citizens and 
better people.
                          barriers to address
    The committee has asked me to describe some of the barriers to 
employing people with disabilities. I'm not a policymaker, but in our 
experience, three areas may be worth examining:

    <bullet> Regulations that are designed to help or protect people 
may hinder the hiring of people with disabilities, perhaps some 
accommodations could be made to allow companies to pursue these hires 
without risking sanction.
    <bullet> People with disabilities who want jobs, and companies 
committed to hiring them, would benefit if additional resources were 
made available to help potential employees succeed in the workforce. 
Increased flexibility, access and funding for job coaches for long-term 
support for the organizations with whom we partner, or other mechanisms 
to use our own employees for job coaches for individuals, would be 
helpful in breaking down barriers.
    <bullet> If the ``fear factor'' is deterring companies from 
expanding their hiring of people with disabilities, they might benefit 
from a national summit to share knowledge and information, practices 
that work, and problem-solving among companies, service providers, 
local, State and Federal agencies, non-profit and advocacy 
organizations, and researchers and academics. Walgreens would be happy 
to help and participate.

    In fact, this morning I would like to present the committee with an 
invitation signed by our employees at our Anderson, SC, and Windsor, 
CT, distribution centers to come and visit them, see their work in 
action, and ask any questions you'd like. They'll tell their story much 
better than I can.
                          closing observations
    For many of our employees with disabilities, Walgreens is their 
first full-time job. We've seen first-hand the improvements in their 
lives as they earn and receive recognition for a job well-done and 
build relationships with other team members. The stories are too 
numerous to mention them all here, but a few stand out for me:

    <bullet> The man who has multiple seizures daily who came up to me 
and said that he had been unsuccessfully looking for a full-time job 
for 17 years until he was given a chance at our Connecticut site;
    <bullet> The man in his 50s with cognitive disability who had never 
held a job, who showed his aging mother his first paycheck, and the 
next day asked his supervisor why she had cried;
    <bullet> Our gifted HR manager who made straight A's in both 
undergraduate and graduate school, mailed out 400 resumes, got 30 
interviews but not a single job offer;
    <bullet> The hearing-impaired customer service representative who 
we hired not because of the paradigms we knew she would break, but 
because she was the best candidate.

    I do not minimize the extraordinary challenges facing people with 
disabilities in joining the workforce. They may not have access to 
transportation, they may have difficulty with the application process, 
they may not interview well, they may not learn in the way we teach or 
along the same timeline as we are accustomed, and so on.
    But the toughest challenge of all is when people with disabilities 
are seen as ``them'' and not as ``us.'' A job can change that. A job is 
more than a paycheck; it is a source of dignity. The workplace can be a 
productive and fulfilling place--a place where people with disabilities 
transform their lives from the margins to the mainstream, and can be 
seen as the valuable and complete people they are.
    Walgreens is fortunate to have made the commitment to invest in 
employing people with disabilities, people who make such an enormous 
contribution to our company, customers and community, and who succeed 
in pursuing their dreams and careers. And for those who have been 
directly involved, it has provided more meaning and satisfaction than 
we ever would have dreamed.
    Thank you for the opportunity to tell our story.

    The Chairman. Thank you very much, Mr. Lewis. Again, I said 
I watched that presentation and what you've done there is just 
nothing short of miraculous.
    Do we have a vote going on now? We just have one vote. Why 
don't we take a break right here. Mr. Egan, when we come back, 
we'll start with you. So we'll just run over and come back. 
Shouldn't take us more than 10 minutes or 12 minutes, something 
like that. So we'll just recess for about 10 minutes, be right 
back. Thank you.
    [Recess.]
    The Chairman. Sorry to break up all these animated 
conversations that are going on around here, but the committee 
will resume its sitting.
    And I just recognize Representative Cathy McMorris Rodgers 
who is here from Washington State. Representative, if you would 
like to come up and join us, just come up and join us here.
    [Applause.]
    Just sit anywhere you'd like Representative McMorris 
Rodgers: I've never done this before. Oh, come on. I know you 
are a great advocate, a great advocate, and we've been together 
on things in the past. I'm turning to Mr. Egan now, but do I 
understand that Mr. Egan's brother worked for you or something?
    Mr. Rodgers. That's true.
    The Chairman. Ah, very good.
    Well, Mr. Egan, welcome to the committee. I have read your 
testimony. It's great testimony. And all the things you've 
done, again, you're a role model. No doubt about that. So 
please, if you could sum it up and please proceed, Mr. Egan. 
Welcome.

STATEMENT OF DAVID EGAN, BOOZ ALLEN HAMILTON EMPLOYEE, SPECIAL 
 OLYMPICS ATHLETE AND GLOBAL MESSENGER, FORMER BOARD MEMBER OF 
  SPECIAL OLYMPICS VIRGINIA (SOVA), BOARD MEMBER OF THE DOWN 
SYNDROME ASSOCIATION OF NORTHERN VIRGINIA (DSANV), BOARD MEMBER 
 OF THE DOWN SYNDROME AFFILIATES IN ACTION (DSAIA), McLEAN, VA

    Mr. Egan. Thank you.
    Good morning, Senator Harkin and members of the committee. 
Thank you for inviting me to testify at this important hearing.
    My name is David Egan and I want to tell you about my 
career and what it means to me. I have been an employee of Booz 
Allen Hamilton for 15 years.
    Employment of people with intellectual disabilities is a 
small business decision and a social responsibility. This is a 
familiar topic for Senator Harkin, who, many years ago, 
employed Dan Piper, an individual with Down syndrome to work at 
his district office in Iowa.
    Chairman Harkin is a pioneer in the employment of people 
with intellectual disabilities, and I was honored to be the 
first one to receive the Dan Piper Award.
    The Chairman. Very good. Congratulations.
    Mr. Egan. Thank you.
    I'm going to talk about my job, how I got started, how it 
works and how people with disabilities can succeed on the job. 
My goal is to discuss how to promote the competitive, inclusive 
employment in our communities.
    I want to be one of us and not one among us. What does that 
mean? That means I'm accepted in a group. It means that people 
respect me. They have expectations and they believe in me. It 
means that people acknowledge that I have skills and that I can 
contribute to the goals of a business.
    Let me tell you how it all started for me and why I'm able 
to succeed. It did not all happen suddenly. It took many years 
to prepare. All through my journey, there are very special 
people--my family--one of them, my mom, is behind me--my 
neighbors, friends, teachers, coaches and mentors who made a 
difference in my life. It takes a team, and they all helped me 
overcome obstacles.
    Inclusion starts at home. In my family, I was taught that 
work is part of life.
    It was hard for me to accept the fact that I have Down 
syndrome, but it became easier when I discovered that I was not 
alone. I know that I have a disability, just like many others 
in this world, but my disability does not get in the way when I 
train and compete in Special Olympics sports. It is not an 
obstacle when I learn and perform. It is not a barrier when I 
take the bus to go to work, when I earn my paycheck every 2 
weeks. My disability is not an obstacle, and I can think of all 
the things that I can do.
    Transition from school to work started for me with an 
internship as a clerk in the distribution center during the 
summer of my junior year in high school. The internship did not 
include transportation. My family and I discussed our options 
and my mom started training me on taking the bus to work. I 
have now successfully been taking the bus now for the past 15 
years.
    My first supervisor was great. She took it upon herself to 
teach me everything there was to know about being a clerk in 
the distribution center. She believed in me. She wanted me to 
fit in, and after the summer internship, she asked me if I 
wanted to stay and become a staff employee.
    She taught me how to fill out my time sheet and establish a 
routine for the day. I learned to use the computer systems and 
follow the instructions ensuring that clients get their 
packages. I also learned to work in the supply room when I had 
down time.
    I am treated like all other employees. I receive benefits, 
time off and an annual 360-degree assessment. Like everyone 
else, I go to compulsory training and participate in all-hands 
meetings and corporate events. The company cares about my 
personal and professional development.
    I also made many friends at work and one of them is Greg, a 
senior employee in the distribution center who knows me well 
and has been my role model for the past 15 years. He truly 
cares about me and gives me guidance.
    At Booz Allen, everyone, from the senior managers to most 
junior employees, help each other succeed. I feel like I am 
part of a team.
    My company offers me more than a job. It is a career. The 
CEO of Booz Allen Hamilton, Dr. Shrader, has stated,

          ``Work provides more than a paycheck. It brings 
        dignity and community. When businesses open job 
        opportunities to men and women with disabilities, 
        everyone benefits--the individual, the company and 
        society at large.''

    My firm is special, not just because they employ me, but 
because they help me succeed, and they also support the causes 
that are important to me, like Special Olympics and the Down 
Syndrome Association and The Arc. They encourage me to 
volunteer and be a national advocate for people with 
intellectual disabilities.
    I enjoy my after-work activities in the community as an 
advocate promoting awareness that we are capable people.
    Inclusion also means that I have to give back to the 
community. When I was 12 years old, I was dreaming of winning 
the race in Special Olympics. I still like the competitions and 
want to win many races, but, now, I dare to dream about 
changing the way people think of us, changing the perceptions, 
opening doors for people to shine and overcome their 
disabilities, not only in sports, but in the workplace and at 
all levels of our society.
    Mrs. Shriver, the founder of Special Olympics, believed in 
human dignity and inclusion. In her address at the 1987 World 
Games in Indiana, she said to the athletes,

          ``You are the stars and the world is watching you. By 
        your presence, you send a message to every village, 
        every city and every Nation. You send a message of hope 
        and a message of victory. The right to play on any 
        playing field, you have earned it. The right to study 
        in any school, you have earned it. The right to hold a 
        job, you have earned it. The right to be anyone's 
        neighbor, you have earned it.''

    She has inspired people around the globe to become 
believers and follow in her footsteps.
    Our oath in Special Olympics goes like this: Let me win. 
And if I cannot win, let me be brave in the attempt. And each 
and every one repeat with me: Let me win.
    All. Let me win.
    Mr. Egan. And if I cannot win----
    All. And if I cannot win----
    Mr. Egan [continuing]. Let me be brave in the attempt.
    All. [continuing]. Let me be brave in the attempt.
    We need to change the world together, and we are. It is my 
role to demonstrate abilities, and it is our role, as a team, 
in this room, to make this happen.
    Now, I want to ask all of you do you want to dare to dream 
and imagine the possibilities? Dream with me of a world where 
people are respected and encouraged to succeed, a world where 
people with intellectual disabilities are fully accepted and 
have great friendships.
    In summary, our goal is to make sure that all people with 
intellectual disabilities can launch successful careers. To 
achieve that goal, we need strong family and community 
supports, good education and social skills, internships during 
high school and seamless transition from school to work showing 
that we can achieve, because people have high expectations and 
value our contributions. We need mentors in the workplace, 
supervisors who are willing to take a risk and invest some time 
to teach us new skills to help us learn.
    This is what it means to have an inclusive workforce. This 
is how we fulfill our social responsibility, and it makes a 
good investment. And our Nation, and the world, will be a 
better place for all of us--and you will not regret it--a place 
where people with intellectual disabilities do not have to hide 
and are fully accepted.
    Thank you. Thank you all.
    [Applause.]
    [The prepared statement of Mr. Egan follows:]
                    Prepared Statement of David Egan
                                summary
    (1) Good morning Senator Harkin and members of the committee. Thank 
you for inviting me to testify at this important hearing. My name is 
David Egan and I want to tell you about my career and what it means to 
me. I have been an employee of Booz Allen Hamilton for 15 years and I 
believe that improving the employment opportunities for people with 
intellectual disabilities is a smart business decision and a social 
responsibility.
    (2) Employment of people with intellectual disabilities is a 
familiar topic for Senator Harkin who many years ago employed Dan 
Piper, an individual with Down syndrome to work at his district office 
in Iowa. Chairman Harkin is a pioneer in the employment of people with 
intellectual disabilities and I was honored to be the first recipient 
of the Dan Piper Award. I met the Piper family then and feel a special 
bond with Dan and the chairman as his mom told me that we had a lot in 
common.
    (3) I am here to tell you my story but I am also here to be the 
voice of many who are seeking to be valued members of our society. I am 
going to talk about my job; how I got started; how it works; and how 
people with disabilities can succeed on the job. My goal is to discuss 
how to promote competitive, inclusive employment in our communities.
    (4) I want to be ``One of us and not one among us.'' What does that 
mean? That means that I am accepted in a group. It means that people 
respect me. They don't ignore me. They ask for my opinion. They have 
expectations. They believe in me. It means that people acknowledge that 
I have skills, I am valued and that I contribute to the goals of a 
business.
    (5) People with intellectual disabilities have dreams; we want to 
be included; we want to be a part of the community. We want employers 
to hire us and we want to be useful members of our society; because, we 
want to show OUR ABILITIES and to contribute to the goals of the 
businesses we work for.
    (6) Let me tell you how it all started for me and why I am able to 
succeed. It did not all happen suddenly. It took many years to prepare. 
All through my journey, there were very special people: my family, 
neighbors, friends, teachers, coaches and mentors who made a difference 
in my life; It takes a TEAM. They all helped me overcome obstacles.
    (7) Inclusion starts at home. In my family, I was taught that work 
is part of life. Early on, I helped with family chores and I was not 
excused because of my disability. On the contrary, I engaged in all of 
the activities: the fun ones and not so fun.
    (8) It was hard for me to accept the fact that I have Down 
syndrome, but it became easier when I discovered that I was not alone. 
I know that I have a disability just like many others in this world (9) 
but my disability does not get in the way when I train and compete in 
Special Olympics sports. It is not an obstacle when I learn and 
perform; (10) it is not a barrier when I take the bus to go to work; 
when I earn my paycheck every 2 weeks. My disability is not an 
obstacle; I think of all the things that I CAN DO.
    (11) Transition from school to work started for me in high school 
with an internship at the WildLife Federation and then at the Davis 
Center vocational training. However, the best internship was with Booz 
Allen and Hamilton.
    (12) I started as a clerk in the Distribution Center during the 
summer of my junior year. There was a program called the ``BRIDGES 
program'' sponsored by the Marriott Foundation to encourage employers 
to have interns with intellectual disabilities to try working and 
exploring job opportunities. That was a great experience.
    (13) In June 1996, the high school called my mom to ask if I was 
willing to intern at BAH during that summer. However, there was one 
condition: I had to be able to get to work on my own. The internship 
did not include transportation. My family and I discussed our options 
and my mom started training me on taking the bus to work. She went with 
me a few times showing me how people get on and off and that I 
understood some basic security in crossing the roads and making sure I 
knew where to take the bus and where to get off. It took a week and 
then I was completely on my own throughout the summer. I have taken the 
bus now for the past 15 years.
    (14) My first supervisor, Felicia was great. She took it upon 
herself to teach me everything there was to know about being a clerk in 
the Distribution Center. She believed in me. She wanted me to fit in 
and after the summer internship, she asked me if I wanted to stay and 
become a staff employee.
    (15) The Fairfax County public school sent a job coach to help out, 
but that did not work out too well. Felicia did not want to have a 
middle person to show me the ropes. She taught me how to fill out my 
timesheet and establish a routine for the day.
    (16) Later in my career, I had another supervisor, Showanda who 
preferred to have a job coach from Service Source to teach me new 
skills. I learned to use the computer systems (VIPER) and follow the 
instructions of a manifest, ensuring that clients get their packages. I 
also learned to work in the supply room when I had down time.
    (17) I am treated like other employees at BAH. I receive benefits, 
time off, and an annual 360 degrees assessment like everyone else. I go 
to compulsory training and participate in All Hands meetings, and 
corporate events. The company cares about my personal and professional 
development.
    (18) I also made many friends at BAH. And one of them is Greg, a 
senior employee in the Distribution Center who knows me well and has 
been my role model for the past 15 years. He truly cares about me and 
gives me guidance. At BAH, everyone from the senior managers to the 
most junior employees help each other succeed. I feel that I am part of 
the team. BAH offers me more than a job, it is a career. (18)
    (19) The CEO, Dr. Shrader, has stated:

          ``Work provides more than a paycheck. It brings dignity and 
        community. When businesses open job opportunities to men and 
        women with disabilities, everyone benefits--the individual, the 
        company and society at large.''

    (20) My firm is special, not just because they employ me but 
because they help me succeed. They support the causes that are 
important to me, SO, DSANV, ARC and the VA Alliance. They encourage me 
to volunteer and be an advocate for people with intellectual 
disabilities.
    (21) I enjoy my after work activities in the community as an 
advocate promoting awareness that we are capable people. As a Board 
Member of Special Olympics Virginia, I put forward a motion requesting 
that SOVA hires a person with intellectual disability on their staff. 
It is economically hard but the right thing to do and I am proud to say 
that SOVA now hired a person with disability on their staff. Inclusion 
also means that I have to give back to the community.
    (22) When I was 12, I was dreaming of winning the race in Special 
Olympics. (I still like the competition and want to win many races.) 
But now, I dare to dream about changing the way people think of us, 
changing the perceptions, opening doors for people with disabilities to 
shine and overcome the disabilities not only on the court but in the 
workplace and at all levels of our society.
    (23) Now I want to ask all of you. Do you want to Dare to dream and 
Imagine the PossABILITIES? Dream with me of a world where people are 
respected and encouraged to succeed: a world where people with 
intellectual disabilities are fully accepted and have great friends. We 
need to change the world and we are. It is my role to demonstrate 
abilities and it is OUR ROLE as a team to make it happen.
    (24) Adults with intellectual disabilities can be successful. We 
have a message to share, a message of hope, a message of determination 
to succeed and reach full potential. Slow learning and unique problems 
that we have are not barriers to success.
    (25) They may be obstacles but they can be overcome with open 
hearts and minds. We are able to succeed if given the right motivation 
and placed in an accepting environment that helps us thrive.
    (26) Employing people with intellectual disabilities is a smart 
business decision and a social responsibility.
    (27) In summary, our goal is to make sure that all people with 
intellectual disabilities can launch successful careers. To achieve 
that goal, we need strong family and community support, good education 
and social skills, internships during high school and a seamless 
transition from school to work showing that WE CAN achieve because 
people have high expectations and value our contributions. We need 
mentors in the workplace, supervisors who are willing to take a risk 
and invest some time to teach us new skills and help us learn. This is 
what it means to have an inclusive workforce. This is how we fulfill 
our social responsibility and make a good investment. Our Nation and 
the world will be a better place for all of us: a place where people 
with disabilities do not have to hide and are fully accepted.
    Thank you.
                                 ______
                                 
    First I want to thank Chairman Harkin and the members of the 
committee for dedicating a full hearing on a topic that is dear to me: 
Improving Employment Opportunities for People with Intellectual 
Disabilities.
    This is also a familiar topic for Senator Harkin who many years ago 
employed Dan Piper, an individual with Down syndrome to work at his 
district office in Iowa. Chairman Harkin is a pioneer in the employment 
of people with intellectual disabilities and I was honored to be the 
first recipient of the Dan Piper Award. I met the Piper family then, 
and have felt a special bond to Dan and the Chairman ever since. I 
believe that we all share a lot in common with our outlooks and values.
    I am here to tell you my story, but I am also here to be the voice 
of many who are seeking to be valued members of our society. I will 
tell you how it all started and why I am able to succeed. I will also 
share some thoughts on the challenges that affect people with 
intellectual disabilities; and furthermore, some strategies and 
recommendations to overcome those challenges.
    My journey to employment took many years of preparation. All 
through the years, there were very special people: my family, 
neighbors, friends, teachers, coaches and mentors who made a difference 
in my life; it takes a TEAM. They all helped me overcome obstacles.
    Adults with intellectual disabilities can be successful employees. 
I and many others like me have demonstrated that we can contribute in 
the workplace. However, there is a lot more that we can do to make it 
easier for people with intellectual disabilities to showcase their 
abilities. A lot more needs to be done so that people like me are not 
confined in institutions and limited to working in sheltered workshops. 
When people are successfully employed, they contribute to the well-
being of our society rather than becoming a burden.
    Preparation for work and inclusion starts at home. In my family, I 
was taught that work is part of life. Early on, I helped and I continue 
to help with family chores. I was not excused because of my disability. 
On the contrary, I engaged in all of the activities: the fun ones and 
the not so fun. It is with family, school, and community that the ball 
got rolling. I learned then that I was in charge of my attitude, and I 
am in charge of my life.
    When I was younger, it was hard for me to accept the fact that I 
have Down syndrome, but it became easier when I discovered that I was 
not alone. I know that I have a disability just like many others in 
this world, but my disability does not get in the way when I train and 
compete in Special Olympics sports. It is not an obstacle when I learn 
and perform; it is not a barrier when I take the bus to go to work, 
when I earn my paycheck every 2 weeks. My disability is not an 
obstacle; I think of all the things that I CAN DO.
    I started learning about work in high school with an internship at 
the Wild Life Federation, and later at the Davis Center, a vocational 
training program. However, the best internship was with Booz Allen 
Hamilton. I started at Booz Allen Hamilton when I was a junior in High 
School as a clerk in the Distribution Center. There was a program 
called the ``BRIDGES program,'' sponsored by the Marriott Foundation to 
encourage employers to have interns with intellectual disabilities to 
try working and exploring job opportunities.
    In 1996, the high school called my mom to ask if I was willing to 
intern at Booz Allen Hamilton that summer. However, there was one 
condition: I had to be able to get to work on my own. The internship 
did not include transportation. My family and I discussed our options 
and my mom started training me on taking the bus to work. She went with 
me a few times showing me how people get on and off. She made sure I 
understood some basic security in crossing the roads and that I knew 
where to take the bus and where to get off. It took a week and then I 
was completely on my own. I have been taking the bus now for the past 
15 years.
    My first supervisor, Felicia, was great. She took it upon herself 
to teach me everything there was to know about being a clerk in the 
Distribution Center. She believed in me. She wanted me to fit in and 
after the summer internship, she asked me if I wanted to stay with the 
company and become a staff employee. The Fairfax County public school 
system sent a job coach to help out, but that did not work out too 
well. Felicia did not want to have a middle person to show me the 
ropes. She taught me how to fill out my timesheet and establish a 
routine for the day.
    Later in my career, I had another supervisor, Showanda who 
preferred to have a job coach from Service Source to teach me new 
skills. I learned to use the computer systems and follow the 
instructions of a manifest, ensuring that clients receive their 
packages. I also learned to work in the supply room when I had 
downtime.
    I am treated like other employees at Booz Allen Hamilton. I receive 
benefits, time off, and an annual 360 degree assessment like everyone 
else. I go to compulsory training, participate in all-hands meetings, 
and attend corporate events. The company cares about my personal and 
professional development.
    I have also made many friends at Booz Allen Hamilton. One of them 
is Greg, a senior employee in the Distribution Center who knows me well 
and has been my role model for the past 15 years. He truly cares about 
me and gives me guidance. At Booz Allen Hamilton, everyone from the 
senior managers to the most junior employees help each other succeed. I 
feel that I am part of the team. Booz Allen Hamilton offers me more 
than a job, it offers me a career.
    The CEO, Dr. Shrader, has stated,

          ``Work provides more than a paycheck. It brings dignity and 
        community. When businesses open job opportunities to men and 
        women with disabilities, everyone benefits--the individual, the 
        company, and society at large.''

    My firm is special, not just because they employ me but because 
they help me succeed as an individual. In addition, they support causes 
that are important to me. They encourage me to volunteer and be an 
advocate for people with intellectual disabilities.
    I enjoy my after work activities in the community: I was selected 
to be the first self-advocate serving as a board member for the Down 
Syndrome Association for northern Virginia (DSANV) and then last year, 
I was also elected to be the first self-advocate on the Board of the 
Down Syndrome Affiliates in Action (DSAIA). These associations are 
important because they create awareness and provide support to parents, 
families, children, and adults with Down syndrome. It is like an 
extended family where we care about each other and make sure that all 
members reach their full potential.
    The DSANV this year has worked on the following issues:

    1. Learning Program--Our work in teaching both students and parents 
and educators about strategies and effective ways of helping 
individuals with Down syndrome learn and grow.
    2. The ABLE Act--This is critical legislation for individuals with 
Down syndrome to live a full life, just like any other individual. The 
bill will allow individuals with disabilities and their families the 
opportunity to save money to help pay for things like education, 
housing, travel, community supports, and training, without 
disqualifying them from critical benefits such as Medicaid. These needs 
are critical to both employment and community inclusion. This bill will 
reach out and support more than just individuals with Down syndrome. It 
will end discrimination in the area of tax-sheltered accounts and allow 
for every family to save effectively for their children. I hope that 
you Senators will look into this bill and help see it to a successful 
passage.
    3. Outreach into the Hispanic community--This is an important 
initiative in helping the Hispanic population advocate for their rights 
within the Down syndrome community.
    4. Employment--We are surveying the current status of employment 
and making sure individuals with Down syndrome have access to jobs and 
also opportunities to find their dream jobs.

    My other extended family is Special Olympics. I am an athlete, a 
Global Messenger, and an advocate. I want to promote awareness and show 
that people with intellectual disabilities can be capable and 
productive people. Special Olympics at the local, State, national, and 
international level is instrumental in building confidence in athletes. 
The mission of Special Olympics is to provide opportunities for young 
and old to shine in competition, building an environment for families 
to celebrate the successes of their sons and daughters. That mission 
has not changed in the past 40 years since Eunice Kennedy Shriver 
founded the movement. She believed in people and her message is a 
message of hope, human dignity and inclusion. In her address at the 
1987 World Games in Indiana, she said to the athletes:

        `` You are the stars, and the world is watching you.
          By your presence, you send a message to every village, every 
        city, and every na-
         tion.
          You send a message of hope and a message of victory.
          The right to play on any playing field, you have earned it.
          The right to study in any school, you have earned it.
          The right  to hold a job, you have earned it.
          The right  to be anyone's neighbor, you have earned it.''

    She has inspired people around the globe to become believers and 
follow in her footsteps. Her message is a message of hope and 
opportunity. Our oath is: ``Let me win, if I cannot win, let me be 
brave in the attempt.''
    Special Olympics programs are great promoters of inclusion, with 
programs like Healthy Athletes, Young Athletes, Unified Sports, Global 
Messengers, and Best Buddies. All of these programs help us, the 
athletes, to set objectives and work towards achieving simple and big 
successes.
    As a former board member of Special Olympics Virginia, I put 
forward a motion requesting that SOVA hires a person with intellectual 
disability on their staff. It was economically hard, but the right 
thing to do, and I am proud to say that SOVA has now hired a person 
with a disability on their staff. Special Olympics means a lot to 
myself, my siblings, my family, and so many others.
    I started competing at age 8. While I learned to swim in my 
neighborhood pool with my sisters, I only gained confidence when I 
joined Special Olympics. I also learned to play on a team when I 
started playing basketball and I had to pass the ball rather than run 
with it. I enjoy many sports, I used to do speed skating, track and 
field, but now I play soccer, basketball, and enjoy softball with my 
brother on a unified team Special Olympic team. Special Olympics also 
connects me to the world. I was very lucky to participate in the 
international Global Congress events in the Netherlands in 2000 and in 
Morocco in 2010.
    I learned that people in the world have more in common than we 
think. When I was younger, I was dreaming of winning every race in 
Special Olympics (I still like the competition and want to win many 
races). But now, I dare to dream about changing the way people think of 
people with intellectual disabilities, changing perceptions, opening 
doors for people with disabilities to shine and overcome their 
disabilities, not only on the court but in the workplace and at all 
levels of our society.
    Now I want to ask all of you. Do you want to dare to dream and 
imagine the possABILITIES? Dream with me of a world where people are 
respected and encouraged to succeed, a world where people with 
intellectual disabilities are fully accepted and have great friends. We 
need to change the world and we are. It is my role to demonstrate 
abilities and it is OUR ROLE as a team to make it happen.
    Some successful strategies that will help promoting and 
implementing competitive integrated work settings include starting 
early in the educational system to mainstream students and offer them 
internships in high school and then during vocational training. Give 
employers incentives for employing people with intellectual 
disabilities. Expand public transportation or other means of 
transportation, as many cannot depend on family or friends to get to 
work on a regular basis.
    The barriers to employing people with intellectual disabilities are 
rooted in perceptions and stereotypes. Our group of adults range in 
capabilities like the general population, and therefore not all of us 
need to be in sheltered workshops or enclaves with full supervision. 
These environments are needed but not sufficient. If families are 
exposed to healthy and safe employment settings, they will be willing 
to take a risk like my family did and work in the competitive 
mainstream work environment.
    Another barrier has to do with the concern that employers have with 
the cost of accommodations. However, many adults with intellectual 
disabilities do not have expensive accommodation needs, but rather need 
a mentor and a supportive supervisor. We understand the routine and 
adjust to it quite well.
    The policy conclusion needed is to encourage employers to hire more 
people with intellectual disabilities and one-size-does-not-fit-all, 
but there are many jobs that fit both the needs of the employee and the 
employer. I strongly believe that it is a good business decision and a 
social responsibility. It is an important investment that grows.
    Adults with intellectual disabilities can be successful. We have a 
message to share, a message of hope, a message of determination to 
succeed and reach our full potential. Slow learning and unique problems 
that we have are not barriers to success. There may be challenges 
ahead, but they can be overcome with open hearts and minds.
    Adding us to the roster is not enough; you need to INCLUDE us in 
all aspects of the business. We are determined to succeed and reach our 
full potential. Our passion, persistence and patience will make us walk 
the path, to overcome the obstacles in the journey, and to forge new 
paths for people with intellectual disabilities.
    We, the people with intellectual disabilities, have a place in 
society and in the workforce; we serve, we contribute, we are reliable, 
caring, consistent, and predictable. Those among us with Down syndrome 
can lead normal lives with the help and support of family and 
community. We are able to learn if taught with patience. We are able to 
succeed if given the right motivation and placed in an accepting 
environment that helps us thrive. Include us in all aspects of life, in 
your plans and in your decisions, and you will not regret it. Then our 
Nation and the world will be a better place for all of us: a place 
where people with disabilities do not have to hide and are fully 
accepted. We need help, but not pity. We hope that we are valued and 
treated with dignity.
    In summary, our goal is to make sure that all people with 
intellectual disabilities can launch successful careers according to 
their potential. To achieve that goal, we need strong family and 
community support, good education, social skill development, 
internships during high school, and a seamless transition from school 
to work, which will show that WE CAN achieve success and make valuable 
contributions. More effective public transportation would make it 
easier for individuals to be self-sufficient in getting to work on a 
daily basis. We also need mentors in the workplace, supervisors who are 
willing to take a risk and invest some time to teach us new skills and 
help us learn. This is what it means to have an inclusive workforce. 
This is how we fulfill our social responsibility and make a good 
investment. Our Nation and the world will be a better place for all of 
us: a place where people with disabilities do not have to hide and are 
fully valued and accepted.

                              Attachments

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Chairman. Took our breath away. That was a great 
testimony. Thank you very, very much. I have to say, I noticed 
Mr. Lewis listening very closely to that. I hope he's not 
planning a corporate raid on Booz Hamilton now.
    [Laughter.]
    Dr. Kiernan, welcome again. Thank you for all you've done 
in the past, and your statement will be made a part of the 
record. Please proceed, Dr. Kiernan.

 STATEMENT OF WILLIAM E. KIERNAN, Ph.D., DIRECTOR AND RESEARCH 
PROFESSOR, INSTITUTE FOR COMMUNITY INCLUSION, UNIVERSITY CENTER 
  ON DEVELOPMENTAL DISABILITIES, UNIVERSITY OF MASSACHUSETTS 
           BOSTON AND CHILDREN'S HOSPITAL, BOSTON, MA

    Mr. Kiernan. Thank you very much. It's quite a challenge to 
follow my three colleagues on the panel here. I'm feeling 
somewhat daunted about the task, but, in fact, what I want to 
do is thank the committee for focusing on this issue and for 
continuing the investment in expanding employment opportunities 
for persons with disabilities.
    As you can see, the room is full, and many people are 
engaged. We all believe that this is the challenge that's ahead 
of us and one that we will take on.
    I'd like to refer to my report for the documentation of the 
data that we presented, but highlight three points that I think 
are important, one of which is expectations. We've talked a lot 
about expectations, and I'm wondering whose expectations we're 
talking about.
    When the National Longitudinal Survey surveyed students 
with disabilities as to their expectation as they were 
transitioning from school to work, fully 86 percent of those 
students said, ``yes, I expect to work.''
    In another survey, 63 percent of individuals who were 
currently in sheltered employment had an expectation that they 
would go to work. So the expectation exists. The delivery and 
the promise is our responsibility.
    Additionally, I would like to share a little bit of an 
observation on some of the workforce. As we look at current 
unemployment rates today, they can be somewhat daunting to us, 
and, in fact, the Federal Reserve and the Bank of Boston 
published a report just recently noting that 10 percent more 
people were available in the labor market than there were jobs 
in 2010.
    The Federal Reserve's forecast--now, we know there are 
always risks in forecasts, but their forecast is that there'll 
be 15 percent more jobs than there are workers in 2018, and the 
largest portion of the workforce at that point will be 
individuals over the age of 55. What significance does that 
have?
    In order to maintain productivity in the workforce there 
are accommodations that we've naturally made for the older 
worker that will be in some ways an asset to persons with 
disabilities that will allow them greater access in the 
workplace. Universal design will become a strategy that will 
facilitate access to jobs.
    And the third piece that I will share with you is that 
there is tremendous variability in State systems. We have been 
collecting for many years the data on employment outcomes for 
persons with developmental disabilities nationally, since 1988.
    Employment rates across the States range from 4.5 percent 
to 65 percent. What does that tell us? It tells us that there 
are some really significant islands of excellence that exist 
within the States. It's up to us to capture those and to make 
them go to scale, so that we can demonstrate that things can be 
done effectively.
    Let me switch and move to the area that I think my written 
testimony had spent a fair amount of time on, and those were 
the area of practices. And there are three areas that I'd like 
to highlight, for practical considerations.
    One is for those youth who are transitioning and moving 
from school into adult life, and there are certainly some 
effective practices that were initiated by Higher Education Act 
that looked at postsecondary opportunities for students with 
intellectual disabilities. While just starting, it is a program 
initiative that has significant promise in demonstrating that 
students with intellectual disabilities can participate in 2- 
and 4-year schools. The think
college.net Web page documents 250 such programs.
    Additionally, the opportunities to capitalize upon the 
Edward M. Kennedy legislation that establishes national service 
as an opportunity for persons with disabilities and AmeriCorps 
as being a chance for people to develop some skills around 
employment, receive a stipend and then also be eligible for an 
educational allotment, an experience that will basically build 
those soft skills that lead to success in employment.
    For those individuals who are currently employed in 
industries and segregated settings, it's up to us to provide 
opportunities to offer training and technical assistance, so 
that the providers that are offering those services can convert 
their programs and facilitate movement of those individuals out 
of those programs and into employment. Many of the programs are 
interested in making that happen.
    And the last element that I'll mention is for the worker 
who's already employed, the areas of emphasis around increasing 
earnings and increasing hours worked.
    There are some policy considerations that Senator Enzi 
noted in his introductory statement that I would like to 
highlight. One is clearly the passage of the Workforce 
Investment Act and the opportunities that are available in that 
through the Rehab Act and transition as a focus in rehab, and 
clearly the youth services under the Employment and Training 
Administration has internship programs for youth.
    The second area is looking at national service and the 
expansion of the areas we talk about as a possibility for part 
of the transition experience for youth into adult.
    The third area is an increased FMAP, an expansion of the 
reimbursement from the Center for Medicaid and Medicare 
Services, CMS, that would allow programs to be reimbursed at a 
higher rate for those individuals who are in employment.
    Clearly, the indication of success in these efforts will be 
that it will reduce expenditures over time by rewarding and 
encouraging placement employment efforts by the State 
developmental disabilities agencies.
    Let me just highlight one other area that I think is really 
important, Employment First. Twenty of the State developmental 
disability agencies partner with the State employment 
leadership network of the Institute for Community Inclusion. 
The National Association of State Directors of Developmental 
Disabilities Services has been working for over 5 years in 
defining what Employment First is.
    It's placing the emphasis on employment as the desired 
outcome, of the presumption that people can work as opposed to 
they cannot work, and the desired outcome is competitive, 
integrated employment. That means wages paid by the employer at 
or above the minimum or prevailing wage rate, allocation of 
benefits, the opportunities for interaction for persons with 
disabilities with coworkers who are not disabled, the chance 
for advancement and employment on a full-time basis.
    My goal is not terribly different than Mrs. Shriver's goal 
that you quoted at the opening of this hearing. I think our 
challenge is to have the labor-force participation rate for 
persons with and without disabilities be the same. That rate is 
currently 71.9 percent of the workforce. That should be our 
goal for persons with disabilities as well. Thank you.
    [The prepared statement of Dr. Kiernan follows:]
            Prepared Statement of William E. Kiernan, Ph.D.
    Chairman Harkin, Ranking Member Enzi and distinguished members of 
the committee, thank you for the opportunity to testify today. I am 
William E. Kiernan, Ph.D., Research Professor and Director of the 
Institute for Community Inclusion, a University Center for Excellence 
in Developmental Disabilities located jointly at the University of 
Massachusetts Boston and Children's Hospital Boston.
    The ICI is one of 67 such centers that make up the Network of 
University Centers of Excellence in Developmental Disabilities and are 
part of the Association of University Centers on Disabilities (AUCD). 
Our center has worked extensively in supporting the employment of 
persons with disabilities and has been involved in supporting 
postsecondary opportunities for youth with developmental disabilities 
under the work of the Consortium to Enhance Postsecondary Education for 
Individuals with Developmental Disabilities funded by the 
Administration on Developmental Disabilities, expanding employment 
options for persons with disabilities served by State public Vocational 
Rehabilitation and Developmental Disability agencies in several States 
and enhancing the capacity of the local One-Stop Career Centers 
supported by the Local Workforce Investment Boards (LWIBs) of the State 
Departments of Labor. I am pleased and honored to have been asked to 
comment on the identification of successful strategies to increase 
workplace participation for persons with developmental disabilities and 
to explore barriers that may limit those opportunities.
    I have organized my verbal presentation around the three questions 
that were sent to me by the committee. Additionally, I am submitting 
written testimony including some more specific suggestions as to areas 
where policy as well as practice changes could be made to support 
increased workforce participation by persons with developmental 
disabilities of all ages.
    I would like to begin my written presentation with a brief overview 
of employment status of persons with disabilities nationally and 
consider some of the challenges and opportunities that can influence 
the workforce participation of these individuals. Following this I will 
address each of the committee's questions.
       current status of employment of persons with disabilities
    Over the past decade it has become more apparent that there will be 
a shortage of workers to meet employer demands. Even given the current 
economic downturn, with the declining birth rate as well as the aging 
of the current workforce, most industries are realizing that their 
growth will more likely be limited in the long term by the declining 
labor supply and not the economy in general. A recent report published 
by the Federal Reserve Bank of Boston (November 2010) notes that in the 
New England region while there are 10 percent more workers than there 
are positions to fill in 2010, there will be 15 percent more jobs to 
fill than workers available in 2018. About one third of these jobs will 
be entry level or lower skilled jobs, those that would be suitable for 
young workers or workers without considerable employment experiences 
such as persons with developmental disabilities. These positions can 
serve as the gateway to career development for persons with 
disabilities in the coming years.
    The aging of the workforce will also be a factor in the employment 
of persons with disabilities in the future. By the year 2018 the cohort 
of workers over the age of 55 will increase to 23.9 percent of total 
workforce, the largest single age group in the labor market. 
Additionally, in that same time period there will be more than 50.9 
million jobs either replaced or created with the vast majority, two 
thirds replacement positions, creating an excess of demand over supply 
for the workforce of 2018 (http://www.bls.gov/oco/
oco2003.htm#Labor%20Force). The service occupations will have a 
replacement need in excess of 7.6 million in this 10-year period. While 
it is difficult to predict the level of acquired disability resulting 
for the normal aging process, the older workforce will mandate that 
employers look to accommodations for these workers to both maintain 
productivity as well as maintain a workforce in general. The 
accommodations that will most likely be effective will be those that 
will also have applicability to persons with intellectual and 
developmental disabilities.
    Interesting enough the approaches to supporting the current older 
worker as well as the re-engagement of the retired older worker are 
more similar than dissimilar to those utilized in accessing the 
untapped labor pool of workers with disabilities. Workplace 
modifications and accommodations that are universally applicable to the 
diverse workforce of today, older workers, workers with disabilities 
and immigrant workers, offer promise for employers to have a qualified 
workforce in the coming years.
    However, when considering the workforce of today and the current 
impact of the recession there are some considerable areas of concern 
that must be addressed. Despite the somewhat more optimistic projection 
of the future that were just presented, there are populations where the 
labor force participation rate is and has been quite low as in the case 
of persons with intellectual and developmental disabilities where 8 out 
of 10 are not in the labor market. Coupling the apparent declining 
labor supply with the low labor force participation rate for persons 
with disabilities (nationally 34.9 percent of working age adults with 
any disability and 23.9 percent with a cognitive disability were 
employed in 2009 compared to 71.9 percent for working age adults 
without a disability as reported by the American Community Survey), 
there are some clear inconsistencies in both expectation and perception 
of this current and potential labor resource.
    The U.S. Bureau of Labor Statistics reported the unemployment rate 
for people with disabilities, meaning those who are not working and are 
actively seeking work, for December 2010 at 14 percent compared with 9 
percent for people without a disability. Additionally, during the same 
period only 21 percent of all adults with disabilities participated in 
the labor force as compared with 69 percent of the non-disabled 
population (December 2010 Current Population Survey). Correspondingly, 
for those individuals with disabilities who are employed their earnings 
are considerably less than the earnings for persons without 
disabilities. According to the 2009 American Community Survey, on 
average people with any disability earned 30 percent less from work 
annually than average amount earned by people in the general population 
and people with a cognitive disability earned less than half what the 
general population earned from working.
    In considering the impact of unemployment for all persons, the 
consequence is often a life in poverty. Again as noted in the American 
Community Survey (2009), only 13.4 percent of those persons without a 
disability live in households below the poverty threshold while 26.5 
percent of those having any type of disability live below the poverty 
threshold. For persons with intellectual disabilities who are receiving 
SSI that percentage rises to 42.3 percent living below the poverty 
threshold. Data collected by the Institute for Community Inclusion at 
the University of Massachusetts Boston in its annual data collection 
report (StateData: the National Report on Employment Services and 
Outcomes 2009) estimates only one in five persons with intellectual and 
developmental disabilities served by the State Developmental 
Disabilities agencies received integrated employment services in 2009 
(N = 114,004) (Butterworth, Smith, Hall, Migliore & Winsor, Winter, 
2011). Close to 80 percent were served in facility-based and non-work 
settings (Butterworth et al., 2011). There has yet to be a year since 
the start of this data collection effort in 1988 that more persons with 
developmental disabilities have been served in competitive integrated 
employment than sheltered and non-work settings. In fact, the 
percentage of persons with intellectual and development disabilities in 
competitive integrated employment served by State Developmental 
Disability agencies has shown a decline over the past 10 years (from 
24.7 percent in 2001 to 20.3 percent in 2009). In line with the 
stagnant growth in the percentage of persons with developmental 
disabilities served in integrated employment, those States able to 
report the allocation of funds for day and employment programs noted a 
reduction in the percentage of total funds allocated to integrated 
employment from 2001 (16.6 percent) to 2008 (11.6 percent), a 30 
percent reduction.
    There has been considerable discussion about the status of earnings 
and wage payments for persons in competitive integrated employment as 
well as sheltered employment. Data on earnings collected in 27 States 
through the National Core Indicators project (NCI, 2008-9) report that 
the average weekly earnings of those consumers served in facility-based 
work settings was $29.00 per week while for those in competitive 
integrated employment the average weekly earnings were nearly 4.0 times 
that, or about $111.00 per week. Those individuals with developmental 
disabilities served in supported individual and group placement 
earnings were somewhat less at $97.00 and $69.00 respectively. It 
should be noted that most work about 15 to 17 hours per week.
    When considering the rates of labor force participation nationally, 
the percentage reported has the effect of masking the variances that 
exist across States. The ICI data collection of State Developmental 
Disability agencies has consistently shown great variability from State 
to State when reporting the percentage of persons served in integrated 
employment, from 4.5 percent to 86 percent at an individual State 
level. This variability is reflective of how States have embraced the 
concepts of employment and the priority that is placed in policies, 
procedures and practices within an individual State. It should also be 
noted that this variability across States is not just within the State 
Developmental Disability agencies but also the Vocational 
Rehabilitation agencies even though the Vocational Rehabilitation 
system has a strong national base legislatively and programmatically.
                      challenges and opportunities
    Over a period of several years when the focus was on care and 
protection the expectations of the public were that the goal of any 
service was to support and ``hold from harm'' persons with 
disabilities. With the emergence of the self-advocacy movement and the 
growing emphasis upon self determination and consumer-directed 
services, there is an increasing interest in hearing what persons with 
disabilities are expecting for themselves. In a number of studies it is 
clear that persons with disabilities are anticipating that they will 
work and want to work. Data from the National Longitudinal Transition 
Study (NLTS2) note that 86 percent of students with disabilities who 
are of transition age definitely believe that they will work in their 
adult years. When adding in those that feel they will ``probably work'' 
that percentage moves to 96 percent.
    Similar research findings (Migliore, Grossi, Mank & Rogan, 2008) 
report that for those individuals who were in sheltered workshop 
settings 63 percent indicated that they would prefer to be employed 
outside of the workshop. Again when adding in those who thought they 
might want to work outside of the workshop that percentage moves to 74 
percent. In contrast to these data, 8 out of 10 staff employed in 
facility-based programs felt that such programs are needed for persons 
who have difficulty or are unable to maintain employment (Inge, Wehman, 
Revell, Erickson, Butterworth & Gilmore, 2009). These inconsistencies 
between expectations and perceptions challenge programs to maintain a 
``presumption of employability'' for all persons served and also to 
have a sharper focus on competitive integrated employment as the 
primary or preferred outcome. This lack of focus on employment was 
noted in research conducted by the ICI when reporting how employment 
staff was spending their time on the job. The predominance of their 
time (more than two thirds) was spent in workshop supports, non-work 
supports and travel with slightly more than 1 percent spent in job 
development. This time allocation can be reflective of the lack of 
emphasis on employment as the goal for those served in many sheltered 
workshop settings (now frequently referred to community rehabilitation 
programs).
    While the message from consumers with disabilities is clear, 
practices seem to be inconsistent with that message; persons with 
disabilities are expecting to work, those that are exiting school as 
well as those in sheltered setting, yet many of our practices and plans 
do not reflect these wishes. As will be seen later, the adoption of 
practices such as ``employment first'' and the expectation that 
competitive integrated employment is the primary or preferred outcome 
are strategies that States are beginning to embrace more aggressively 
as they plan supports and provide services to and with persons with 
disabilities.
    The inconsistencies noted above have led many State Developmental 
Disability agencies to consider adopting an employment first policy. 
This policy is an outgrowth of the State Employment Leadership Network 
(SELN) efforts with its 20 State members. For many States the adoption 
of employment first comes with a change in the way that they provide or 
purchase services and supports, their relationship to service providers 
and their development of policies and procedures that presume that 
employment is the primary or preferred outcome.
    Employment first has evolved over the past 5 or more years and has 
been defined as:

        . . . policies, procedures and practices that embrace the 
        presumption of employability focusing resources and efforts on 
        supporting access to and maintenance of integrated employment 
        by persons with disabilities, including those with the most 
        significant disabilities.

    Employment first has a set of guiding principles (see Attachment A) 
that provide a broad framework for States and organizations that seek 
to embrace employment. It should be noted that employment first is a 
gateway to employment but that the outcome of employment first is 
increased labor force participation rates for persons with disabilities 
such that they are earning wages in a competitive integrated employment 
setting. Competitive integrated employment, as an outcome, reflects 
work that:

        <bullet> is compensated by the company at the minimum or 
        prevailing wage,
        <bullet> provides similar benefits to all,
        <bullet>  occurs where the employee with a disability interacts 
        or has the opportunity to interact continuously with non-
        disabled co-workers,
        <bullet> provides opportunities for advancement, and
        <bullet> is preferably full-time.

    The adoption of employment first as the guiding strategy and 
competitive integrated employment as the primary or preferred outcome 
at a State level will require that State agencies be clear about what 
types of services they are seeking to purchase or provide for their 
consumers, that the current service providers are prepared to seek and 
support persons with intellectual and developmental disabilities in 
finding and maintaining employment and that the documentation of the 
services provided is consistent with the principle and guidelines 
associated with employment first. Changes in expectations, practices 
and outcomes measured are essential if we are to see an increase in the 
level of labor force participation for persons with intellectual and 
developmental disabilities.
    The following section will address some of the successful 
strategies for implementing competitive integrated employment, consider 
some of the barriers that exist for persons with disabilities and also 
some of the policies that should and could be considered to see an 
increase in the labor force participation rates for persons with 
developmental disabilities.

    Question 1. What are successful strategies for implementation of 
competitive integrated work settings for persons with intellectual 
disabilities?
    Answer 1. In considering some of the successful strategies for 
implementing competitive integrated work for persons with intellectual 
disabilities it is useful to look at persons with disabilities who are 
transitioning from school to work and adult life, those who are 
currently in sheltered employment or facility-based non-work settings 
and those that are employed in typical work settings but could be 
considered as underemployed.
A. Transition From School to Postsecondary Options and Employment
    In the past 5 years there has been a considerable increase in the 
level of effort in supporting students to move from school to 
employment. Research for more than three decades has shown that those 
students who have an employment or work experience while in school are 
more likely to be engaged in work after they leave school (Hasazi, 
Gordon & Roe, 1985). Studies have documented that work experiences and 
internship experiences have served to provide students with solid 
experience in the area of developing the soft skills to employment as 
well as developing a better understanding of their role in the 
workplace upon graduation. More recently there has been a recognition 
that there is a need to be more expansive in our perception of 
transition and to consider that the final years of eligibility for 
students with intellectual and developmental disabilities can be more 
dynamic including the continuation of learning in postsecondary 
settings such as 2- and 4-year institutions of higher education (Grigal 
& Dwyre, 2010).
    The growing recognition that students with intellectual 
disabilities can learn from and effectively participate in 
postsecondary settings as part of their transition process has led to 
considerable interest in several States in engaging Institutions of 
Higher Education in offering courses and learning experiences in these 
academic settings either as part of or after the completion of their 
eligibility for IDEA (Grigal, Hart, & Migliore, 2010). Over a 15-year 
period the percentage of students with intellectual and developmental 
disabilities in postsecondary settings has increased from 8 to 28 
percent (Newman et al., 2010). In 2010, the Higher Education 
Opportunity Act funded 27 model demonstration programs serving students 
with intellectual disabilities in postsecondary settings in 24 
different States. There are some emerging data that are indicating that 
for those students with intellectual and developmental disabilities who 
participated in postsecondary education there was a greater labor force 
participation rate upon leaving the setting (Migliore, Butterworth & 
Hart, 2009). Additionally the earnings of those students with 
intellectual and developmental disabilities who participated in these 
programs were 73 percent greater than those youth who did not 
participate in postsecondary education (Migliore et al., 2009).
    This early effort while showing some promise has also shown that 
the expectation for student with intellectual and developmental 
disabilities are more likely to be considered for sheltered and non-
work programs by schools in their transition years. The NLTS wave 4 
data using 520 students with intellectual and developmental 
disabilities reports that the most frequent employment goal was 
competitive (46 percent) followed closely by supported employment (45 
percent) and then sheltered employment (33 percent four times greater 
than other students with disabilities) and only 25 percent considering 
postsecondary education. Additionally, 73 percent of parents in a study 
conducted by Griffin, McMillan and Hodapp (2010) reported a lack of 
information or guidance from schools about postsecondary education for 
their children. Training of secondary and transition personnel about 
options for postsecondary is important (Grigal, Hart & Migliore, 2010).
    There are some brighter signs that postsecondary education is 
becoming more established with more than 250 Institutions of Higher 
Education in 37 States reporting that they offer programs for student 
with intellectual and developmental disabilities. More than half of 
these are in 4-year schools with about 38 percent in 2-year 
institutions and the remainder in vocational technical schools. The 
Think College Web site www.thinkcollege.net, a site that reports on 
activities for students with intellectual and developmental 
disabilities in postsecondary settings, averages over 5,000 hits a 
month and serves as a clearinghouse for postsecondary education-related 
resources.
    In addition to the postsecondary options in transition there is an 
opportunity to reorganize the final 4 years of education for students 
with intellectual and developmental disabilities capitalizing upon the 
resource that exist in Education, Labor, National Service and 
Vocational Rehabilitation. With the anticipated passage of WIA, 
transition from school to employment and adult life will become a core 
area of responsibility for the public Vocational Rehabilitation system. 
The additional stimulus monies available to several State agencies 
(Education, Labor and the public Vocational Rehabilitation Agency) were 
focused, in part, upon the youth population and assuring that these 
youth enter and remain in the workforce. These highly focused resources 
are of short duration but are of sufficient magnitude that they can 
significantly impact how transition from school to work and adult life 
is addressed in selected communities. Though the stimulus money is of 
limited duration, the issue of transition is not and the additional 
resources through the Workforce Investment Act, the Rehabilitation Act, 
the Edward M. Kennedy Serve America law (expanding volunteer services 
and service leading to employment) and the recently published Higher 
Education Act regulations (creating opportunities for students with 
intellectual disabilities to complete their entitlement to education in 
a postsecondary setting) can become part of an expanded strategy for 
establishing a comprehensive transition service at the State level.
    As was noted earlier there is clear evidence to show that students 
with disabilities who have an employment experience in school are more 
likely to be employed in their adult years. Additionally, with the 
focus on youth in WIA and the addition of transition from school to 
employment and adult life, now part of the Rehabilitation Act, there is 
a significant opportunity to revise the way services and supports are 
provided to youth with disabilities as they exit school. The 
integration of service leading to employment (the Edward M. Kennedy 
National Service law), the options for completing education entitlement 
services for some youth with disabilities in a community college, 
college or university setting, the use of training resource through 
community colleges can all serve as a platform to revise the transition 
process so that students with disabilities upon exiting school are 
directed toward employment and not non-work options in their adult 
years. One of the relative strengths of WIA has been the percentage of 
young people with disabilities utilizing the WIA funded youth services 
and better integration of such services with transition activities 
would be of major benefit.
    Partnership agreements including schools, the public Vocational 
Rehabilitation agency, One Stops, Community Colleges, Universities and 
community rehabilitation providers can lead to a more robust transition 
planning process and the development of programs and services that link 
postsecondary settings with community colleges and volunteer services 
that may lead to employment for youth with disabilities.
B. For Those in Sheltered Settings or in Non-work Programs
    The primary day and employment delivery system in most States is 
the Community Rehabilitation Program (CRP). These programs are 
typically not for profit entities that frequently provide a range of 
services and supports to persons with disabilities. Many of these CRPs 
offer employment and training services including non-work facility-
based and community-based services as well as sheltered employment and 
integrated employment (see Appendix B for definition of these terms). 
The ICI has for more than 20 years collected data on the employment 
services and supports provided to persons with intellectual and 
developmental disabilities nationally. These data show that on average 
the CRPs serve somewhat over 170 (67 percent serving less than 200 
individuals) persons with disabilities with most (about 80 percent) 
persons with intellectual and developmental disabilities (Inge et al., 
2009). About one in five persons served are in integrated employment 
settings with the remainder in facility-based work and non-work as well 
as community-based non-work settings (Butterworth et al., 2011). In a 
current study of CRPs nationally, the ICI has identified a potential 
list of 12,307 CRPs and has randomly selected 4,000 to survey. Of this 
number and as a result of our initial outreach it has been determined 
that about 25 percent of the original list are programs that no longer 
exist or are not providing employment services. Given this, we are 
anticipating that there are about 9,250 CRPs nationally. Once this 
study is completed, in several months, added details of the nature of 
CRPs and the services and outcomes provided will be available.
    The primary purchaser of the CRP services is the State 
Developmental Disability agency. In response to the interest on the 
part of the State DD agencies to see an increase in the number of 
persons served entering integrated employment many States are adopting 
the guiding principles of employment first. Twenty State DD agencies 
now belong to the State Employment Leadership Network (SELN), a joint 
program of the ICI and the National Association of State Directors of 
Developmental Disability Services (NASDDDS). This annual membership 
organization allows the 20 member States to focus their interests and 
learn from each other as to effective policies, procedures and 
practices that each of the members is doing that might be able to be 
adopted by a member State. The training and technical assistance 
provided by ICI and NASDDDS as well as the policy efforts are focused 
around increasing the labor force participation rates for persons 
served by the State DD system.
    As a result of the SELN activities over the past 6 years, a number 
of practices have been identified that support increased employment 
emphasis at the State level. Through the provision of technical 
assistance to the CRPs more effective services leading to competitive 
integrated employment are being encouraged. Other efforts of the SELN 
address issues of State policies and contractual language that should 
be adopted to encourage changes in the provision of services by CRPs. 
SELN has adopted a framework for employment including: (1) mission and 
goals, (2) identification of champions for employment at the State and 
local levels, (3) funding mechanisms and contracts with providers 
emphasizing employment as the preferred outcome, (4) training and 
technical assistance, (5) collaboration and outreach to other 
employment and training stakeholders, (6) flexibility in use of funds 
and (7) data collection and reporting (Hall, Butterworth, Winsor, 
Gilmore, Metzel, 2007). It is adherence to these seven areas that has 
assisted the member State in moving toward a more concentrated focus on 
employment as the primary or preferred outcome for the clients served.
    Several States are now changing the outcomes of the services that 
they are purchasing and expecting that the contractors (in most 
instances CRPs) will be able to provide services to clients that will 
lead to integrated employment and not a continuation of facility-based 
work and non-work services. States are offering training and technical 
assistance to these providers to change the way that they have been 
offering services and assisting the programs to convert their services 
to meet the contractual interests of the State DD agency. In addition 
to the training and TA offered some States are exploring incentives and 
differential reimbursement structures for competitive integrated 
employment outcomes. What is apparent is that the clearer the message 
about the outcomes the clearer the realization of the desired outcome.
C. Those in Employment but not Full-Time or Needing to Change
    As the data have shown for those individuals who are in competitive 
integrated employment the earnings while at or above the minimum wage 
are often low in total as the number of hours worked is in the 15-hour 
per week range typically. There is a growing interest in encouraging 
accessing jobs that are closer to full-time and also supporting job 
advancement for persons who are currently served in competitive 
integrated employment. Job placement for many persons with intellectual 
and developmental disabilities is not the end of a process but the 
beginning of the career. There will be occasions when assistance will 
be needed to advance in a job, increase hours, change jobs, adapt to 
workplace changes in tasks or structures or just for a job change. The 
strategy for accessing those services should not be a reapplication but 
rather a continuation of services and supports without interruption or 
delay. For those individuals who are eligible for Vocational 
Rehabilitation services postemployment services would be available 
immediately and prior to the time of crisis. For those in the DD system 
similar services should be available. Such services may be able to be 
funded through waivers, State resources, VR or employment and training 
resources. The need for rapid response and immediate support is 
essential.
    As in the case of the pathway to employment being facilitated by 
postsecondary opportunities this same pathway may be an avenue to job 
advancement for persons with intellectual and developmental 
disabilities. Postsecondary options can be self-funded, funded though 
VR or even funded through the place of employment. These options should 
be considered as we look at how to support the individual with a 
disability in developing his or her career path.

    Question 2. Barriers to Employment: What are the barriers to 
employment for persons with disabilities?
    Answer 2. The barriers to employment can be systemic in nature and/
or unique to the individual. As has been noted earlier there are some 
clear indications that the current high unemployment rates have made 
the employment of persons with disabilities more challenging. What has 
also been noted is that the national demographics are all pointing to a 
shortage of workers in the coming decade.
    One of the systemic barriers to employment is the strategies that 
have and continue to be utilized to find jobs for persons with 
disabilities. While studies have documented that the family and friend 
network is a very effective strategy in finding employment for persons 
without disabilities, this network is not utilized as often for persons 
with disabilities. Additionally, with the massive changes in technology 
the advertisement of job openings is more often through the Internet 
than word of mouth or print. The capacity to search electronically all 
Web pages and create lists of job openings sorted by knowledge, skills 
and abilities is already in use in some labor sectors. The reliance on 
cold calls, personal network and print searches are no longer the 
primary ways that employers utilize to identify or reach potential 
employees, they are using the Internet and on-line job systems. It is 
crucial that the job developmental efforts of the employment and 
training systems (public and private) embrace the technology that 
exists and more aggressively match individual interests and skills to 
labor market demands.
    There are a number of other barriers to employment that according 
to Migliore et al., 2009) can be grouped into seven categories: (1) 
long-term placement, (2) safety, (3) work skills, (4) social 
environment, (5) transportation, (6) agency support, (7) disability 
benefits and (8) systems of service. This list outlines many of the 
challenges that persons with intellectual and developmental 
disabilities face when considering employment. However, it should also 
be noted, as was stated earlier, expectation can play a significant 
role in employment. For some individuals the expectation of employment 
as a realistic outcome, particularly those who are responsible to the 
transition process and the employment and training activities, can 
seriously impact employment outcomes. Other challenges are the limited 
expertise among staff in schools and CRPs in understanding effective 
practices in identifying employment options, making job matches and 
supporting individuals using natural supports as much as possible. 
There is a considerable training and technical assistance effort that 
is needed at both the school and adult service levels.
    As noted by Migliore, et al., 2008 some of the concerns about 
safety and consistency in work schedules are among the top tier of 
concerns for families. In certain families where both parents are 
working or in those settings where the individual with intellectual and 
developmental disabilities is residing in a community residence there 
are concerns about working second shifts, part-time employment and job 
transition that can cause providers to discourage employment. Parental 
concerns about harassment, bulling and risks to independent travel can 
all raise concerns and apprehensions on the part of families. Another 
major concern is the loss of friends and the apprehension about meeting 
new people and making new friends for persons with disabilities when 
entering work.
    Some of the more systemic concerns include work skills and the 
perception that the tasks will be too difficult. Often when there is a 
problem with the skills and tasks required this is reflective of an 
inadequate job match. When job accommodations and job modifications are 
made seldom is the level of work skills an issue for persons with a 
disability in the work setting. In some instances there may be 
occasions when job tasks will change or new technology or procedures 
are introduced and as a result there will be some need for training and 
retraining but in many instances this can be accomplished by the 
company and in others with the assistance of an employment training 
specialist.
    A common concern involves transportation and the lack of adequate 
transportation for persons with intellectual and developmental 
disabilities to get to employment. A number of studies have considered 
this barrier and while it is present do not feel that this was a 
primary concern for many (West, Revell & Wehman, 1998). Often the issue 
of transportation is the identification of local resources, either 
public or private that can assist. In some instances the issue of 
transportation may restrict some job areas but this appears to be less 
of a challenge for those in urban and suburban areas.
    Agency support reflects both a lack of flexibility in providing 
necessary supports as well as limitations in the skill level of the 
personnel who are to provide supports. There have been a number of 
studies identifying the level of expertise of staff in the employment 
support areas. As was noted earlier, for many there is not a great deal 
of time spent in the job development process and many staff feel 
uncomfortable in being the sole source of support for the consumer in a 
work setting. This issue is tied more to the lack of skills training 
expertise on the part of the staff as opposed to availability of staff 
supports.
    The fear of loss of benefits has been often raised by staff, 
families and consumers. While there are a number of work incentives 
that are available (Plans for Achieving Self Sufficiency [PASS], 
Impairment Related Work Expenses [IRWE], 1619(a) and 1619(b)) not all 
of these apply to all SSA beneficiaries. The inconsistency in SSDI and 
SSI benefits and incentives has long served to make the decision to 
consider employment complex for many. In addition to the cash and 
health care benefits, concerns about loss of housing, food stamps and 
other benefits must be dealt with. The attempt to utilize benefits 
counselors has begun to address some of these concerns but there 
remains a great deal of misunderstanding of the availability of 
benefits and the impact that earnings will have on individual benefits.

    Question 3. What policy conclusions should we make toward the goal 
of increasing employment?
    Answer 3. Policy considerations are necessary not only at the 
Federal level but the State and local levels as well. The following 
offer some suggestions as to policy changes that could be considered 
that would enhance the labor force participation by persons with 
development disabilities.
A. At the Federal Level
    With the passage of the Workforce Investment Act and 
correspondingly the Vocational Rehabilitation Act, the role of 
transition for students with disabilities will clearly be a focus for 
VR. The emphasis on facilitating the movement of students with 
disabilities into employment and away from sheltered work or non-work 
programs will be reinforced by the decision more than 10 years ago by 
VR to not count sheltered employed as an outcome for the rehabilitation 
system. The engagement of VR in the schools and the creating of a more 
effective relationship between VR and schools will be essential as VR 
assumes more of the responsibility for transition. Identification of 
effective collaborations between VR and education and the development 
of model demonstration to replicate those practices in a select number 
of States will be an effective way of scaling up the VR role in the 
transition process.
    Both youth and adults with developmental disabilities can benefit 
from the programs available through the U.S. Department of Labor, 
Employment and Training Administration. The considerable investment in 
youth services through summer employment and part-time work while in 
school can play a central role in providing youth with intellectual and 
developmental disabilities an opportunity to have a real work 
experience. Such an experience can offer a chance for the student to 
develop more specific work interest and a better understanding of how 
he or she relates to co-workers and managers in a real work setting. 
For the adult with intellectual and developmental disabilities having 
access to the resources at the One Stop can offer a link to labor 
market information and job openings that may not be available through 
other programs. The involvement of the youth with One Stops can also be 
part of the transition process from school to work. Data show that 
youth with disabilities who participate in ETA youth programs perform 
as well as youth without disabilities. Increasing the access to and 
enrollment in these programs by youth with intellectual and 
developmental disabilities can serve to expand employment options for 
such youth.
    While the Corporation for National and Community Service (CNCS) has 
its primary focus national service and volunteerism, with the passage 
of the Edward M. Kennedy Serve America law, the opportunities for 
national services have expanded considerably. CNCS has and continues to 
support increased access to national service by persons with 
disabilities through the National Service Inclusion Project at the 
Institute for Community Inclusion. A second project, Next STEP, 
supported by CNCS, is demonstrating how national service can be a 
pathway to employment for persons with disabilities. The opportunities 
to learn through national service are many. The skills acquired through 
national services match what research tells us are factors that 
contribute to success in employment for persons with disabilities. 
National service can and should be an option for those students who are 
transitioning from school to employments as well.
    The State Developmental Disabilities agencies have relied heavily 
upon the reimbursement for services provided through the Centers for 
Medicare and Medicaid Services (CMS). Through the use of waivers States 
have been able to encourage the development of supported employment 
services for persons served through the State DD systems. Some States 
have aggressively embraced the presumption of employability and the 
adoptions of policies, procedures and practices that reflect that 
employment should be the focus of the services offered to all 
consumers. The challenge in many States is the need to create 
additional incentives for the community rehabilitation providers to 
focus more attention and effort on assisting persons with intellectual 
and developmental disabilities in entering and remaining in employment. 
Through an enhanced reimbursement rate to State agencies reflecting an 
increased rate of reimbursement for persons who are served in 
integrated employment, initial data are showing that considerable 
savings to the State as well as CMS can be realized over a 10-year 
period for one individual served ($42,000 for the State and $18,000 for 
CMS per individual over a 10-year period--see Appendix C). Incentives 
provided to States through an enhanced Federal Financial Participation 
rate can yield increased employment rates as well as savings to both 
the State and CMS.
    Continue to dedicate resources in Higher Education that will 
support the accessing of postsecondary education leading to employment 
by students with intellectual and developmental disabilities. In 2010 
the U.S. DOE funded 27 model demonstration programs and a national 
technical assistance center involving 24 States as part of the 
development and expansion of postsecondary education for students with 
intellectual disabilities (authorized by the Amendments in the Higher 
Education Opportunities Act (HEOA) of 2008). Such a nascent program 
must be clearly identified, developed and not merged into a larger 
program as proposed by the President's budget. Should this attempt to 
increase the postsecondary opportunities for students with intellectual 
and developmental disabilities be placed within a larger program the 
focus of the program on students with intellectual disabilities will 
most assuredly be lost.
    This effort has also been supported by the Administration on 
Developmental Disabilities in their support of Think College, a project 
that provided mini-grants to University Centers on Excellence in 
Developmental Disabilities (UCEDDs) to support State level strategic 
planning, development and implementation of postsecondary education 
options. Ongoing and cross agency support of this effort and an 
identification of Institutions of Higher Education currently or 
interested in supporting postsecondary options for students with 
intellectual and developmental disabilities supports a more 
comprehensive transition as well as work preparation effort for these 
students.
    Consistency with Social Security Work Incentives and streamlining 
the Ticket to Work incentives: There are clear inconsistencies at the 
Federal level regarding the expectation of persons with disabilities to 
become part of the labor force in their adult years. Some of these are 
reflective of the eligibility determination processes for Social 
Security Benefits as well as health care benefits. The criteria for 
eligibility for cash and health care benefits are closely tied to the 
documentation that the applicant is not able to work and will not be 
able to work over an extended or perpetual period of time. Once the 
determination of eligibility for benefits is made, it is highly 
unlikely that individuals with disabilities will consider work given 
that the consequence to having earnings above Substantial Gainful 
Activity (SGA) may or are perceived to place those benefits in 
jeopardy.
    While SSA has attempted to support return or entry to work for 
beneficiaries, the complexity of rules relating to benefits for the 
individual are considerable. Compounding this fact is that there are 
different rules for those on Supplemental Security Income (SSI) and 
those on Social Security Disability Insurance (SSDI). Many attempts 
have been made to have the use of work incentives and the rules that 
guide their use be consistent across all beneficiaries. Such a policy 
change would create a great deal more incentive for the SSDI 
beneficiary to consider return to work. The role of the Ticket, a 
concept with merit but again complex in its implementation, should also 
be streamlined so that providers and others interested in supporting 
the return to work for persons with disabilities could benefit from the 
payments available through the ticket.
B. At the State Level
    Not all policy change will occur at the Federal level. At the State 
level there is a clear need to have a consistent message that there 
must be a presumption that persons with disabilities can work. States 
are now developing policies, procedures and practices that place the 
focus of services and supports on employment first and that the 
services and programs provided should have as their primary or 
preferred outcome competitive integrated employment. The end result of 
employment first will be an increase in the labor force participation 
rate for persons with intellectual and developmental disabilities 
having wages that are at or above the minimum wage, benefits that are 
consistent with other workers in the place of employment, provide 
opportunities for interaction on a continuous basis with co-workers 
without disabilities, have a potential for advancement and employed 
preferably full-time. The adoption of the employment first guidelines 
at the State level will influence the nature of the services purchased 
by the State DD agency and also send a clear message to the provider 
system as to what outcomes are desired. As was noted earlier changes in 
reimbursement rates, reporting requirements and data collection can 
serve to reinforce the States adoption of employment first as the base 
of its practices and programs.
    For many States the delivery system for day and employment services 
is the not-for-profit community-based organizations, typically referred 
to as community rehabilitation providers. Many offer a range of 
services and are seeking ways to increase the employment rates for the 
persons served. Currently for those in facility-based programs, earning 
is extremely limited. In States that have been successful in adopting 
employment first or a similar policy they have also coupled this effort 
with supports for training and technical assistance to these providers. 
For some CRPs the adopting of an employment focus is a considerable 
change in the way that they do business. For those interested in 
changing or converting their service from a facility-based service to 
an employment and training service leading to placement in a 
competitive integrated jobs, training of staff, changes in practices 
and development of new staff roles and areas of emphasis is essential. 
Resources at the Federal level to support program conversions can 
facilitate the adoption of employment first polices and assist the 
provider system in changing how they provide services.
    An area for considerable change at the State and local level is in 
the area of transition from school to employment and or postsecondary 
education to employment. For many students the final years of school 
are often colored by watching classmates graduate, continuing the same 
or similar curricula and little discussion about roles in adult life 
including community living and employment. The process of transition 
must be one that involves many resources, begins early and builds upon 
the inclusive educational experiences that many students with 
disabilities have now in school. The period between the adult 
eligibility for services and the educational entitlement to services is 
often a time of concern for both the student and the family. The 
redefining of the final 4 years of entitlement to include options that 
prepare the student to enter the workforce may include an experience in 
a more age-appropriate postsecondary setting, real work and or 
volunteer experiences and a focus on developing some employment and job 
skills while in school; in the summer and also in the transition years. 
Transition should be viewed as a multiyear planning and learning 
process, one in which the student will gain more experience about 
employment, independence and also experience a sense of accomplishment. 
As was noted many students who are nearing the end of their high school 
experiences are anticipating entry into the labor market. The 
preparation for this should be a restructuring of the transition 
planning and implementation process so that resources at the 
postsecondary level (2- and 4-year institutions of higher education as 
well as technical schools), national service and part-time employment 
can be part to the learning and serve as the gateway into employment. 
The goal of transition should not be into a non-work or segregated 
setting but, as the student has experienced, an inclusive setting that 
has the option for employment, earnings and social inclusion as the end 
of the transition effort.
    As was noted in Commissioner Lewis testimony ``what gets measured 
gets done, what gets measured and fed back gets done well, and what 
gets rewarded gets repeated.'' Data collection at the State level can 
serve as both a way of documenting progress as well as providing 
information to consumers, families, State agencies and others about the 
outcomes of programs that are serving persons with intellectual and 
developmental disabilities. Data collection is essential to documenting 
and measuring change and also identifying practices that are effective. 
It is crucial that States be able to document outcomes of services and 
to report on the rates of labor force participation by persons with 
intellectual and developmental disabilities served at the local, State 
and national levels.
    What is clear in a number of studies noted in this testimony as 
well as in other studies is a critical need to train staff in the 
schools to be more effective at transition planning and in the 
community rehabilitation providers regarding strategies for job 
development, job analysis, job modifications and on-site supports. The 
level of skill in the personnel who are charged with identifying, 
accessing and supporting persons with intellectual and developmental 
disabilities is limited. Most pre-service training efforts at the 
teacher preparation levels do not address issues of transition and 
transition planning and in the adult services most job development and 
employment training specialists have little if any initial or on-going 
training. If we are to be successful in supporting persons with 
disabilities in accessing and maintaining employment then staff skill 
level must be increased. Training in transition planning and transition 
services for educators should be incorporated into pre-service training 
as well as professional development training for educators at the 
secondary levels. Some States are identifying transition training 
competencies and moving toward certification or credentialing in 
transition planning for educators.
    At the community rehabilitation provider level, training of staff 
at a State and program level is essential in the areas of job 
development, job assessments, employment customization and job 
supports. The pending development of a College of Employment Supports 
that will parallel the College of Direct Support Professionals at the 
end of this year will serve to increase the capacity of staff in 
community rehabilitation programs who are charged with assisting 
persons with intellectual and developmental disabilities in entering 
employment. This training should be considered as a service that is 
supported through training monies in Vocational Rehabilitation, DOL 
Employment and Training, the Administration on Developmental 
Disabilities and CMS.
    Engaging employers in both the training and hiring processes, while 
not a public policy issue, can be an effective way of addressing both 
the employer's future workforce needs as well as to access the natural 
environment of the workplace for training. Employers can serve as a 
training resource offering internship and apprenticeship options for 
persons with intellectual and developmental disabilities. Utilizing the 
natural setting of the workplace as a training environment can create a 
very strong training experience for persons with disabilities. 
Employers in many industries have used the natural setting as a 
training environment through apprentice and internship opportunities 
for persons without disabilities. Similar strategies can be used to 
train persons with disabilities in natural work settings.
    Technology has played a role in facilitating a stronger match 
between a job and an individual with a disability. Technology from a 
labor market perspective is playing a more central role in job 
development and applicant and employer matching. The traditional 
approaches of job development, identification of labor market needs and 
linking clients to a potential job has been highly labor intensive and 
not reflective of the way employers seek employees. The use of a real-
time demand data system will create immediate matches of the knowledge, 
skills and abilities (KSA) of the job applicant to the KSAs as 
presented in the job postings. The capacity to identify all job 
openings in a designated area (local, sub-state, State, regional or 
national) on a daily basis will assure that the industry demands are 
current. The ability to sort experiences, interests and preferences of 
the clients served and the matching of those to the needs on the demand 
side has not been done to date. The development of the strategies as 
well as the implementation guidelines, policies and practices can be 
done on a national level and will facilitate adoption at local, State 
and national levels and thereby streamline the job development process 
for providers and persons with disabilities.
                               conclusion
    The challenges are many as are the opportunities but it is clear 
that our expectations and practices need to be realigned and the 
approaches to supporting persons with intellectual and developmental 
disabilities, and for that fact all persons with disabilities, will 
yield gains not only for the individual and the public sector but the 
employer as well. The changes in the labor market in the next decade 
offer a significant opportunity for persons with disabilities to take 
their rightful place as employees and contributing members to society 
in the same proportions as do those without disabilities.
                               References
____. Occupational outlook handbook, 2010-11 edition. Bureau of Labor 
    Statistics. (http://www.bls.gov/oco/oco2003.htm#Labor%20Force).
Butterworth, J., Smith, F., Hall, A.C., Migliore, A., & Winsor, J. 
    (2011). StateData: The National Report on Employment Services and 
    Outcomes, http://statedata.info/datanotes/pdf/Statedata2009.pdf.
Grigal, M., Hart, D., & Migliore, A. (2010, October). Think College: An 
    overview of national research. Plenary session, State of the Art 
    Conference, George Mason University, Fairfax, VA.
Grigal, M., & Dwyre, A. (2010). Employment Activities and Outcomes of 
    College-Based Transition Programs for Students with Intellectual 
    Disabilities. Think College Insight Brief, Issue No. 3. Boston, MA: 
    Institute for Community Inclusion, University of Massachusetts 
    Boston.
Hall, A.C., Butterworth, J., Winsor, J., Gilmore, D. & Metzel, D. 
    Pushing the employment agenda: Case study research of high 
    performing States in integrated employment. Intellectual and 
    Developmental Disabilities, 45 (3), 182-98 (2007).
Hasazi, S., Gordon, L.R. & Roe, C.A. (1985). Factors associated with 
    the employment status of handicapped youth exiting high school : 
    Policies and practices. American Rehabilitation, 11(3), 9-16.
Higher Education Opportunity Act of 2008, Pub. L. No. 110-315 Sec. 122 
    STAT. 3078 (2008) Individuals with Disabilities Education 
    Improvement Act of 2004, PL 108-446, 20 U.S.C. Sec. Sec. 1400 et 
    seq. (2004).
Inge, K.J., Wehman, P., Revell, G., Erickson, D., Butterworth, J., & 
    Gilmore, D.S. (2009). Survey results from a national survey of 
    community rehabilitation providers holding special wage 
    certificates. Journal of Vocational Rehabilitation, 30(2), 67-85.
Migliore, A., Grossi, T., Mank, D., Rogan, P. (2008) Why do adults with 
    intellectual disabilities work in sheltered workshops? Journal of 
    Vocational Rehabilitation, 28(1), 29-40.
Migliore, A., Butterworth, J., & Hart, D. (2009). Postsecondary 
    Education and Employment Outcomes for Youth with Intellectual 
    Disabilities, 2009, accessed here: http://www.thinkcollege.net/
    component/docman/doc_download/8-fast-facts-issue-1-pdf.
Modestino, A. (November 2010). Mismatch in the labor market: Measuring 
    the supply of and demand for skilled labor in New England. New 
    England Public Policy Center Research Report 10-2, Federal Reserve 
    Bank of Boston.
Rix, S. (February 2011). Unemployment down but overall job growth 
    remains anemic. AARP Public Policy Institute. Washington, DC.
West, M., Revell, G., & Wehman, P. Conversion form segregated services 
    to supported employment: A continuing challenge to the VR service 
    system. Education and Training in Mental Retardation and 
    Developmental Disabilities. 33(3) (1998). 239-47.
      Attachment.--Appendix A: Employment First Guiding Principles
    Employment first has evolved over the past 5 or more years and has 
been defined as:

         . . . policies, procedures and practices that embrace the 
        presumption of employability focusing resources and efforts on 
        supporting access to and maintenance of integrated employment 
        by persons with disabilities, including those with the most 
        significant disabilities.
                appendix a: employment first principles
    Employment First: is a service delivery strategy regarding the use 
of public funding for persons with disabilities, including persons with 
the most significant disabilities, which effectuates on a systemic 
basis the principles set out below. The strategy supports the primary 
or preferred employment outcome of competitive, integrated employment 
for persons with disabilities including those with the most significant 
disabilities. The strategy includes the issuance and implementation of 
policies, practices, and procedures promulgated through Federal and 
State statutes, regulations, and/or operational procedures, including 
policies, practices, and procedures requiring that systems have a 
statutory responsibility to provide services that align their 
reimbursement practices, policies and guidance to incentivize, 
encourage and fund services and supports that lead to competitive, 
integrated employment.
    The Employment First strategy shall be implemented consistent with 
the following principles:

    1. Disability is a natural part of the human experience that in no 
way diminishes the right of individuals with disabilities, including 
individuals with the most significant disabilities, to achieve the four 
goals of disability policy--equality of opportunity, full 
participation, independent living and economic self-sufficiency.
    2. Self-determination and informed consumer choice are essential 
elements in all programs and service options.
    3. Work for pay (employment) is a valued activity both for 
individuals and society. Employment provides both tangible and 
intangible benefits. Employment helps people achieve independence and 
economic self-sufficiency. Employment also gives people purpose, 
dignity, self-esteem, and a sense of accomplishment and pride.
    4. Work is physical or mental effort directed toward production of 
goods, the provision of services, or the accomplishment of a goal.
    5. All individuals, including individuals with the most significant 
disabilities, should enjoy every opportunity to be employed in the 
workforce, pursue careers, and engage actively in the economic 
marketplace.
    6. Individuals with disabilities, including individuals with the 
most significant disabilities, should be empowered to attain the 
highest possible wage with benefits and be employed in the most 
integrated setting appropriate, consistent with their interests, 
strengths, priorities, abilities, and capabilities.
    7. Individuals with disabilities, including individuals with the 
most significant disabilities, should enjoy a presumption that they can 
achieve competitive, integrated employment with appropriate services 
and supports.
    8. Employment-related training services and supports should be 
provided to assist individuals with the most significant disabilities 
to become employed with a priority for competitive, integrated 
employment.
    9. Based on information from the employment marketplace, 
employment-related training services and supports should target areas 
of present and future workforce growth. Input from employers is 
critical to effectively direct employment-related training and 
services.
    10. Service providers are expected to use best, promising, emerging 
practices with respect to the provision of employment-related services 
and supports.
    11. Technical assistance should be available to service providers 
for the purpose of expanding and improving their capacity to provide 
supported employment, customized employment, and other services and 
supports that will enhance opportunities for competitive, integrated 
employment consistent with best, promising and emerging practices.
    12. Supports should be provided for as long as needed with a focus 
on use of natural occurring supports as much as possible.
    13. There is a need for a seamless system of services, supports and 
funding involving all agencies responsible to provide services if we 
are to increase options for competitive, integrated employment. The 
seamless system must include the establishment of infrastructures and 
resource allocation (staff time and funding) that reflect the 
preference for competitive, integrated employment.
    14. Exploitation of workers with disabilities is abhorrent and 
workers should enjoy meaningful and effective protections against 
exploitation.
         Appendix B: Definitions of Day and Employment Services
Integrated Employment
    Integrated employment services are provided in a community setting 
and involve paid employment of the participant. Specifically integrated 
employment includes: competitive employment, individual-supported 
employment, group-supported employment, and self-employment supports.

    <bullet> Competitive- and individual-supported employment refers to 
individuals who work in an individual job, typically as an employee of 
the community business.
    <bullet> Group-supported employment refers to groups of individuals 
who work in integrated job settings typically as part of an enclave or 
mobile work crew. In general group supported employment applies only 
for group sizes of eight or fewer.
    <bullet> Self-employment refers to small business ownership that is 
controlled or owned by the individual. It would not include a business 
that is owned by an organization or provider.
Community-Based Non-Work
    Community-based non-work includes all services that are focused on 
supporting people with disabilities to access community activities in 
settings where most people do not have disabilities and does not 
involve paid employment of the participant.

    <bullet> Activities include general community participation, 
volunteer experiences, or using community recreation and leisure 
resources. The majority of an individual's time is spent in the 
community.
    <bullet> This service category is often referred to as Community 
Integration or Community Participation Services.
Facility-Based Work
    Facility-based work includes all employment services which occur in 
a setting where the majority of employees have a disability.

    <bullet> These activities occur in settings where continuous job-
related supports and supervision are provided to all workers with 
disabilities.
    <bullet> This service category is typically referred to as a 
Sheltered Workshop, Work Activity Center, or Extended Employment 
program.
Facility-Based Non-Work
    Facility-based non-work includes all services that are located in a 
setting where the majority of participants have a disability and does 
not involve paid employment of the participant.

    <bullet> These activities include but are not limited to: 
psychosocial skills development, activities of daily living, 
recreation, and/or professional therapies (e.g., occupational, 
physical, and speech therapies). Individuals may participate in 
community activities, but the majority of an individual's time is spent 
in the program setting.
    <bullet> Continuous supports and supervision are provided to all 
participants with disabilities.

    This service category is also referred to as Day Activity, Day 
Habilitation, and Medical Day Care programs.
                        Appendix C: Cost Savings
  implication of enhanced ffp rate for integrated employment outcomes 
                               for states
    The following outlines possible implication for an enhanced Federal 
Financial Participation rate of 90 percent of costs incurred for States 
as consumers enter and remain in integrated employment as opposed to 
the annual estimated 50 percent FFP. There are a number of simple 
assumptions made for purposes of illustration. These assumptions 
include: (1) the average cost of facility-based employment on an annual 
basis is $10,000 (no adjustment taken for annual increases in this 
figure) and (2) there is on average a $2,000 annual reduction in the 
cost of supporting an individual consumer in integrated employment 
until this reduction reaches a minimum of $2,000 annually. There are no 
estimates made on the return on investment (ROI) through taxes paid or 
reduction in Social Security payments as a result of earnings. These 
measures will clearly increase the net savings in public resource 
should they be included. The totals presented reflect the savings per 
individual.


------------------------------------------------------------------------
                                              Integrated
                                Facility      Employment    Cost Savings
            Years             Based annual   Annual Costs        \1\
                                costs \3\         \2\
------------------------------------------------------------------------
1...........................       $10,000         $10,000            $0
2...........................        10,000           8,000         2,000
3...........................        10,000           6,000         4,000
4...........................        10,000           4,000         6,000
5...........................        10,000           2,000         8,000
                             -------------------------------------------
  Sub totals................        50,000          30,000        20,000
CMS (90 percent FFP for IE          25,000          27,000       (2,000)
 only)......................
State.......................        25,000           3,000        22,000
                             -------------------------------------------
6...........................        10,000           2,000         8,000
7...........................        10,000           2,000         8,000
8...........................        10,000           2,000         8,000
9...........................        10,000           2,000         8,000
10..........................        10,000           2,000         8,000
                             -------------------------------------------
  Sub totals................        50,000          10,000        40,000
CMS (50 percent FFP)........        25,000           5,000        20,000
State.......................        25,000           5,000        20,000
                             -------------------------------------------
10 Yr Total.................       100,000          40,000        60,000
CMS.........................        50,000          32,000        18,000
State.......................        50,000           8,000        42,000
------------------------------------------------------------------------
\1\ Amount of reduction in costs between costs of integrated employment
  and facility-based employment based on one individual entering and
  remaining in integrated competitive employment.
\2\ Total costs to CMS and States utilizing a 90 percent FFP rate. This
  rate is used for years 1 thru 5 only. The regular FFP rate (estimated
  on average to be 50 percent) is utilized in years 6 through 10.
\3\ Average annual costs of facility-based employment with no enhanced
  FFP rate. No annual adjustment in costs from year to year are taken
  here.


    The Chairman. Thank you. I think that's a good summation, 
Dr. Kiernan, and maybe I'll start with you, sir, 5-minute 
rounds here.
    Oh, I'm sorry. Did you have to preside?
    Senator Franken. Mr. Chairman, I just have to preside at 
noon, so I think I'm good.
    The Chairman. Well, OK.
    Senator Franken. I think if you did 5 and the Ranking 
Member did 5 and----
    The Chairman. You're next.
    Senator Franken. I did 5----
    The Chairman. You'd be OK. All right. Fine. We'll move 
ahead that way then. I was ready to yield to you my time right 
now, but that's OK.
    Senator Franken. Want me to take it? I'll take it.
    [Laughter.]
    The Chairman. You know, you better take it, because you've 
got to get over and preside.
    Senator Franken. Let's talk about--some more about whether 
I should take it.
    The Chairman. Oh, OK.
    [Laughter.]
    For 5 minutes.
    Senator Franken. You know, I have to admit, I had three 
hearings happening at one time, and last night, Mr. Egan, I 
read your testimony and I had to be here. In reading it last 
night, it was spectacular, and then in hearing and seeing you 
give it, equally spectacular. And so I just had to be here.
    It seems like one of the big issues here is the difference 
between sheltered workshops and competitive, integrated 
employment, and I guess I'll open it for everyone, but I wanted 
to ask you, Mr. Egan, because you're the one--you're in a fully 
competitive, integrated employment situation, as you testified 
so eloquently.
    A couple of months ago, I visited a community 
rehabilitation program in Minnesota called AccessAbility, and I 
was just blown away by the positive energy from people in the 
room who were happy to have a job. They were in what I call a 
sheltered workshop.
    Do you have strong opinions on--and then I'll open it to 
everyone, but I'd like to ask you first, Mr. Egan. Do you think 
that by being in a competitive, integrated employment that you 
just get a lot more out of it?
    Mr. Egan. I could say that I do get a lot out of it. And if 
you really do see the people behind me are probably the real 
examples of why this is very important to them because it 
provides opportunity for them and to grow within the company 
and to hold a job.
    Senator Franken. And, clearly, you have done that and you 
have moved up and you are evaluated along with everybody else, 
you're brought into meetings.
    Your mentor, tell me about him a little bit.
    Mr. Egan. Well, in my talk, I mentioned--his name is Greg 
and he has been quite a bit of a role model for me. I know 
there are many others like him, but what strikes me the most is 
that he doesn't mind joking around with me a little, so I don't 
mind that.
    It really shows that--when you have an individual working 
in a corporate company, you want to make sure that there's 
someone there that can offer guidance and support.
    Senator Franken. And someone joking around with you shows 
that he respects your sense of humor, that he says that you get 
what I'm saying.
    Mr. Egan. Absolutely. He's not here, but I can tell you 
he's probably hearing this hearing about now.
    Senator Franken. And would you say he's funny? When he's 
joking around with you, is he funny?
    Mr. Egan. Is this for the record?
    [Laughter.]
    Senator Franken. Yes. No. We'll strike it.
    [Laughter.]
    Mr. Egan. Thank you.
    Senator Franken. OK. You don't have to answer on that one.
    Mr. Kiernan, do you think his mentor is funny? No.
    When I went to this setting, the sheltered workshop, I was 
blown away by the positive atmosphere, and what I read was only 
a third of people with cognitive disabilities are employed. 
Obviously, we want to get as many employment opportunities as 
we can. Is there a place for sheltered workshops or do you 
believe that all employment should be in competitive, 
integrated settings?
    Mr. Kiernan. Let me answer it in a couple of ways for you. 
As we talked about regarding Employment First, there should be 
a presumption of employability for everyone. And so the 
presumption is that, in fact, everybody can work, and I think 
that's the starting point. That's the sense of expectation that 
we had talked about before.
    In the longer term, would we have people who are in 
sheltered employment? One of the things that--and I think Mr. 
Egan had commented on it--the advantages for him are the 
advantages of not just necessarily getting a paycheck, but also 
having the opportunity to have friends and interactions and 
have, frankly, the interactions that he just had with you and 
the sparring back and forth, but having a set of relationships 
and associations, that's what we're looking for within the 
competitive labor market.
    What we would find is that the difference in earnings, for 
the most part, between those folks in segregated or sheltered 
employment and those folks in competitive, integrated 
employment is fourfold. Those are data from the National Core 
Indicators that show that, in fact, there's much more of an 
opportunity for people to earn more money, to be more part of 
the social fabric.
    Now, I haven't answered your very specific question: Is 
there a place for sheltered workshops in the long-term?
    The State of Washington was the State that, in fact, is 
demonstrating that 65 percent of the people who are served by 
that State agency are in integrated employment, and their focus 
was really on getting to that goal by facilitating and helping 
the providers move to a point that they offered those services 
and they allowed people to advance and to move into employment.
    So their strategy, which is a sound strategy, was to take 
the system and move it forward. How they did that was by 
changing some of the contractual language that they use and 
saying, ``This is what we want to purchase.'' These are the 
types of expectations. What we talked about before. This is 
what the students who are coming out and graduating from school 
are asking for, I fully expect a job.
    This is what 63 percent of the participants in the study 
who worked in workshops are saying, ``I expect to go to work.'' 
And so that's what we're seeing--go for those expectations, can 
they work.
    Now, the other question is that the older worker in the 
workforce is really changing the way the industry is supporting 
workers in general and maintaining productivity. Some of the 
strategies that are used to support people with intellectual 
disabilities in the workplace are the same strategies or very 
similar strategies that are used to support the older worker.
    So is it a foreign place to do that? No, it's not really. 
In fact, for many industries--I'm sure that Randy Lewis would 
probably be able to support this in his experiences with the 
diversity of workers who are in the workplace--the expectations 
are that a victory would be when the labor force participation 
rate for people is the same, which is 71.9 percent.
    The Chairman. Thank you.
    Senator Franken. OK. Mr. Chairman, thank you for letting me 
go first. I really appreciate it, and thank you to the Ranking 
Member as well, Senator Enzi.
    The Chairman. Senator Enzi.
    Senator Enzi. Well, I want to thank everybody on this panel 
for serving and Mr. Egan for stealing the show.
    [Laughter.]
    Mr. Egan. Well, what can I say.
    [Laughter.]
    Senator Enzi. You were an outstanding witness, but we do 
have somebody on the panel from Wyoming, so I've got to direct 
some questions that way--and just recently the governor signed 
a bill that consolidated the Department of Employment and the 
Workforce Services and Ms. Evans has been made the head of 
that.
    Congratulations.
    Can you tell me a little bit about how this consolidation 
will make it a little more user-friendly for individuals with 
intellectual disabilities?
    Ms. Evans. Thank you, Senator Enzi. That's an excellent 
question, and, yes, we're going through many changes in Wyoming 
combining our Department of Employment and our Department of 
Workforce Services.
    The goal here is to be accessible to our constituents, and 
there is confusion, and that carries over into our disabled 
population. How do you actually access the services?
    We have just recently reorganized the agency to really 
serve two main purposes, clients and businesses on one hand and 
compliance on the other. And so how can we separate those 
services so that they can be integrated and work together even 
within our own agency? And I think there's much important work 
that can be done even within our own agencies at a very 
grassroots level to make our services accessible.
    For instance, our Vocational Rehabilitation Division will 
now work exceptionally close with our Employment Services 
Division and with our Unemployment Insurance Benefits Division, 
so that their policies, their procedures they overlap, they 
understand what each other do, so clients don't have to know, 
Oh, I bet I qualify for these services. I should go here. You 
can go anywhere and then we can direct you to the place that 
you need to be.
    That approach, I think, will really serve all clients, not 
only our clients who are challenged with a disability. I think 
we will see some very significant results from this effort.
    Senator Enzi. I think with your background that you're the 
perfect person to coordinate all of that, too. So I do think 
it'll make a significant difference.
    Can you tell me a little bit about the partnership that you 
helped form with Lowe's?
    Ms. Evans. Absolutely. This is an example of really 
leveraging resources from the public and the private sector. 
We're using our relationship with our U.S. BLN affiliate, the 
Wyoming BLN, that receives partial funding through our 
Vocational Rehabilitation Division and also accessing a State-
funded program called the Workforce Development Training Fund, 
which our legislature put into place to support businesses 
either to train employees before they're actually hired, which 
we call pre-hire, or for incumbent-worker training for 
employees who just need to upgrade their skills.
    This particular pool of money was our pre-hire money and it 
was used to support the training and services on site at the 
Lowe's distribution center. So there's actually an individual 
that's working on site at Lowe's to not only work with the 
individuals who are selected to be employed through this 
program, but then, as I mentioned, be trained--train the 
trainer. In other words, train employees at Lowe's to be able 
to problem solve long-term.
    So as issues come up--and Mr. Egan mentioned having that 
support there on site through a mentor or some form. And so 
these train-the-trainer programs will enable individuals to 
problem solve long after that specific job coach or the person 
that's funded through the grant program is gone, and I think 
that's the key to providing some long-term mechanism to support 
the employment into the future.
    Senator Enzi. Thank you, and I will have questions for all 
of you. I'll have to submit some of them in writing because of 
the amount of time that we have.
    Mr. Lewis, I want to thank you for your presentation and 
the efforts you've made with your company to get them to do 
more, and I like your goal of 20 percent inclusion in 
employment. Can you share some of the challenges with that and 
any Federal law or regulation that interferes with what you're 
trying to do?
    Mr. Lewis. Well, I wouldn't pretend to be an expert on 
policy. I think that's--Our job is to open up opportunities. 
But what I see in our business community is fear and sometimes 
it's well-intentioned laws and policies that tend to get in the 
way.
    Can I hire a deaf person to run a forklift? Some people 
interpret regs to say I cannot do that. Can I advertise that 
I'm actually looking for people with disabilities? Can we do 
that without discriminating against other groups? Can I say we 
want to hire 20 percent? Is that a quota? On and on and on.
    I think what happens is people inside companies, people who 
go into human resources, people who go into law for altruistic 
motives, to help other people, find themselves in a position to 
see the risk in hiring people with disabilities. So some of the 
things that we put out there with well intention are 
misinterpreted and get in the way.
    But, on the other hand, what businesses need--on the 
positive, the acts of commission, I think, public policy can 
engender is help us find candidates, help us train candidates, 
because businesses first see, Gee whiz, I can't spend a penny 
more to hire a person with a disability if it costs me more to 
train them, if it costs me more to find them.
    Most employers have the attitude, I'm open if they'll just 
come. I will build this field of dreams and I'll be completely 
open, and then they wonder why nobody shows up.
    There are invisible walls that we have built around our 
companies whether it be filling out the applications, whether 
it be access to be able to get there at work during hours that 
we need people to work or off shifts or how people interview 
or--well, on and on and on, but the biggest fear is people with 
disabilities can't do the job, and we've got to set examples of 
that.
    Now, I will comment on the sheltered workshop. I'm kind of 
like the pastor who is asked by his parishioner, ``Is tithing 
10 percent of gross or net?'' And I'm like that pastor who 
said, Either.
    There's lots of emotion around the sheltered workshops. I 
think there's a place for sheltered workshops, just like I 
think there is for employment in businesses like ours. I think 
there are people who are in sheltered workshops who would work 
very well out there in the commercial world and we need to help 
them get there.
    But if it comes to a choice for my son sitting at home by 
himself or being in a sheltered workshop, it's an easy 
decision. It's not an either/or.
    The Chairman. Well, I thank all of you for your expertise, 
and we'll be calling on that a lot more so that we can get this 
right as soon as possible. Thank you.
    I think Senator Blumenthal has to leave also shortly, so 
I'll recognize Senator Blumenthal.

                    Statement of Senator Blumenthal

    Senator Blumenthal. Thank you very much, Mr. Chairman, and 
I particularly want to thank the Chairman and the Ranking 
Member, Senator Enzi, for their leadership on this issue, and I 
look forward to working on the reauthorization of the Workforce 
Investment Act and the Elementary and Secondary Education Act 
as expected in this Congress.
    I don't need to reemphasize--and I won't because I'm really 
here to listen to you--the importance of this issue, and 
especially its importance at a time of economic stress when 
higher unemployment rates exist among folks with disabilities.
    I want to thank all of you for being here, but particularly 
Mr. Egan, and I was going to ask you whether you think Senator 
Franken is funny. But since he's gone I won't ask you to answer 
that.
    The Chairman. Make that for the record, too.
    [Laughter.]
    Senator Blumenthal. But I want to thank you for being here, 
sir, and for the model that you've provided to so many others. 
I join Senator Franken in saying that your testimony is 
spectacular. But as powerful as it is, I also found 
extraordinarily powerful the testimony that Mr. Lewis offered.
    In reading it, I am just tremendously impressed by the 
lessons that you offer to other employers. I want to thank you 
for the distribution center that you have in Windsor, CT, which 
has employed 40 percent of its workforce with people with 
disabilities.
    And I was especially impressed by the line in your 
testimony that reads,

          ``It turned out that most of the steps we took to 
        make work easier and more productive for people with 
        disabilities made work easier and more productive for 
        all employees,''

and that the special accommodations, as you called them, for 
people with disabilities, for the most part, cost less than 
$25, and, as you say, is money spent wisely to result in a 
successful employee.
    So my question to you is--and speaking to the other 
employers of the world--if they cared nothing about the 
humanitarian or the moral issues here, and they said to you, It 
was very powerful testimony, but my shareholders care only 
about the economics, what would you say to them?
    Mr. Lewis. Strictly speaking from the hard-line capitalist 
view of enriching our shareholders, I would say we have proof 
that it's dependable, safe and high performing, and it's an 
untapped resource.
    But also talking to the capitalist side that we are also 
citizens and our shareholders want us to be responsible to our 
communities. So this is a win/win. This is not an either/or 
situation either. And they will benefit.
    I will tell you that we have developed the best management. 
In those buildings with the highest percent of people with 
disabilities is our best management we have in our company, 
because they are forced to deal with people as individuals. 
That has made them better managers and more effective leaders.
    Senator Blumenthal. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Blumenthal.
    Mr. Lewis, Senator Blumenthal just touched on the fact that 
it costs about $25 per employee to do an adaptation. When we 
drafted the Americans With Disabilities Act, there is a portion 
in there that provides that employers are to provide reasonable 
accommodations. Then we wrote report language to lay out what 
we meant by reasonable accommodations.
    And then we provided--and not too many people know this--we 
provided a tax credit of up to $5,000 for any business that has 
to make a modification to a workplace or to a site to 
accommodate accessibility for employment of people with 
disabilities. Not too many people know that that's still in 
there, the $5,000 tax. So when you say $25, that's really a 
minor modification.
    I think it was Dr. Kiernan who said that many of the 
modifications that need to be made for people with intellectual 
disabilities, maybe physical disabilities, are the same that 
might apply to older workers. And so, in that context, I'm 
just, again, looking for your views on whether or not we need 
to do more in terms of this accessibility or do employers just 
need to look to you and to other examples of what needs to be 
done?
    It doesn't seem like there are many resources out there for 
an employer--especially a small employer. You're a big 
employer, but a small employer--to really know what they can do 
and what they can access in terms of making modifications. 
Could you just talk a little bit about whatever kind of 
modifications you had to make or continue to have to make?
    Mr. Lewis. Well, I would give us a grade of maybe a B^, 
maybe a C+ as far as accessibility, after seeing some of the 
things that are being done in universal design.
    We started out with trying just to make it easier for 
everybody. That means we limited the reach, so you didn't have 
to reach so far, that you didn't have to reach so high, that we 
had adjustable work surfaces. We eliminated the words on the 
screens and replaced those with graphics.
    I would say that we probably could do better for people who 
have challenges with sight or people that are limited in 
wheelchairs. We could have done better on that. And that's 
something we've learned.
    As far as your comment about knowing that there are tax 
credits, I think you are exactly right. People don't know, and 
so they put up that idea, I'm going to have to make all these 
accommodations. The deaf people are going to be asking for 
these special screens that I can't afford, and on and on. It 
becomes a defense mechanism against the hiring.
    But I think the accommodations that are outlined in the ADA 
are very good. They've made us better. Certainly, we're more 
accessible, and it's moved us in the right direction. I think 
we can go further.
    The Chairman. Mr. Egan, looking back, when you first 
started into the workforce, tell us a little bit about that. I 
mean, what did your parents think about that? I mean, how did 
they feel about you going out to integrated workforce and 
getting into the competitive employment? What was that like 
when you were a younger--You're a young man now, but when you 
were really young, what was that like for you at that point in 
time?
    Mr. Egan. Well, I could tell you that it started very early 
in my childhood development, when I had to do family chores 
around the house, and because of that I was not excused because 
of my disability. On the contrary, that also would help you in 
the long run when you're looking for jobs at how to be hired or 
employed.
    The Chairman. So your parents were very encouraging to you.
    Mr. Egan. Absolutely they were. And I think that's what all 
parents need to do--for their sons and daughters to do the same 
as well.
    The Chairman. I think what I'm looking at here is the 
expectation of employment. And getting that we kind of come 
back to the sheltered workshop issue. I think Mr. Lewis is 
right. It's not either/or.
    But there's a movement out among the disability community, 
and sometimes they're way ahead of us policymakers. And that is 
to change the presumption about employment--to change the 
presumption from that of, Well, you have a disability. We have 
low expectations. You'll just be fortunate if you can get into 
a sheltered workshop. We have to change that expectation to 
saying, Wait a minute. Everybody's got some kind of disability. 
Nobody can do everything. What are your abilities? How do we 
build on those abilities?
    And the expectation is that you're going to enter the 
workforce. You're going to enter that competitive workforce out 
there. So we want to build our education system around that in 
our elementary and secondary education so that kids with 
disabilities have that expectation.
    Now, I'll be honest with you, I'll bear a little bit here 
that I've wrestled with this myself because people said, 
``Well, Harkin, you might be setting people up to fail if you 
set expectations too high and people can't get there.''
    Well, I said, ``You know, kids are the same.'' I was just 
saying that to Senator Enzi--I said, ``Kids are the same. I 
don't care whether they're disabled or not, sometimes they need 
a good swift kick in the rear,'' you know, and they need to be 
pushed on or they will tend to seek the lowest kind of common 
denominator.
    And so that's why I think not setting up kids to fail, but 
setting them up with the confidence they need and the assurance 
that they can achieve better things. Everyone can achieve a 
little bit more. Everybody can do something a little bit 
better. And I think we have failed in our education system and 
in our career opportunities to really provide that kind of 
stimulation to young people with disabilities.
    So the disability community is moving on this. What's up to 
us as policymakers is to figure out how we do it on the 
education side--How we figure into our education system and 
other systems a connection to make sure that kids with 
disabilities have all of the basics that they need either for 
career or college, and then to build into our VR system and 
others a connection with the schools for this kind of training. 
Then we have to build with the private sector. We have to get 
the private sector really involved in this. And thank God we 
have some great leaders out there in the private sector moving 
ahead on this.
    This fall, beginning this October, Dr. Kiernan, beginning 
this October, states--any State that wants to implement the 
Olmstead Decision--I don't need to tell you all what that is, 
the Olmstead Decision--to provide for supportive services for 
people with disabilities will get a 6-percent bump-up in their 
FMAP.
    I am predicting that a lot of States are going to do that. 
First of all, they have a constitutional obligation to 
implement Olmstead, except this court carved out and said, 
however, ``if you can't afford to do it, we don't expect you to 
do it.''
    Well, now, with this 6-percent bump-up in FMAP, I think 
States will have a lot of encouragement now to really implement 
Olmstead, which means that a lot of people with disabilities 
now are going to have much higher expectations, not only in 
their living, but in getting to work and getting jobs. I think 
we have to start getting ready for that.
    That's going to happen this October, and so that's why I 
feel strongly about both in ESEA reauthorization, and in WIA 
that we think about this and we try to implement policies that 
will get these kids ready and young people ready for 
competitive employment and for retraining.
    We have a lot of people coming into living arrangements 
where they may have been in an institution and they're going to 
come out of that institution and they're not going to be 
content to sit around. They want to go out and do things. They 
want to do things like Mr. Egan's doing, and so we have to have 
the retraining, voc rehab retraining for people like that also.
    To me, this is the challenge for us, and that's why I 
wanted to have this hearing, to kind of get the ball rolling on 
this to figure out what we, as policymakers, need to do to make 
the environment better for the private sector to know that 
they're going to have young people who are ready for 
competitive employment or people who have been retrained, who 
are now coming out of institutions that will be living on their 
own in integrated settings because of what's happening in 
October--in the private sector--to know that we're implementing 
those policies and to let the disability community know that 
we're moving ahead on a policy basis to make sure that that 
education and training is there. So that's really kind of where 
we're headed.
    I didn't mean to go on so long, but I just thought that it 
was important for everyone to know here what's happening this 
October and what's going to happen in the year after and the 
year after when more and more people are going to be having 
access to community-based supports, supportive services.
    And I think one of our witnesses, maybe the first one, said 
that even with the costs of supportive services, we had 
positive economics outcomes, even with supportive services, 
that for every dollar invested, we got back, I think, $1.46 or 
something like that, even with supportive services.
    Many times, people who want to work--and I don't know--I 
didn't see this on your presentation that I watched on the CD, 
Mr. Lewis, but a lot of people with disabilities can go to 
work, but they may need something in the middle of the day. 
They may need something where they need some support or 
something during the day, but if they don't have that, they 
can't work.
    I've often told the story about my nephew, who's 
quadriplegic, but he has a nurse in the morning who gets him 
ready to go to work and then a nurse at night takes care of 
him, and that's all well and good. He got injured in the 
military, and the VA picks up those costs, but how about people 
that weren't injured in the military? So without those 
supportive services he couldn't work. And there are a lot of 
people that can't work without some supportive service that's 
out there.
    I don't know if you have those kind of things in Walgreens 
or not, Mr. Lewis, where people who may need something during 
the day, may need a little bit of time off, maybe need someone 
to come in and help them with something during the day, if you 
have that kind of a situation that's confronted you.
    Mr. Lewis. I suspect--I can't cite a specific example, but 
I know that if that were needed, we would try to accommodate 
that. That was part of the thing going in, how could we have a 
sustainable model and do this? All people are different. 
There's a saying in the autism community that says once you've 
seen one person with autism, you've seen one person with 
autism.
    The Chairman. That's right.
    Mr. Lewis. And that extends to all disabilities.
    The Chairman. Exactly. Exactly.
    Mr. Egan. Senator, I'd like to add one comment to that.
    The Chairman. Yes.
    Mr. Egan. When I first started, I started in the Bridges 
Marriott Program Foundation that provides internships. So my 
question to you is where are the internships involved in that 
process?
    The Chairman. Good point. We need both private-sector 
internships and more internships around here, too, perhaps. Is 
that what you're saying?
    Mr. Egan. Yes. Corporate companies could also step forward 
and hire interns then.
    The Chairman. Very good.
    Mr. Egan. It's very rewarding.
    The Chairman. Thank you.
    Ms. Evans, I didn't get a chance to quiz you, but 
congratulations, and Wyoming is sort of a stellar example of 
getting people with disabilities employed. I think you are one 
of the top in the Nation, if I'm not mistaken, and so we look 
closely at what you're doing in Wyoming. Congratulations on 
that.
    Dr. Kiernan, thank you again for all of your work in the 
past and giving us the data and the information we need.
    Mr. Egan, it's been a delight having you here. Thank you 
very much for what you've added to this hearing and what you've 
added to our knowledge base.
    Mr. Lewis, I thank you for a great example of what you've 
done with Walgreens. We've just got to get you Xeroxed or 
something.
    [Laughter.]
    Mr. Egan. Maybe that could be a good company to hire people 
with disabilities.
    [Laughter.]
    The Chairman. That's right. Exactly.
    Well, if there's nothing else--Do any of you have anything 
else to add? The record will stay open for 10 days for other 
comments or questions from other Senators who could not be 
here, and, with that, the committee will stand adjourned.

    [Whereupon, at 12:14 p.m., the hearing was adjourned.]

                                   

      

</pre></body></html>
